<html>
<title> - OVERSIGHT OF THE U.S. DEPARTMENT OF LABOR'S VETERANS EMPLOYMENT TRAINING SERVICE, DISABLED VETERAN OUTREACH PROGRAM AND LOCAL VETERANS EMPLOYMENT REPRESENTATIVE PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                  OVERSIGHT OF THE U.S. DEPARTMENT OF

                  LABOR'S VETERANS EMPLOYMENT TRAINING

                   SERVICE, DISABLED VETERAN OUTREACH

                 PROGRAM AND LOCAL VETERANS EMPLOYMENT

                         REPRESENTATIVE PROGRAM

=======================================================================



                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 25, 2007

                               __________

                           Serial No. 110-58

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                     U.S. GOVERNMENT PRINTING OFFICE

39-467 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, Jr., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

JOE DONNELLY, Indiana                JOHN BOOZMAN, Arkansas, Ranking
JERRY MCNERNEY, California           RICHARD H. BAKER, Louisiana
JOHN J. HALL, New York               JERRY MORAN, Kansas

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                           C O N T E N T S

                               __________

                            October 25, 2007

                                                                   Page
Oversight of the U.S. Department of Labor's Veterans Employment 
  Training Service, Disabled Veteran Outreach Program and Local 
  Veterans Employment Representative Program.....................     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    32
Hon. John Boozman, Ranking Republican Member.....................     2
    Prepared statement of Congressman Boozman....................    32

                               WITNESSES

U.S. Department of Labor, Hon. Charles S. Ciccolella, Assistant 
  Secretary for Veterans' Employment and Training................    17
    Prepared statement of Hon. Ciccolella........................    89

                                 ______

American Legion, Ronald F. Chamrin, Assistant Director, Economic 
  Commission.....................................................     3
    Prepared statement of Mr. Chamrin............................    33
Paralyzed Veterans of America, Richard Daley, Associate 
  Legislative Director...........................................     5
    Prepared statement of Mr. Daley..............................    38
Vietnam Veterans of America, Richard F. Weidman, Executive 
  Director for Policy and Government Affairs.....................     7
    Prepared statement of Mr. Weidman............................    40

                       SUBMISSIONS FOR THE RECORD

National Association of State Workforce Agencies, Larry Temple, 
  President, and Executive Director, Texas Workforce Commission, 
  statement......................................................    94
Veterans of Foreign Wars of the United States, Justin Brown, 
  Legislative Associate, statement...............................    97

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:
Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
  Economic Opportunities, Committee on Veterans' Affairs, to 
  Ronald F. Chamrin, Assistant Director, National Economic 
  Commission, American Legion, letter dated October 30, 2007, and 
  response letter dated November 28, 2007........................   100
Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
  Economic Opportunities, Committee on Veterans' Affairs, to 
  Richard Daley, Associate Legislative Director, Paralyzed 
  Veterans of America, letter dated October 30, 2007, and 
  response letter dated November 16, 2007........................   103
Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
  Economic Opportunities, Committee on Veterans' Affairs, to Rick 
  Weidman, Executive Director for Policy and Government Affairs, 
  Vietnam Veterans of America, letter dated October 30, 2007 [NO 
  RESPONSE WAS RECEIVED FROM MR. WEIDMAN.].......................   105
Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
  Economic Opportunities, Committee on Veterans' Affairs, to Hon. 
  Charles S. Ciccolella, Assistant Secretary, Veterans' 
  Employment and Training Service, U.S. Department of Labor, 
  letter dated October 30, 2007, and DoL responses...............   105


                OVERSIGHT OF THE U.S. DEPARTMENT OF



                 LABOR'S VETERANS EMPLOYMENT TRAINING



                   SERVICE, DISABLED VETERAN OUTREACH



                       PROGRAM AND LOCAL VETERANS



                   EMPLOYMENT REPRESENTATIVE PROGRAM

                              ----------                              


                       THURSDAY, OCTOBER 25, 2007

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.
    The Subcommittee met, pursuant to other business, at 2:39 
p.m., in Room 334, Cannon House Office Building, Hon. Stephanie 
Herseth Sandlin [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Herseth Sandlin, McNerney, Hall, 
and Boozman.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon, ladies and gentlemen. 
The Committee on Veterans' Affairs Subcommittee on Economic 
Opportunity hearing on Oversight of the Disabled Veterans 
Outreach Program (DVOP) Specialists and Local Veterans 
Employment Representatives (LVER) Program will come to order.
    Like the states of many of my colleagues on the 
Subcommittee, the State of South Dakota has had servicemembers 
that have been activated in support of operations in Iraq and 
Afghanistan, including just this week the 147th Artillery 
National Guard Unit based out of Salem, South Dakota. Some of 
these brave men and women have returned injured and are 
currently in need of healthcare and employment services. They, 
like all disabled veterans from around the country, deserve our 
best efforts to provide a seamless and effective transition 
from military service to civilian life and the workforce.
    Earlier this year, this Subcommittee held its first hearing 
that included the U.S. Department of Labor's (DoL) Disabled 
Veterans Outreach Program Specialist and Local Veterans 
Employment Representative programs, which are primarily 
administered through State employment agencies. As our 
distinguished panelists know, the primary role of DVOP and LVER 
is to assist veterans to obtain employment and conduct employer 
outreach. Specifically, the implementation of DVOP was designed 
to meet the employment needs of disabled veterans. I applaud 
the sincere dedication of these professionals, but also believe 
further opportunities to enhance these programs still exist.
    As I have traveled around my State meeting constituents, I 
have had the privilege to meet with servicemembers and veterans 
to discuss issues important to them and to their families. 
While healthcare, compensation and education benefits rank high 
among the issues raised, the need for employment opportunities 
has resonated clearly among the veteran community. Their 
ability to acquire proficient skill sets, obtain the needed 
assistance to successfully connect to an employer and apply 
those skills to the workforce are fundamental to their ability 
to succeed in today's workforce environment. This is especially 
true at a time when we can expect an increased level of 
retirements within the next 5 years. I truly believe the 
Department of Labor's DVOP and LVER programs have a critical 
role in assisting our veterans meet this need.
    Today's hearing will follow up on at least three 
Subcommittee hearings held in the 109th Congress under Mr. 
Boozman's leadership and our first Subcommittee hearing held on 
March 7 of this year. In those hearings we had the opportunity 
to hear from veteran service organizations (VSOs) concerns on 
funding levels, DVOP and LVER training, accountability, and 
priority of service for our veterans.
    Mr. Boozman, I look forward to working with you and all 
Members of the Subcommittee, the veteran service organizations, 
and the administration officials with whom we work frequently 
to address these concerns and ensure our Nation's veterans are 
provided the best services to succeed in life after their 
service to our country.
    I now recognize our Ranking Member, Mr. Boozman, for his 
opening remarks.
    [The prepared statement of Ms. Herseth Sandlin appears on
p. 32.]

             OPENING STATEMENT OF HON. JOHN BOOZMAN

    Mr. Boozman. Thank you, Madam Chair, and I appreciate your 
leadership in this area.
    I would like to ask unanimous consent that the National 
Association of State Workforce Agencies' statement be placed in 
the record.
    Ms. Herseth Sandlin. So ordered.
    [The statement of National Association of State Workforce 
Agencies appears on p. 94.]
    Mr. Boozman. Thank you.
    Since its inception the mission of the DVOP/LVER program 
has been to place veterans, especially disabled veterans, in 
suitable employment. Recent changes in the law have refocused 
the duties of DVOPs and LVERs and added flexibility to the 
system by authorizing States to fill those positions with half-
time employees. However, there continues to be controversy 
regarding the performance of the system.
    We continue to hear that employment office managers divert 
veteran staff to serve other nonveteran clients. We also hear 
that competition would bring improved performance throughout 
the system.
    Last year at the suggestion of the Veterans Employment and 
Training Service (VETS), we removed language from what 
eventually became Public Law 109-461 that would have added 
specific data-reporting requirements so that VETS could 
implement the common measures. Now that a year or so has 
passed, it will be very interesting to hear whether common 
measures are providing a sufficiently robust picture of how we 
are doing in placing veterans compared to their nonveteran 
counterparts.
    I am also open to any suggestions our witnesses may have to 
improve the system. It is vital that our employment programs 
enable veterans to find suitable employment that promotes their 
wellness and quality of life.
    And, again, before we get started, I want to thank our 
panel. Under Ms. Herseth Sandlin's leadership last year or last 
Congress, on several occasions you all have always come and 
testified and done a tremendous job. And again, we appreciate 
your hard work for veterans. So I look forward to hearing your 
testimony today.
    Ms. Herseth Sandlin. I thank the distinguished Ranking 
Member.
    Joining us on our first panel is Mr. Ronald Chamrin, 
Assistant Director of Economic Commission for the American 
Legion; Mr. Richard Daley, Associate Legislation Director for 
the Paralyzed Veterans of America (PVA); and Mr. Rick Weidman, 
Executive Director for Policy and Government Affairs for 
Vietnam Veterans of America (VVA).
    Gentlemen, welcome back to the Subcommittee. I would like 
to remind each of you that your complete written statements 
have been made part of the hearing record, so please limit your 
remarks to 5 minutes so we have opportunities to explore 
questions. I want to make sure everyone has the opportunity to 
do so. No word yet on votes, so I think we are going to be good 
to go with your opening statements and our questions. Again, 
welcome today.
    Mr. Chamrin, we will begin with you. You are recognized for 
5 minutes.

 STATEMENTS OF RONALD F. CHAMRIN, ASSISTANT DIRECTOR, ECONOMIC 
     COMMISSION, AMERICAN LEGION; RICHARD DALEY, ASSOCIATE 
   LEGISLATION DIRECTOR, PARALYZED VETERANS OF AMERICA; AND 
     RICHARD F. WEIDMAN, EXECUTIVE DIRECTOR FOR POLICY AND 
        GOVERNMENT AFFAIRS, VIETNAM VETERANS OF AMERICA

                 STATEMENT OF RONALD F. CHAMRIN

    Mr. Chamrin. Thank you, Madam Chairwoman, Ranking Member 
Boozman, and Members of the Subcommittee. Thank you for the 
opportunity to present the American Legion's view on the 
Department of Labor's Veterans' Employment and Training 
Service.
    The U.S. Government Accountability Office (GAO) reported in 
May 2007 that approximately 700,000 veterans are unemployed in 
any given month. Veterans returning from duty in support of the 
Global War on Terror are not always coming back to a hero's 
welcome, at least not from all employers. The American Legion 
notes that VETS reports an unemployment rate in 2006 of 
approximately 10 percent for veterans ages 20 to 24; improved 
in comparison to 2005, but it is still higher than the national 
average of nonveterans within the same age group and 
significantly higher than the general population as a whole.
    This committee requested that we respond to four questions 
in addition to our concerns. Number one, is DoL properly 
implementing the DVOP/LVER programs within the States? The Jobs 
for Veterans Act, Public Law 107-288, has eliminated the 
requirement that VETS review all workforce centers annually, 
and this has minimalized Federal oversight of the programs. 
This law has removed the job descriptions of the DVOPs and 
LVERs from Title 38 and given the States the ability to 
establish the duties and responsibility, thus weakening the 
VETS programs across country by eliminating the language that 
required these staff positions provide services only to 
veterans.
    Finally, the passage of Public Law 107-288 removed the 
Federally mandated naming formulas for assigning DVOPs and 
LVERs in each State. This action has allowed each State to 
determine the number of veterans employment personnel in each 
State based on budgetary limitations. States now have the 
discretion of assigning one half-time DVOP and/or LVER to an 
office while eliminating positions in offices that need veteran 
staff by virtue of veteran intake.
    The American Legion supports the restoration of language of 
Chapter 41, Title 38, that requires that all half-time DVOP/
LVER positions be assigned only after approval of the DVOP. And 
that the Secretary be required to monitor all career centers 
that have veteran staff assigned. The American Legion also 
supports legislation that restores the duties and 
responsibilities of DVOPs and LVERs to include case management, 
outreach to veterans and job development.
    VETS provide staff to participate in a Transition 
Assistance Program (TAP) on military installations. Higher 
demands placed on LVERs to develop TAP modules in addition to 
their normal assistance programs has the potential for 
weakening their overall capability. In order to circumvent any 
gaps in providing services, additional funding to support an 
increased number of LVERs should occur.
    The National Veterans' Employment and Training Service 
Institute (NVTI) provides training to Federal and State 
employment service providers in competency-based training 
courses. Public Law 109-461 stipulates that a newly hired DVOP 
or LVER must attend the NVTI to be trained for their position 
within 3 years of hiring. Unfortunately a newly hired 
individual can retain the position for 2\1/2\ years before they 
are required to begin training to ensure that graduation is 
within the 3-year hiring period. Newly hired employment 
specialists without the benefit of NVTI training may be ill-
prepared to properly assist veterans seeking meaningful 
employment or facing significant barriers to employment.
    To close this loophole, the American Legion recommends that 
newly hired DVOPs and LVERs must be trained at NVTI within the 
first year of employment, and all untrained DVOP/LVER staff 
within 3 years of hiring at the time of enactment of any new 
legislation must be trained within 1 year.
    Number two, under what circumstances should States lose 
funding for failing to meet their obligations? The American 
Legion does not have a position regarding this stipulation.
    Number three, are part-time DVOPs and LVERs meeting the 
needs of rural and urban-area veterans? The American Legion has 
observed by virtue of our members who are employed as DVOPs and 
LVERs that due to the half-time status, these personnel are 
unable to travel to the locations where veterans tend to 
congregate. Their travel budgets have been slashed. Their half-
time status prohibits periods of travel that will extend beyond 
half a day, and their other requirements force them to be able 
to assist nonveterans within their employment offices.
    Number four, what is your organization's position on how 
DoL tracks its performance measures? Although Public Law 107-
288 requires veterans' priority services in all DoL programs, 
the Employment and Training Administration has not monitored 
the performance, nor do they have a way of tracking the 
performance. The Assistant Secretary for Veterans' Employment 
and Training (ASVET) cannot accurately capture local, statewide 
and national data to adequately assess performance outcomes or 
hold the various States accountable for providing priority 
services to veterans.
    The American Legion supports that any agency providing 
Federal funding to provide veterans employment and training 
services must adhere to priority of service and develop 
reporting systems that track priority services to veterans as 
provided and outlined in Title 38.
    The American Legion strongly supports improvements in the 
reporting programs available to and administered by VETS. The 
ASVET should be empowered to establish clear and up-to-date 
realtime performance standards and a means of collecting data 
to properly measure performance at the local, State and 
national level.
    I see I am running out of time, so I will wrap up.
    In conclusion, transition assistance, education and 
employment are each a pillar of financial stability. By placing 
veterans in suitable employment sooner, the country benefits 
from increased income tax revenue and reduced unemployment 
compensation payments, thus greatly offsetting the cost of TAP 
training.
    Madam Chairwoman, thank you for the opportunity to present 
the American Legion's views. This concludes my testimony. I 
would be happy to answer any question that you may have.
    [The prepared statement of Mr. Chamrin appears on p. 33.]
    Ms. Herseth Sandlin. Thank you very much, Mr. Chamrin.
    Mr. Daley, you are now recognized for 5 minutes.

                   STATEMENT OF RICHARD DALEY

    Mr. Daley. Thank you, Congresswoman Herseth Sandlin, 
Ranking Member Boozman and Members of the Subcommittee. 
Paralyzed Veterans of America would like to thank you for the 
opportunity to testify today on the Department of Labor's 
Veterans' Employment and Training Service and programs under 
its jurisdiction.
    The Federal Government can play an important role for 
veterans, and particularly disabled veterans that are leaving 
the military in large numbers. The Department of Labor 
Veterans' Employment and Training Service has created specific 
programs that provide help for veterans seeking employment. 
Most important of these services is the Veterans' Employment 
and Training Service and the Disabled Veterans Outreach Program 
coordinators, DVOPs, and the Local Veterans Employment 
Representatives, better known as LVERs. PVA, along with other 
veteran service organizations, have worked for years to have 
clear performance standards put on both the DVOPs and the LVERs 
staff. In 2002, Veterans' Employment and Training Service 
initiated limited performance measures based on the rates of 
employment and retention for veterans.
    For disabled veterans to successfully enter the job market, 
they must first choose a career that most likely requires 
additional training or initial training for a new employment 
position. This is provided through the Department of Veterans 
Affairs Vocational Rehabilitation and Employment Program. The 
Vocational Rehabilitation and Employment counselors working 
with the Disabled Veterans Outreach Program coordinators and 
the Local Veterans Employment Representatives can improve the 
seamless transition from military to civilian employment.
    Many veterans that are in what is known as service-
connected fall into the larger category of 30 percent disabled. 
They may choose to stay in their career field that the military 
has trained them in. The Disabled Veterans Outreach Program and 
the Local Veterans Employment Representatives can play an 
important role in these situations because they have the 
knowledge of the employment opportunities in the areas, they 
have knowledge of the veteran's disability, and often they have 
built relationships with local employers if they have been out 
doing their job as full-time representatives would be.
    PVA believes that the Department of Labor is doing a 
reasonably good job of implementing the Disabled Veterans 
Outreach Program and Local Veterans Employment Representative 
programs. Their primary responsibility is to refund and monitor 
these programs. Unfortunately, Congress has not increased the 
funding for these programs since 2003. Without adequate 
funding, these programs have struggled to manage an increasing 
workload and address the needs of the new veterans.
    Along with inadequate program funding, the Department of 
Labor does not have discretionary funding for special projects. 
Discretionary funds could be used for new pilot programs. 
Recently last year, the Paralyzed Veterans of America, they had 
a plan to start a vocational employment counseling office down 
in the Richmond, Virginia, Veterans Affairs Hospital. That is 
one of the larger spinal cord units in the system, and they 
also have a trauma center there. They sent out grants to a lot 
of areas, and one of them was Department of Labor, to seek some 
funding. And the Department of Labor didn't have funding for 
extra programs like that. Eventually they did receive money 
from a private source, and they opened that office back in 
August, and they hope to open three more in the next 18 months 
depending on revenue available.
    To address the needs of today's veterans, Congress might 
consider reimplementing a program similar to the servicemembers 
Occupational Conversion and Training program (SMOCTA). Although 
this program was funded by the Department of Defense (DoD), it 
was administered by the U.S. Department of Veterans Affairs 
(VA) and Department of Labor. This was considered one of the 
better programs to serve transitioning military personnel. 
SMOCTA was established during the downsizing of the military 
for veterans discharged after August 1st 1990 and was intended 
to help the veterans that had limited transferable job skills. 
A similar program could be useful for the young men and women 
today transitioning from the military.
    Chairwoman Herseth Sandlin, Ranking Member Boozman, Members 
of the Subcommittee, I would like to thank you again for an 
opportunity to express our concerns on this issue. I will be 
available to answer any questions you may have.
    [The prepared statement of Mr. Daley appears on p. 38.]
    Ms. Herseth Sandlin. Thank you for your testimony, Mr. 
Daley.
    Mr. Weidman, welcome back. We look forward to your 
testimony. You are recognized for 5 minutes.

                   STATEMENT OF RICK WEIDMAN

    Mr. Weidman. Madam Chairwoman, thank you very much for the 
opportunity for the Vietnam Veterans of America to present our 
views here today before you and Mr. Boozman and the full 
Subcommittee. I thank you also for your indulgence. I know that 
we submitted an extraordinarily long statement, but felt it was 
important to get on the record how did we get to where we are 
today, and unfortunately there aren't that many old guys like 
me who remember this stuff when it happened. And institutional 
memory is not being what it could be, you have to know how you 
got to where you are and where you are in order to figure out 
where do you need to go to accomplish your goal.
    And the problem is that where we are today is not in a good 
place. Accountability is--while we would associate ourselves 
with the fine statements of the American Legion and Paralyzed 
Vets of America, we frankly believe that just more money is not 
the need here. The need is for more accountability. We provide 
$160 million to the State workforce development agencies every 
year, and we do not get half of that in terms of bang for the 
buck, in our view. Half-time LVERs, you are lucky if you get a 
day out of 5. Half-time LVRs, the same thing is true. That is 
particularly true in the urban areas, less so in some States.
    There are a handful of States where there is a corporate 
culture and strong political leadership that has been committed 
to veterans' employment both in the permanent bureaucracy and 
in the political leadership for a long time, so it works well. 
And there is veterans' priority service, even when it was 
formally not in the law for a period of about 5 years, and in 
States like South Dakota, in States like South Carolina, North 
Carolina and a number--a handful of other States, where the 
corporate culture moves us forward. However, as I get older, I 
believe less and less in the eleemysonary instinct and do think 
that veterans should be like Blanche DuBois in ``A Streetcar 
Named Desire.'' It depends on the kindness of strangers.
    Priority of service is, in fact, in law in the Job Veterans 
Act. There are no implementing regs, it is not enforced, and we 
don't have a good measure of how many people are actually 
getting jobs. What we are measuring now is obtained employments 
derived from the unemployment insurance tax rolls, so that if I 
register in order to get an unemployment check with the 
Maryland Department of Labor, Licensure and Regulation, I have 
them automatically register with the so-called job service. And 
if I never walk into that office, and they never do a darn 
thing for me, when I get my job on my own, they count it as an 
obtained employment. And, in fact, what we are measuring now is 
the local labor, condition of the local labor market and the 
individual initiative of the veterans out there seeking work 
for themselves. In some cases, you have fine DVOPs, and in many 
cases fine DVOPs and LVERs who would do a terrific job if, in 
fact, they were supported in doing so.
    We need to change this system to one that does hold those 
folks accountable and all the way. The appendix to my statement 
was a bill that was derived in 19--excuse me, actually it 
started in 1999--in 2000, in an unprecedented series of 
colloquia that took place in this room with all the players; 
the workforce development agencies, the veteran service 
organizations. Everybody that anybody could think of who felt 
they should be a player were included in those colloquia to 
arrive at a consensus bill to try and build some accountability 
into the system and make it work for today's veterans, and it 
was blown apart at the last minute because the workforce 
development agencies and then Assistant Secretary of Labor 
lobbied against it at the last minute, and so it was not 
enacted. That then led to the Jobs for Veterans Act in 2002, 
which we would maintain has still not been implemented.
    So where does that leave us today? Where that leaves us 
today is with over a million and a half young men and women who 
have processed through Iraq alone, not counting Afghanistan, 
and National Guard and reservists, as well as Active Duty folks 
who are coming home.
    I use the football analogy, borrowing heavily from Mr. 
Boozman, that you can rack up all the yards in the world and 
all the completed passes and long gains on the ground to get 
down in the Red Zone. We spend billions to help people get to 
the point where they are job-ready, and if we don't take that 
final step and punt it into the end zone of actually helping 
them get a job, then all of those yards gained and all of those 
billions spent is for naught because it is not going to finish 
the job that we should do for every single man and woman who 
has been lessened by virtue of military service, which is to 
help make them as whole again as possible.
    I thank you very much for the opportunity to testify here 
today, and I would be happy to answer any questions, Madam 
Chairwoman.
    [The prepared statement of Mr. Weidman appears on p. 40.]
    Ms. Herseth Sandlin. Thank you, Mr. Weidman.
    Let me start out with a question for all three of you. I 
think, Mr. Weidman, you addressed it to a degree. It relates to 
the relative effectiveness of the One-Stop Career Centers 
around the country. You identified some States, including my 
own. I would like to get Mr. Chamrin and Mr. Daley's opinions 
on the One-Stops across the country. How effective are they? 
Were there disparities of effectiveness? Have you identified 
factors that that may be attributable to? Not that North 
Carolina and South Carolina are as rural in most parts of their 
States as, say, South Dakota. I mean, are there some best 
practices that are being utilized by certain States or certain 
One-Stop Career Centers? Why aren't they being utilized across 
the country?
    Mr. Chamrin. Thank you, Madam Chair.
    I concur with what Mr. Weidman said in regards to the Tax 
Code and how they are tracked. One veteran can walk into one 
office and never talk to a DVOP/LVER or get any assistance and 
be credited as getting a job.
    Now, some of the best practices that we find are in the 
full-time DVOPs and LVERs, not the half-time. And why is that? 
An LVER can concentrate solely on veterans. They can be more 
efficient, they can streamline their programs, they can create 
a flow chart, they are also veterans themselves. So an LVER 
knows the atmosphere of a transitioning veteran. They know what 
to expect, know the pitfalls of what is going to happen.
    Ms. Herseth Sandlin. May I interrupt?
    Mr. Chamrin. Sure. Go right ahead.
    Ms. Herseth Sandlin. Would it be fair to state that half-
time DVOPs or LVERs are not effective across the board? Perhaps 
one of the things we need to be looking at is a restriction on 
how the money that is sent to the States to administer these 
grants is utilized and not allowing part-time DVOPs or LVERs?
    Mr. Chamrin. If I can say what you said, yes. We find that 
the half-time DVOPs and LVERs, can't go out to a lot of the 
rural areas because some of them have to remain in their 
offices to ensure that any nonveteran who goes in during that 
other half-time status is taken care of. So if you have a half-
time DVOP--I am making up an example, but some other States 
have told us this. Let us say you have a DVOP who from 8:00 to 
12:00, is totally dedicated to veterans, and then from 12:00 to 
4:00, nonveterans. If they need to travel 50 to 100 miles to 
where veterans congregate, and they are still required to be in 
an office the other half of the day, they are in trouble. So we 
feel that any half-time DVOP/LVER should only be approved by 
the State Director for Veterans' Employment and Training (DVET) 
in very, very little situations.
    Ms. Herseth Sandlin. Mr. Daley, did you have any further 
comments?
    Mr. Daley. About the half-time or the full-time, we would 
certainly prefer a full-time representative because they would 
have the time to work with the veterans and then also in the 
afternoon or the morning go out in the community with the 
businesses and look for those opportunities. But if the only 
choice is a half-time person, of course we would agree with a 
half-time. But certainly the job could be done much better with 
a full-time representative, and they are usually a veteran, and 
they care about veterans.
    Ms. Herseth Sandlin. Thank you.
    The reporting system then, in terms of ensuring 
accountability. I have heard concerns about what data they are 
utilizing of reporting effectiveness rates. Do you have a 
suggested model, Mr. Chamrin, on a model that you have seen 
utilized elsewhere in tracking effectiveness either for other 
programs whereby veterans are the beneficiaries or other 
discussions you have had with your colleagues and other veteran 
service organizations? Or is it not so much a model, but really 
requiring some contact with the DVOP or LVER and not utilizing 
more general labor statistics?
    Mr. Chamrin. We feel that all reporting should go back to 
the Assistant Secretary of Labor for VETS, and he should have 
all the numbers at his disposal to better equip him to make 
better decisions.
    Ms. Herseth Sandlin. Mr. Boozman, I will turn it over to 
you now for your questions.
    Mr. Boozman. Thank you, Madam Chair.
    First of all, I enjoyed, Mr. Weidman, your written 
testimony since I think you really give a good history of how 
this program has progressed. I think that was valuable for me 
in the sense that I have been around this up to my eyebrows in 
it, for the last several years and feel that these things just 
take time to understand. But, again, I think that was very 
helpful. Members are busy. We have a lot of reading to do in 
regard to what we have going on here, and you can multiply that 
times all different things. But that is something I think that 
we might suggest that the Members take the time to read the 
stuff again. I felt like it was very helpful, so give yourself 
a pat.
    Mike was a little concerned. We didn't really understand 
your Blanche DuBois. That was a little over the Arkansas head 
here.
    Mr. Weidman. I told Commander Brinck that I would be glad 
to give him a book on tape and spell out the big words for him, 
sir.
    Mr. Boozman. That would be much appreciated.
    You suggest releasing veteran staff members from the yoke 
of local office managers. How would you have that happen? How 
specifically would you do this?
    Mr. Weidman. We are really up a point, at least it seems to 
us at VVA. There was a time where we were habituators, if you 
will, in Mr. Porter's office when he was Chair of the relevant 
Subcommittee on Appropriations for Labor. And after the 2000 
agreement came unwound, we made the decision that we are no 
longer going to extend ourselves to fight for anything except 
NVTI, the Veterans' Workforce Investment Program (VWIP) and 
Homeless Veterans' Reintegration Program (HVRP). And HVRP and 
VWIP, there is accountability in those programs. We are getting 
the bang for the buck. They work. They get people in jobs, and 
they go out and do job development.
    The DVOP/LVER, we are not getting the bang for the buck, 
and there is administrative overhead. Indirect admin and direct 
admin runs as high as 37 percent in that program. So out of 
$160 million, just on the face of it you are already $50 
million gone just in admin overhead.
    So coming back to your point, what I am trying to say is 
that we are at a point where we either build some strict 
accountability and measures of performance that are meaningful 
in there and reward people with cash, American, because that is 
the coin of the realm in general, and it certainly is when it 
comes to the workforce development agencies, to effect 
behaviors, or we Federalize the system. It is as simple as 
that.
    Mr. Boozman. Thank you.
    Mr. Chamrin, I didn't quite understand. You suggested that 
the current funding formula for DVOPs and LVERs is based on the 
States' fiscal needs. Can you explain that?
    Mr. Chamrin. The way we understand it, Department of Labor-
VETS labels it as State grants. So the State derives their 
needs based upon their veterans and what their planning is in 
their management. So you can have a half-time DVOP next to a 
half-time LVER instead of one full-time LVER, and that is 
State-driven. I believe the Assistant Secretary could better 
answer that.
    But if I may just follow up with this. The funding for the 
State grants has only increased 1.2 percent since 2002, and 
that is not in real support of the Global War on Terror since 
9/11. So approximately 100 positions have been limited since 
2002--I believe the Assistant Secretary can give you the 
official number--because the inflation rate is greater than the 
increase in the State grants.
    Mr. Boozman. Very good.
    Mr. Daley, you mentioned half-timers versus full-timers. In 
the rural areas of the country, would that be a problem if we 
did it as you suggested and went to full-time positions; would 
that in the rural areas of America where you didn't have as 
much population, would that be a problem?
    Mr. Daley. Yes, sir, that is probably the area that we 
could accept the idea of a half-time person, such as part of 
your State or part of Virginia or something where you don't 
have the population. But if they could squeeze in the money for 
a full-time, they would perform for the veterans much better.
    Mr. Boozman. Mr. Weidman.
    Mr. Weidman. At one point in my life, as you know, Mr. 
Boozman, I was a State veterans program administrator for New 
York, and everybody thinks of New York as the city, but, in 
fact, there are parts of New York that are highly rural. And 
one of the first things we did was when I got there is we 
stopped hiring any more half-time LVERs. We grandfathered in 
those who were already there, but then started measuring their 
performance with real measures, which indeed is possible, by 
the way, in terms of actual placements. And it is easily done 
today without any change, except it is all on what you pull out 
of the computer. And from that time on, when an LVER would 
leave, we would appoint a full-time LVER who would spend part 
of the week in one office and part of the week in another 
office.
    But the point is they had full-time, and it was in many 
cases the same employers, even though there might be a distance 
between the two offices. It is getting out and getting the job.
    We always approach it from the wrong ways. We try and say 
to the veteran, you need to deal with all this stuff that is 
getting in the way of your getting and keeping a job, and then 
we will look for a job. That is like saying, look, if you learn 
how to dance, clean up your act and learn how to talk right, we 
will search for a date and maybe find a dance. Well, that is 
not a very good incentive. You say, the dance is on a certain 
date, and we have got a date for you; now you need to do all 
this stuff to be able to take advantage of it. Then people will 
get their act together and do it.
    So the Work Opportunity Tax Credit, bringing back--I hate 
the name SMOCTA, but the concept is based on the Veterans Job 
Training Act (VJTA) that began in your predecessor's Committee, 
Subcommittee, back in 1982 to meet an immediate need of Vietnam 
veterans unemployment skyrocketing in the early 1980s. So if 
you have employer incentives, what we found under VJTA and even 
under SMOCTA at the practical level is it got the DVOP and 
LVER's foot in the door to develop a job around the veteran.
    For disabled vets, in talking to DVOPs for 25 years now, 
they all tell me the same thing, is that for the disabled and 
particularly the profoundly disabled veteran, they developed a 
job around the person. So you have got to be able to have the 
contact with the employers, and it is--the certainty and the 
confidence that employer in a local area, particularly in a 
rural area, has in the quality of the referral with that DVOP 
or LVER will make that they will say, okay, you will stand 
behind them, John, I will do it, and give this person a shot.
    We found that many of them didn't go back and take the tax 
break or didn't apply for the payments because they were so 
pleased with the quality of the work that was done and the fact 
at their bottom line they had a great worker and they were 
making money.
    Mr. Boozman. Thank you, Madam Chair.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    Mr. McNerney, you are recognized.
    Mr. McNerney. Thank you, Madam Chair.
    Mr. Weidman, I hadn't had the opportunity to read your 
testimony, but after the rave review, I will make an effort on 
the airplane to do that tonight.
    One of the things that comes to mind is the State's 
performance with regard to DVOP and how to hold them 
accountable. And accountability is a theme that I hear pretty 
consistently across the board here. How would you recommend--I 
would like an answer from all three of you on this. How do you 
recommend that we hold States accountable, through sanctions or 
punishments, or what ideas are there on that specific topic?
    Mr. Chamrin. As I said before, we don't think we should 
punish any DVOPs or LVERs who fail to have veterans get 
employed. We never want veteran funding to be lessened. But a 
way to track these veterans is to have a follow-up mechanism. 
It is not just getting employed, it is being gainfully employed 
and staying in that position and then progressing within that 
program. So, you can have a follow-up for this veteran, you can 
have a 6-month, 1-year, year-and-a-half, 2-year tracking of 
this veteran, if they become unemployed, they go back to their 
original LVER, and they are back in the system. Not just are 
they employed and they are off the radar screen.
    Mr. Daley. Definitely some type of follow-up program. I 
don't know how. Whether you would call that person periodically 
or send them a questionnaire through the mail, but a follow-up 
to see if they did receive help in getting the job, and if they 
are still employed 6 months or 9 months later, such as Mr. 
Weidman was referring to.
    I had a friend just a year ago that got out of the Air 
Force with 22 years of experience, and his specialty was taking 
care of very high-tech medical equipment. Of course, he went 
through all the TAP programs, and he went to the State 
employment office and registered and did all that. So somewhere 
they have the record of a veteran coming in there seeking 
employment. But his contacts were through the major hospitals, 
and the major hospitals did call him, and he was, within a 
month, employed. So somewhere on the records it shows that he 
came to the State office, and now he is successfully employed. 
But the State office didn't really do anything to help the 
gentleman get his job, it was his own background.
    Mr. McNerney. What we would like to know is how the VA can 
hold the States accountable and make them perform these kind of 
necessary actions.
    Mr. Weidman.
    Mr. Weidman. The only tool now that Labor has is what I 
call the nuclear option, where they can suspend all funding 
into the State. It has only ever happened once with the State 
of Maine, and it was only for 1 year that they did that because 
politically it is tough. Governors go crazy, et cetera. And 
what we had in the original bill, the bill that I attached as 
the appendix, what it did is over a 4-year period, pulls 2\1/2\ 
percent each year out and hold that in reserve for incentive 
monies to give out to the States. Originally, in the original 
working draft of the bill, it was 10 percent each year.
    I mentioned before the people spread, well, the 
organizations are trying to take DVOP's job away. In fact, at 
that time the attrition rate among LVERs nationwide in a given 
year was about 14 percent and of DVOP 17 percent. The reason 
for that is folks are disabled, and things happen, and they are 
no longer able to work. Incidentally, the attrition rate is 
about the same now.
    So you can take 10 percent a year and start to set it aside 
by shifting monies between States and hold them harmless. What 
that would mean is if you were doing a good job, and not under 
the current specious way of measurement, but I am talking about 
in terms of placement, particularly for special disabled--
disabled and special disabled veterans and for those most 
recently separated within the last four years, and for veterans 
at risk of becoming homeless, then you would get incentive 
dollars. And, in fact, if you broke it down in that original 
draft, you could--the State, the DVOP, would have the power to 
declare an SMSA, a standard metropolitan statistical area, or 
which in most cases is one job service or one One-Stop per 
SMSA--declare them out of compliance. If they were not meeting 
their goals, they weren't acting correctly, put them under a 
project improvement plan. If that doesn't work, pull the money. 
And then let the money--contract the money out with any public 
or private entity, profit or not-for-profit, because it is only 
the cash American that is going to cause people to respond on 
the agency level.
    The DVOPs and LVERs, if supported, 85 percent of them will 
work their heart out. And many of them do great work no matter 
how much they are punished for doing it. And many of them do it 
after hours because they are not allowed to do it during office 
hours.
    Mr. McNerney. So you might need more flexibility then, give 
the administrators more flexibility?
    Mr. Weidman. Give the Federal folks more flexibility to 
measure real performance.
    What happened in the actual JVA is it was a theoretical 
trade-off between giving more flexibility, slash, latitude to 
the State workforce development agencies in return for more 
accountability. Well, they got the latitude. And some of us 
said at the time, it is license, it is not really just 
latitude. And, in fact, there is less accountability today than 
there was prior to the passage of JVA in 2002.
    If I may suggest back respectfully to the Subcommittee two 
things. One is that there needs to be an oversight hearing on 
JVA itself, Jobs for Veterans Act, and the implementation by 
the Department of Labor and Ms. Emily DeRocco, because the 
responsibility for implementing that was not given to Charles 
Ciccolella. We have an Assistant Secretary for Veterans' 
Employment and Training who is fully capable and a fine leader, 
but he is not given the authority within Labor. It is the 
Assistant Secretary for Employment and Training Administration 
who has all the power. All assistant secretaries are equal, but 
some are more equal, to paraphrase George Orwell.
    And the second thing. I mentioned in my written testimony 
two books. One was written in 1944 and one in 1945. And it was 
based on a veterans One-Stop center modeled and developed in 
Bridgeport, Connecticut. And by 1946, a majority of American 
cities had these. And the governing board was somebody from the 
clergy, somebody from retail, somebody from manufacturing, 
somebody from organized labor, somebody from every aspect of 
the community leaders to draw all services together to greet 
our young men and women coming home and make sure they got what 
they needed. And because it was the whole community involved 
and not somebody else's job, it worked.
    And it strikes me that is what we need again. And I would 
hope that--that is why I am suggesting a national Veterans 
Employment Conference or Convocation, or whatever you may call 
it, with the business community, the organized labor and 
everybody else, as well as the political leadership and the 
agency people.
    Mr. McNerney. Thanks for the latitude on that, Madam 
Chairwoman.
    Ms. Herseth Sandlin. That is no problem.
    I have a couple follow-up questions and comments. Mr. 
Chamrin, you stated in your testimony that, currently, NVTI 
provides training to staff within 3 years of being hired, and 
the American Legion recommends that this training be provided 
within 1 year of being hired. Do you have numbers that 
demonstrate how many folks are not getting training within that 
first year, and are actually not getting that training from the 
institute until their second or third year of employment?
    Mr. Chamrin. In meeting with the Advisory Committee and 
sitting on some of their meetings, they are saying that sending 
people to NVTI is derived from the States. So the State might 
not have the funding to send to NVTI, or it can only send one 
person at a time. I don't have the numbers on that, but I 
believe the Assistant Secretary could provide it for you. But 
it makes sense to make sure that everyone is trained to do 
their job as soon as possible and not have someone untrained 
for 2\1/2\ years trying to help out our veterans.
    Ms. Herseth Sandlin. Thank you.
    If the States are determining when people go for that 
training, is there any correlation between where we have seen 
the One-Stop Career Center servicing veterans, for example, Mr. 
Weidman, the States you identified? Do we know, one, are they 
getting to the training sooner; and, two, do they have any 
part-time DVOPs or LVERs?
    Mr. Weidman. I think that some of the States that I 
mentioned do have part-time DVOPs and LVERs. But there is such 
consistent corporate culture in some of the smaller States like 
South Dakota, like South Carolina, if you walk into a South 
Carolina job service office--and years ago Jack David, who is 
the Director out there--you have here in the Committee office 
is a poster called When Johnny Comes Marching Home, which you 
have seen it, which has Norman Rockwell featured on it. Jack 
asked if we could get him 42 of those. And I said, yeah, what 
do you want? Because we produced them in New York when I was up 
there. And he said, I want to put one in every office. So I 
sent it to him. And I walked into a job service office in two 
different towns when I was down there on other business in 
South Carolina, and what Dr. David did was have those framed 
and put over the main reception desk. And there was a line for 
veterans and a line for everybody else.
    So you didn't need a statute, and you didn't need the 
training because their acculturation would carry people. But it 
is also the same States who immediately try and get people into 
training so that they can do a better job. It is local 
leadership. And the problem with not having accountability is 
those States that are going to do the right thing because they 
want to are already doing it. It is the other States that 
aren't doing it; that people shouldn't be penalized for not 
being from the Carolinas or from South Dakota or from New 
Hampshire, which is another State that consistently does 
things.
    Well, you asked about best practices. Do you want some of 
those? I didn't answer that question.
    Ms. Herseth Sandlin. I would appreciate if you would submit 
them to the Subcommittee for the record. I think that would be 
very helpful to have, in addition to some of the other 
recommendations that you have made on how to get at this issue 
more directly as it relates to the administration of the 
program at the Department of Labor. So, yes, I would be very 
interested. If you could submit those to us in writing, I would 
appreciate it, and we can follow up with you then.
    [The information was not received from Mr. Weidman.]
    Ms. Herseth Sandlin. I will be following up with our 
witness on the next panel as it relates to the timing of the 
training and seeing if we can get those numbers.
    Mr. Chamrin. I do know that there is a yearly employment 
cycle that some of these offices have. And there is also a 
probationary period for newly hired DVOPs/LVERs where some of 
the States will not send them to training because they haven't 
completed their probationary period. It is kind of like 
protecting themselves. They don't want to send someone out to 
Colorado to get trained, then come back and leave. So they want 
to make sure that they are committed to that One-Stop center.
    Ms. Herseth Sandlin. Just a final comment. I appreciated 
the line of questioning that Mr. Boozman pursued, and Mr. 
McNerney, on accountability. I appreciate the statements that 
have been made about how well South Dakota is working with its 
One-Stops. Sometimes when you say, part-time staff, if that 
is--what you don't want to give up entirely, and that is the 
best we can fund, especially for the rural areas because of 
less dense population. Yet on the other hand, because the 
outreach areas tend to be larger, it is almost as if you are 
compromising the work of the part-time staff more because their 
outreach territory is larger and perhaps at a higher level of 
veterans. That has been demonstrated per capita in terms of 
rural States, a larger percentage of veterans.
    I want us to be careful as we pursue that issue more fully 
that we are again looking at. Let me just say that I don't want 
rural areas to get short-changed on this thinking that if you 
have adequate funding, maybe the part-time DVOP or LVER could 
address that, because there are other factors that come into 
play. We see this in other areas of Federal policy.
    It looks like, Mr. Chamrin, you have a comment.
    Mr. Chamrin. The easy solution to that is give the 
Assistant Secretary DoL-VETS discretionary funding over on top 
of what he already is funded. That allows the Assistant 
Secretary to make a program for outreach for these rural areas.
    Ms. Herseth Sandlin. I am glad you mentioned that because I 
was going to ask Mr. Daley about his proposal on offering some 
discretionary funding. I know you had mentioned a pilot project 
or special projects that you had been involved in where 
ultimately private funding came. I don't disagree with the 
suggestion, but, again, do you want discretionary funding for a 
particular purpose like outreach in rural areas? Do you want 
discretionary funding for more of a broad special project, as 
Mr. Daley addressed?
    Mr. Chamrin. The American Legion can go on record that we 
support the Assistant Secretary of DoL-VETS, and we trust his 
judgment that he'll best use the discretionary funding to the 
best project that he sees fit.
    Ms. Herseth Sandlin. Mr. Daley, did you have any final 
comments on that point?
    Mr. Daley. I agree with Ron. They understand the situation, 
and they know the problems out there among the States a lot 
better than we do here in Washington. So I believe that they 
would put the money or try a test program or a pilot program 
wherever they think they would get the most results from.
    Mr. Weidman. Unfortunately not every small State has an 
Ernie Fender for 30 years who just worked his heart out and 
knew everybody in the State, including both U.S. Senators long 
before they were in office.
    So it was an extraordinary situation.
    I will say, though, that the idea of incentive moneys is--
as you know, 9 percent of Workforce Investment Act (WIA) moneys 
are held back by the Feds, and 9 percent are held back by the 
Governors to distribute to the local whips. The 9 percent that 
is held back nationally, the veterans organizations have 
repeatedly suggested to Labor that they hold back, take 1 
percent of that, or even less, a half of 1 percent of that, and 
use it for incentive dollars for those States and/or local 
offices that are doing the best job for veterans, particularly 
for disabled vets.
    In fact, no Secretary has ever done so. Our response to 
that from VVA is, don't tell me veterans are our priority when 
you can never use a doggone dime of your incentive dollars that 
you control in order to service this population.
    Ms. Herseth Sandlin. As we have stated in other 
Subcommittee hearings, we will work more closely with the 
Governors to get some of this as well. Mr. Chairman also 
commented on reporting directly to the Assistant Secretary to 
provide some information on how to best allocate discretionary 
dollars. Yet, we want to ensure that the money that is going 
through this program has accountability. It is for the benefit 
of the veterans, not just to allow Governors to have additional 
resources to support their staff that is also doing a whole 
host of other work. I appreciate the comments that you have 
made.
    Mr. Chamrin, I noticed you might want to make one final 
comment, but I do want to move to the next panel. We could talk 
perhaps after the hearing, if that is okay. Thank you.
    I thank all three of you, again, for your service to our 
Nation's veterans, and for your helpful testimony on these 
important programs. Thank you. I look forward to seeing you 
again soon.
    I would like to invite our witness on our second and final 
panel to the witness table.
    Joining us on the second panel is the Honorable Charles 
Ciccolella, Assistant Secretary for Veterans' Employment and 
Training with the U.S. Department of Labor.
    Secretary Ciccolella, thank you for being here. We look 
forward to your testimony and any responses to our questions 
and any comments that you also may have or would like to share 
based on what we have just heard from the first panel. Again, 
your entire written statement has been made a part of the 
record. We would now recognize you to summarize any opening 
remarks for 5 minutes.

 STATEMENT OF HON. CHARLES CICCOLELLA, ASSISTANT SECRETARY FOR 
 VETERANS' EMPLOYMENT AND TRAINING, U.S. DEPARTMENT OF LABOR; 
ACCOMPANIED BY GAY GILBERT, ADMINISTRATOR, OFFICE OF WORKFORCE 
   INVESTMENT, EMPLOYMENT AND TRAINING ADMINISTRATION, U.S. 
 DEPARTMENT OF LABOR; AND WILLIAM OFFUTT, EXECUTIVE DIRECTOR, 
                     HIREVETSFIRST CAMPAIGN

    Mr. Ciccolella. Thank you very much, Madam Chair and 
Ranking Member Boozman. Thank you very much for the opportunity 
to appear before you today.
    With me at the table is Ms. Gay Gilbert. Gay is the 
Administrator for the Office of Workforce Investment at the 
Employment and Training Administration.
    Thank you for being here.
    Again, thank you for the opportunity to testify on our VETS 
program, the main grant that we operate.
    And, as you indicated, Madam Chair, my written testimony 
captures the intent of the questions of the Subcommittee in 
your letter, including the additional specific questions about 
the DVOP and LVER program. You also asked if I could talk about 
any issues of concern or importance to us, so that is what I 
would like to talk about in my oral testimony and just give you 
a brief update on the three mission areas that VETS has.
    Our first mission, of course, is to maximize employment 
opportunities for veterans, and we do that through the State 
grant that we just talked about, which funds the DVOP and LVER 
program. The JVA grant program is actually a fairly strong 
program compared to where it was some years ago, in my view. 
The quarter that ended in March of 2007 resulted in an overall 
employment rate of 60 percent for veterans and 56 percent for 
disabled veterans. But the retention rate for veterans was 79 
percent, and for disabled veterans it was 78 percent. And that 
is very significant.
    We talked about common measures in the previous panel. We 
have implemented the common measures, and they are designed to 
improve accuracy and performance accountability. We think that 
is beginning to work very well.
    The roles and responsibilities of the DVOP and the LVER 
were clarified through the Jobs for Veterans Act. We maintain 
that those roles are important, they are distinct, and that 
they are essential. And that is particularly true with the DVOP 
today because, after all, we are at war.
    We have improved training not only for the DVOPs and LVERs 
but also for the State workforce administrators. A lot of the 
problems with the JVA grant is making certain it is not just a 
grant that is just put off to the side. And State 
administrators do need to understand that it is a grant that 
requires not only their involvement but their leadership, and 
we work very hard to do that.
    We have also improved training for our Uniformed Services 
Employment and Reemployment Rights Act (USERRA) investigators, 
the law that protects our servicemembers employment and re-
employment rights, and also for our transition employment 
assistance facilitators. In addition, I think Congress had 
great foresight in States to use the half-time DVOPs and LVERs. 
I think that has significantly helped the States. I know we are 
probably going to talk about this in your questions.
    The second mission of vets is the USERRA mission, or the 
protecting of our servicemembers' employment and re-employment 
rights. We have put out new regulations and employer notice 
posters, electronic complaint filing, expanded outreach to 
employers. And we also provide regular USERRA briefings at 
Reserve and National Guard mobilizations and Demobilizations, 
either us or the Department of Defense, for our returning 
troops from the global war on terror.
    So we have vastly improved our enforcement of USERRA. And 
it is not only us, but also the Department of Defense as well, 
Justice is very intricately involved in enforcing USERRA, and 
so is the Office of the Special Counsel.
    The third mission of VETS is assisting servicemembers as 
they leave the military, and that is through the Transition 
Assistance Program. And our role is to conduct the DoL-
facilitated TAP, or Transition Assistance Program Employment 
workshop. And we also make that available to Reserve and Guard 
members.
    Now, we are not getting as many servicemember participants 
in TAP as we would like, but the numbers keep on increasing. In 
a very real sense, we have reset our thinking about both the 
relevance and the importance of transition assistance for 
returning servicemembers. It is extremely important that we 
prepare our servicemembers before they leave the military, 
while they are still in the military, and get them thinking 
about their jobs and thinking about the transition process.
    Not only that, but we have improved the quality of the TAP 
workshops. Now there are specific deliverables. When you attend 
TAP, you walk out with a draft resume and having done an 
interview. And we are looking at hooking servicemembers up to 
the workforce system during TAP. I think that would be a really 
good thing to do.
    And very, very favorably, I think DoD and the individual 
military services, the Army and the Air Force and the Navy and 
the Marines and the Coast Guard, all have agreed to step up 
their participation levels in the TAP. That is extremely 
important. And, as a matter of fact, this week each of the 
military services briefing--briefings for them to achieve their 
goals. And that is going to have a major impact on driving, I 
believe, the number of the young veterans unemployed down.
    We are also working more closely with the VA and the DoD to 
provide the best possible employment opportunities and services 
for our returning servicemembers from the global war on terror, 
particularly those who are wounded and injured. And we have 
enhanced and expanded our Real Lifelines program. That is the 
program that does provide face-to-face employment assistance to 
seriously wounded and injured servicemembers.
    And I will tell you what we have done in realivliness. We 
are physically there, forward-positioned at the major military 
medical treatment facilities, with employment representatives 
and assigned Federal staff. We are also at the Military 
Seriously Injured Center. And I just finished putting veteran 
employment representatives with the Marine Corps at Quantico 
and at Pendleton to work with wounded and injured Marines. And 
we are getting ready to do this for the Army.
    Our Homeless Veterans Reintegration Program, which was 
talked about during the previous panel, has seen increased 
funding for the last 6 years. The performance of that program 
is very, very good. We don't do that alone. We do it in 
cooperation with the Department of Veterans Affairs, and they 
have some very good programs as well. But we are literally 
knocking down the numbers of homeless veterans on the streets 
of America to the tune of about 9,000 a year. And that also 
includes the Incarcerated Veteran Transition Program that 
Congress has recognized that was so enormously successful 
during its demonstration phase. And very soon, very hopefully, 
we are going to continue that program in the coming grant 
cycle.
    And our Veterans Workforce Investment Program that Rick 
talked about a few minutes ago that serves veterans with 
barriers to employment is on a good track, because we are sort 
of reshaping that so that it focuses on the jobs of the future, 
the jobs that are in demand, and with an emphasis on the jobs 
that require a certification or even a license.
    Now, we have a lot of work to do. We need to continue to 
improve the Transition Assistance Employment Workshop. We 
really need to link servicemembers during their transition to 
the One-Stop Centers, so they understand that not only is there 
a workforce system out there, but there is a workforce system 
out there that gives them priority of service, but it has the 
specialized services of the veteran employment representatives 
who can help them.
    We need to implement fully the DoD's TurboTAP portal. This 
is an extremely good resource. It helps a servicemember to 
develop an individual transition plan. And it is going to be 
enormously useful to the Reserve components, but it will also 
be very, very useful to those Active-Duty servicemembers both 
before and after they go through the regular transition 
program.
    We are always working to improve training of our DVOPs and 
LVERs. The training of those employment specialists by NVTI, 
the National Veterans' Training Institute, has improved.
    And our USERRA investigations have improved. We have put a 
lot of focus on USERRA. We have driven the number of complaints 
and investigations down by comparison with the last major 
mobilization, which was the first Persian Gulf War. We have 
almost cut them in half, the rate of complaints. And we don't 
do that alone either, because we have to have DoD and we have 
to have Justice and Special Counsel's Office all working 
together. And as I mentioned, the training for the State 
workforce administrators about how to better administer this 
grant is extremely important.
    My last comment is to say that, while VETS is always going 
to be focused on services to all veterans, we are especially 
focused today on our returning members from the war on terror, 
especially those who are wounded and injured by their service.
    I thank you very much for having me today, and I am 
prepared to respond to your questions.
    [The prepared statement of Hon. Ciccolella appears on p. 
89.]
    Ms. Herseth Sandlin. Thank you very much for your 
testimony.
    Before I recognize the Ranking Member for his questions, 
let me pose this one at the outset. Based on Mr. Chamrin's 
testimony as it relates to the training of DVOPs and LVERs and 
the timing to get that training within the first 3 years, I can 
understand the concerns that raises, and that the States are 
imposing these probationary periods to cover themselves.
    With these grant monies, can you provide the information 
today or at least follow up with us with the information on 
just how many do not receive that training within their first 
year? I would like to see what the disparities are by State, 
since States are determining that. That may lead us to, 
perhaps, some recommendations and changes. Maybe I should pose 
that question to you.
    In your experience, do you find that the importance of that 
training occurring within the first year, rather than halfway 
through the second year, someone is onboard, that we would see 
more positive performance measures if we can get that training 
done sooner?
    Mr. Ciccolella. Well, it would only stand to reason that 
you do.
    With regard to the States that don't send their DVOPs and 
LVERs to training, it is not real smart not to send them to 
training. The smart States do send them to training. They don't 
have to pay for that. They don't even have to take it out of 
the grant, because it comes out of the National Veterans' 
Training Institute budget. So there isn't any reason not to 
send them.
    I would have to get the data for you State by State. But 
like I say, the smart States don't miss an opportunity to send 
them.
    Now, on the data, the only thing I will tell you is that, 
as we pointed out in previous panel, there is, you know, a 
turnover of DVOPs and LVERs. We train, I think, about 1,900 
DVOPs and LVERs every year in those basic courses, those 
employment service courses. And we have over 2,000 DVOPs and 
LVERs. So you have some turnover. But we will get you the 
numbers.
    [The information was provided in the post hearing questions 
and responses for the record.]
    Ms. Herseth Sandlin. I would appreciate it.
    Mr. Ciccolella. And you have a backlog. That is what I was 
going to say. There is a backlog of training, and that is what 
I think you really need to know.
    Ms. Herseth Sandlin. There is a backlog of training, 
meaning----
    Mr. Ciccolella. Backlog of individuals who need the 
training.
    Ms. Herseth Sandlin. Is that a function of insufficient 
funding for the institute? Or too much turnover? You are saying 
there is a backlog, meaning that the institute has more 
requests for people who want to get slots for the training than 
you can provide on an annual basis?
    Mr. Ciccolella. What I am saying is there are more training 
requirements than the National Veterans' Training Institute can 
handle, in terms of the DVOP/LVER program, in terms of what we 
would like to do with USERRA, and in terms of our TAP 
facilitators. So, you know, there is a limited number of 
resources and folks out there that do the training.
    Ms. Herseth Sandlin. Thank you.
    Mr. Boozman.
    Mr. Boozman. Good. I also had that question, Madam Chair, 
so I am glad that you brought it up, as far as whether or not 
we need more resources in that area with NVTI.
    I am glad to hear that you are hearing, and we are hearing 
it also--that there is less resistance to the TAP program. And 
I have really, I think, seen a change, myself, a fairly 
dramatic change in the last few years, as we talk to people. 
But it does seem like--and I am a person that really feels like 
that should be mandatory, in the sense that if you get the 
solid base, then we will have less problems down the line.
    And then, also, for the guys that--even the lifers, have to 
take that some time through their career so they can start 
planning--10 years they need to start planning because we all 
know that goes by pretty quickly.
    So anyway, I am glad to hear that, and that is something I 
believe in very strongly, about TurboTAP, and again, trying to 
improve that. These individuals have kind of grown up or worked 
in the environment using that kind of technology. So, again, we 
are glad to hear those things.
    Mr. Ciccolella, how many referrals did the States receive 
from the VA Voc Rehab and Employment Program? And what were the 
outcomes of the referrals?
    Mr. Ciccolella. How many referrals from the VA to our DVOP/
LVER program for placement?
    Mr. Boozman. Yes, sir.
    Mr. Ciccolella. I would have to get those figures for you.
    [The information was provided in the post hearing questions 
and responses for the record.]
    Mr. Boozman. Okay. That would be good.
    Mr. Ciccolella. The placement rates are in the 70 percent--
I think they are around 78 percent, just for general 
information. There are about 10,000, you know, participants, 
Chapter 31 participants, enrolled every year. I am not sure how 
many of those we are actually placing. I think it is between 
5,000 and 7,000. I have seen the figures; I just don't have 
them with me.
    Mr. Boozman. On the NVTI, when we passed the law, did we 
give you the ability to withhold funds if they didn't send 
their people for training?
    Mr. Ciccolella. In the law?
    Mr. Boozman. Yes.
    Mr. Ciccolella. Well, we have the authority to withhold 
funds. We do withhold some funding on a quarterly basis, 
because, you know, the Federal dollars are allocated on a 
quarterly basis. So if a State doesn't expend their Federal 
dollars or they have a firing freeze and they don't hire or 
whatever it happens to be, then we may hold back money.
    But, to the larger point, we don't penalize States by 
docking their overall grant. We haven't done that recently, but 
we did it a couple of times a few years ago.
    Mr. Boozman. I would think you would allude to, the other 
panel alluded to States that did a very good job, and then I am 
sure that we could find States that did a very poor job. But if 
those States who are doing a very poor job aren't taking 
advantage of the training, then I think I would call them in 
and say ``You do the training, or we are cutting you off.'' I 
mean, that is a decision that you have to make.
    Now, if you have a State that is doing a great job, you 
know, and they are not taking advantage, then that is fine, 
because they probably don't need it. They have some other 
system. But if those two are running hand in hand, which I 
suspect they are, then I would really encourage you to do that.
    Mr. Ciccolella. Okay.
    Mr. Boozman. And we might, you know, at some point look at 
that.
    Mr. Ciccolella. I will tell you what I can do. I can make 
that sort of a special area of interest for our VETS State 
Directors to take a look at and come back to us and tell us 
whether they are having problems in that area. Because the VET 
State Director, as a Federal staff person, has a lot of sway 
over stuff like that. And that is the kind of thing that is in 
the managers' report and technical reports that we require each 
quarter.
    Mr. Boozman. Is there a limit on the amount of the State 
grant that a State may charge for overhead? And, thus, if you 
had a really high overhead, reducing the, monies that actually 
went, you know, out in the--you know, really helping VETS. Do 
you understand what I am saying? Is there a limit?
    And I guess, at some point--and you probably don't have it 
with you--I think we would really like to look at that and see 
which States are doing a good job of limiting their overhead 
and providing services, as opposed to the States that are not. 
It might be that all the States are doing a good job and 
keeping their overhead in check. But I think that is something 
that we would like to look at.
    Mr. Ciccolella. Well, I think it is a very important point. 
You know, as things get more expensive, some States are 
charging the grant more for indirect or administrative costs. 
And we have seen that. We don't see it in all States, but we 
have seen it in some. And sometimes that number goes up to what 
I think is kind of unreasonable.
    So what we are doing is we are taking a look at that, a 
study of that to look at what those costs are, with the view 
toward, if necessary, setting a cap for the State to charge for 
those administrative or indirect costs. And we would be happy 
to share----
    Mr. Boozman. What would you consider excessive, what 
percent? I mean, do we have States that have 50 percent?
    Mr. Ciccolella. Well, I am almost afraid to say, because--I 
might see it again. But, I think anything over 18, 19, 20 
percent is excessive.
    Mr. Boozman. Because I understand we have States that may 
be charging up to 50 percent.
    Mr. Ciccolella. I have never heard of 50 percent. I have 
heard of 40.
    Could I go back to a point you made about TAP?
    Mr. Boozman. Yes, sir.
    Mr. Ciccolella. On TAP, it is not only that we get more 
servicemembers to TAP. And making it mandatory I don't believe 
is the right answer, because not everybody needs to go to TAP. 
But most people do.
    What I think the military and the Department of Defense 
need to focus on is not only presenting the opportunity to 
every servicemember so they go to TAP and that we make TAP more 
attractive, but get them to TAP earlier in the process. In 
other words, if you send them to TAP, and they just got back 
from Iraq, and they have 30 days to go, it is going to be 
interrupted with dental appointments and everything else. And 
they are in a hurry to get out of the military. A lot of that 
stuff doesn't stick with them.
    We want to try to give them TAP, and TurboTAP can help us 
with this, and some of the other tools, earlier in the process, 
so they begin thinking about the labor market conditions, 
thinking about the jobs, thinking about the skills that they 
have and how they are going to transition into the workforce.
    And if we do that, it is not only going to help the re-
entry process, it is going to help our Nation's military with 
retention, because a lot of these servicemembers will stay 
another term, because sometimes they get out of the military, 
especially young ones, and they go back in after a while.
    Mr. Boozman. No, I agree totally. We have had a problem 
because some of the military felt like exposing them to TAP 
would be an incentive to get out. And my experience in visiting 
with many of those families, they don't realize how it is in 
the real world, as far as benefits and things and some of the 
things that they are going to be out paying for. So I think it 
is a very, very positive thing.
    I said mandatory in the sense--and I agree with you. And 
yet one of the things that we have to do is figure out how you 
remove the stigma of going through TAP if you are not going to 
get out. Because as soon as you make an effort to go through 
just to see what is out there or to again if you plan on 
staying in but you want to maybe have the opportunity of moving 
your job skills to know what is going to be available when you 
eventually do get out. It seems that there is a concern among 
the service persons that there is a stigma attached to that and 
there is a feeling that you are going to get out. So, again, we 
have to kind of figure out how to overcome that.
    But I think that is something that the Subcommittee has 
really done a good job, Madam Chair, at moving forward and is 
something that I would like for us to continue working on very 
hard.
    Thank you very much.
    Thank you, Madam Chair.
    Mr. Ciccolella. You are absolutely right. If I could just 
say, that you are absolutely right. And let me tell you, the 
military services are beginning to understand that. And that is 
what I hear. And I spend an awful lot of time at the Pentagon 
these days, and that is what I hear at the meetings that we 
have.
    Ms. Herseth Sandlin. Well, I would like to associate myself 
with Mr. Boozman's comments on the importance of TAP and 
removing the stigma.
    I agree with you, too, Mr. Ciccolella, that we need to get 
the servicemembers access to TAP earlier in the process. I am 
of the strong opinion that it should be mandatory and earlier 
in the process. I think it should be both. Because you even 
said, right after you said you don't think making it mandatory 
is the way to go, you said because some servicemembers don't 
need it, but most of them do. I would much rather have 
servicemembers go, when they didn't need it, they are a little 
bored, they are fine, than to have a number who really need it 
not take advantage of the opportunity.
    With that, if you could--and I don't expect you to do it 
today, but if you could get us an estimate on the number of 
personnel needed to fully implement TAP, to ensure that every 
module is given to every transitioning soldier--well, every 
transitioning servicemember--in all the branches. I just would 
like to see an estimate on how many LVERs would be required to 
do that.
    Mr. Ciccolella. I will get you those. I will get you those 
figures. But we have the LVERs and we have the contract 
personnel to do that.
    [The information from Mr. Ciccolella is as follows:]

        At this time, it is not possible to calculate or estimate 
        whether additional DVOP and LVER positions would be required to 
        conduct TAP for 100% of separating service members. It is 
        possible that full implementation may prove to be more of a 
        training (qualified facilitator) issue rather than a numbers or 
        personnel issue. Currently, there are approximately 2,100 DVOP 
        and LVER, many, but not all, of whom are trained TAP 
        facilitators. To accomplish the 100% goal, it would be 
        necessary to increase the number of DVOP and LVER trained to be 
        TAP facilitators, and these personnel would need to be 
        allocated to this mission. Since we are moving in the direction 
        of providing TAP to 85% of the separating service members, we 
        will have a better idea of the number of additional DVOP and 
        LVER that might be needed as we move toward that goal.

    Ms. Herseth Sandlin. You currently have----
    Mr. Ciccolella. Yes.
    Ms. Herseth Sandlin [continuing]. Enough LVERs----
    Mr. Ciccolella. Yes.
    Ms. Herseth Sandlin [continuing]. And other personnel to 
essentially implement a mandatory TAP program?
    Mr. Ciccolella. We have enough LVERs and contract folks. We 
may need some additional funding for the State grants because, 
you know, they project the time that an LVER or DVOP is giving 
TAP, and while they are doing that, they are not, you know, in 
the One-Stop serving or out with business developing job 
opportunities for veterans.
    But the numbers of LVERs I don't think are the issue. The 
States would simply require some additional funding to do that.
    Ms. Herseth Sandlin. Okay. Thank you.
    Mr. Chamrin mentioned in his testimony the idea of a 
follow-up mechanism, right, so we can track some of the 
veterans a year into their employment, a year and a half, 2 
years.
    Is there any follow-up, currently, with veterans after they 
receive employment, basically to assess how their transition 
and adjustment is going?
    Mr. Ciccolella. No. We don't collect the kind of data on a 
servicemember when they are in the transition program where we 
could track, for example through the wage records system, their 
employment retention and earnings.
    And I don't know whether we have the capability to do that 
because of DoD policy. In other words, I am not sure we are 
allowed to collect that kind of information. We would need a 
Social Security number and personal information to do that.
    Ms. Herseth Sandlin. I think I know what you are saying, 
but couldn't you have your DVOPs and LVERs, on a more local 
basis, just checking in through the contact information that 
they have for that particular veteran and to be required to see 
where they are? I mean, are any of the DVOPs or LVERs required, 
as a matter of policy, to do any follow-up with the veterans 
that they have helped place in employment?
    Mr. Ciccolella. A requirement for them to do staff follow-
up with the individual who got the job?
    Ms. Herseth Sandlin. Yes, like after 6 months to assess----
    Mr. Ciccolella. Yeah, I don't believe there is a 
requirement to follow up in that regard, because we went to the 
wage record information system. We don't require that the DVOP 
or LVER do staff follow-up.
    I am not saying it doesn't happen, because I think it does 
happen. Because, like, for Federal employment or rural 
employment or ranching or things like that, that is not 
captured in the State wage record information system. So I 
think there is follow-up by the DVOP and LVER with regard to 
the placement of servicemembers in those areas.
    Let me say this: That takes time. And the time that they 
are doing that may be time that they are not serving veterans 
or not doing outreach or not going out to that Homeless Veteran 
Reintegration Program.
    Ms. Herseth Sandlin. Well, I understand there are limited 
resources.
    Mr. Ciccolella. There is a trade-off.
    Ms. Herseth Sandlin. Right. But I don't think you would 
disagree that, if we had the resources that--I shouldn't--I am 
not going to put words in your mouth.
    Would you agree with Mr. Chamrin's statement that, assuming 
sufficient resources, that that type of follow-up mechanism 
would be helpful, as it relates to the positive performance 
measures for the two programs?
    Mr. Ciccolella. Sure. Anything like that would be helpful, 
yeah. I mean, I have to be honest with you, I just don't know 
how feasible it is to do that. And I am not taking you on this. 
I am just trying to think through, you know, how much time that 
would take. And I need to think about it. Could I think about 
it and come back to you?
    Ms. Herseth Sandlin. Certainly. I think it is worthwhile, 
as it relates to the accountability issue, but just as 
importantly, the adjustment for the veteran who turned to a 
DVOP or LVER for assistance and most likely established some 
level of relationship with that individual.
    Mr. Ciccolella. I absolutely agree. It would be a wonderful 
thing to do.
    Ms. Herseth Sandlin. On the tracking, you heard in the 
first panel there seems to be a concern that, perhaps based on 
the index used, that VETS is taking credit for veterans who are 
securing employment outside of the DVOP and LVER programs. How 
do you respond to that concern?
    Mr. Ciccolella. Well, the measurement system and 
accountability of the system that we have in place under the 
Labor employment records system, there isn't a problem with the 
Wagner-Peyser and the VETS program. So, in other words, if a 
servicemember comes in or a veteran comes in and they are 
served by the State employment service or VETS, there isn't a 
problem about double counting.
    I think where the issue comes up is where an individual 
comes in and receives a Workforce Investment Act service, a WIA 
service, and then they may also receive a Wagner-Peyser or a 
VETS service, and then both of those programs are reporting an 
employment outcome. I think that is where the concern is.
    Was that clear? Do you want me to elaborate?
    Ms. Herseth Sandlin. It does. I am just not sure, based on 
what I was hearing articulated in the first panel, that that is 
only it. I mean, that may be part of the concern.
    Mr. Ciccolella. I don't think I understood. I apologize. I 
don't think I understood the question.
    Ms. Herseth Sandlin. Yes, Ms. Gilbert, thank you for 
joining us. If you would like to respond?
    Ms. Gilbert. Thank you, Madam Chair.
    I believe your question had to do with, does using wage 
record data, which tracks any employment following service 
delivery, is that good enough somehow, is the concern that I 
heard from the panel members.
    I think we believe that the services that a veteran may 
receive in a One-Stop, whether there is a direct placement or 
not, may help serve them in their employment-seeking generally. 
So it is reasonable that you would look to that if someone is 
entering into the job market successfully, that that was a good 
outcome from our services.
    Also, we think wage record data and the usage of wage 
record data--and I think the Congress agreed with that when 
they passed the Workforce Investment Act and put in place this 
measurement process--that that was a really an efficient way to 
track our outcomes for the workforce investment system.
    Ms. Herseth Sandlin. Okay. Well, I appreciate that 
response.
    I certainly want to delve into this further, although we 
are going to have votes at about 4:15, and I have a couple 
other areas that I want to pose questions. I think I will 
submit some of those to you in writing that you can take. And 
it goes, also, to the May 2007 GAO report as it relates to what 
was adopted by the Department of Labor in 2005 as it relates to 
performance measures that were new measures for programs, some 
of which hadn't fully been implemented.
    I appreciate your response, Ms. Gilbert. I just want to 
think about this a little bit more, as we pursue it, so I am 
asking the right questions and we can get on the same page. If, 
indeed, we think that some changes should be made to more 
accurately gauge and measure the effectiveness of the programs 
and how to best target them to veterans that face certain 
employment barriers.
    I see that Mr. Offutt has also joined you today. I want to 
ask just a couple of questions, with the Ranking Member's 
indulgence, on the Hire Vets First Campaign.
    On the part-time versus full-time--and Mr. Boozman may have 
some thoughts here, too, since we both pursued this. I would 
like you to explain why you think--you said in your statement 
earlier that you think that Congress had good foresight in 
giving the States the flexibility of having part-time DVOPs and 
LVERs. Although we heard from the prior panel that, while, yes, 
it is better to have a part-time, it is even better to have a 
full-time, and that we have certain areas that would be 
particularly well-served to have full-time DVOPs and LVERs.
    I would like, first, if you could explain why you think it 
is working well in some States. The second question would be--
and, again, I don't necessarily expect you to have the 
information today. If you could get it to us, I would like to 
know how much would be required to fund the same number of 
DVOPs and LVERs in half-time positions. I would also like to 
know how much it would cost to make all of the current part-
time DVOPs and LVERs full-time. That is the same number. If you 
take the same number total, both full-time and half-time, how 
much more would it cost to make all the part-time full-time?
    Mr. Ciccolella. Well, first of all, I always think that 
Congress has great insight.
    Okay. We have 431 DVOPs and LVERs--or something like that, 
about that; I think it is exactly that--who are part-time, 
half-time. So if you made them full-time, that costs about $16 
million.
    But, now, my question is whether we want to do that, 
because then that would kind of bust the funding formula, and 
the funding formula as was prescribed by Congress, and that is 
based on the number of veterans who are looking for jobs in one 
State, that State, over the number of veterans who were veteran 
job-seekers in all States.
    I have seen a number of States where the flexibility that 
has been extended to the States to operate this grant in a 
manner that they think is best and tailored to their veteran 
population--where they really work very well. And to me, there 
are plenty of opportunities where a half-time DVOP or half-time 
LVER doing another job in the workforce system, that is an 
advantage. I always want to look at the DVOP/LVER program as a 
well-integrated program in the career centers, because that was 
Congress's design in the Workforce Investment Act, that you 
could go one place and get all the services.
    And the DVOP or the LVER really, really, if they are well-
integrated--it is like, if you have a seriously injured and 
wounded servicemember, and you have a recovery coordinator 
assigned to them, and that recovery coordinator knows 
everything about every benefit that a servicemember can get, 
and that recovery coordinator can coordinate for all of the 
programs that servicemember may need. And that is the way that 
I look at the DVOP and LVER program being integrated into the 
One-Stop system.
    Ms. Herseth Sandlin. May I interrupt you there, just with a 
quick question?
    Mr. Ciccolella. Yes, ma'am.
    Ms. Herseth Sandlin. I agree with you. If we have evidence, 
as was suggested in the first panel, that some employees of a 
One-Stop Center--if some grant money is going to fill the need 
for veterans' placement--are to meet the needs of veterans from 
8:00 until 12:00 and then service other folks coming in the 
rest of the day, that is not well-integrated, in my opinion.
    I agree with you, if it is all well-integrated effectively, 
so that the needs of a veteran who may be coming into the One-
Stop Career Center will always be met, but that individual also 
has time--not the veteran--the DVOP or LVER has the time to do 
the necessary outreach to employers.
    What are your thoughts on States that actually impose those 
types of restrictions on their part-time DVOPs and LVERs? Are 
you familiar with many States that impose those types of 
restrictions, in terms of the hours of the day that they are to 
dedicate to veterans versus the hours of the day that they are 
supposed to dedicate to other beneficiaries of services in the 
One-Stop Career Center?
    Mr. Ciccolella. Well, there are a number of ways that they 
do it. The only way you can really track it properly is for the 
half-time DVOP or LVER to do that half-time and then do the 
other job the other half the time. It is the only way you can 
really check and make sure that services to nonveterans are not 
being charged to the grant.
    Ms. Herseth Sandlin. All right. I don't have a problem with 
your answer; I think that is a very smart answer. I am just not 
satisfied.
    Mr. Ciccolella. I hope I didn't confuse you.
    Ms. Herseth Sandlin. No, I see what you are saying. I mean, 
look, each State has their own accountability measures, as 
well. I just think that, given the concerns cited about how we 
are ensuring a level of accountability and tracking and 
measuring, you know, where it is almost like we are allowing 
the States' systems to have more flexibility than we do, it 
seems to me.
    Mr. Ciccolella. Well, we want the States to have 
flexibility, but we don't want them to have the flexibility to 
break the law and to misuse this grant. And that is really the 
job of our State Directors, to make sure that doesn't happen.
    But, you know, in your State, in South Dakota, you have a 
number of half-time DVOPs and LVERs, mainly DVOPs I think. And 
the other times they are working, again, maybe they are doing 
unemployment insurance, maybe they are doing Wagner-Peyser. And 
I have talked to those guys, and they think that it works well. 
The veteran employment representatives think that it works 
well. And the results in just that one State--and I am not 
picking on your State--but the results in your State aren't 
bad. They are 63 percent.
    Ms. Herseth Sandlin. I think there are other variables that 
go into that, a whole host of other variables. I am going to do 
some checking, because I don't think that we separate out--I 
mean, I can't remember the exact date that I visited the One-
Stop Career Center in Spearfish, South Dakota, and met with the 
folks there. I don't think that there was--well, I am just 
going to check on that, in terms of the accountability. I don't 
think that anyone who was part-time was only providing services 
to veterans for part of the day. I just think it could be 
overall the number of people seeking services and that they 
have adequate resources because we are doing a better job in 
South Dakota on a whole host of fronts, not only administering 
this program but also the State allocation that is going in to 
ensure that we have adequate resources to meet the needs of 
people coming into those centers. And that is what I think was 
identified even in the first panel, that there are some States 
that are doing a good job that do have part-time folks. But 
there is that consistent culture, as I think Mr. Weidman noted.
    I will transition here because, again, I am expecting votes 
at any time. We will maybe submit some questions to you in 
writing for follow-up. I did want to pose just a couple more 
questions, but before I do, I am going to see if Mr. Boozman 
has any further questions.
    Mr. Boozman. I don't. Again, I appreciate your hard work in 
an effort to really try to move these things forward. I know 
you have worked really hard. You and your staff also have 
really been very good to work with, and we appreciate that. 
Thank you very much.
    Ms. Herseth Sandlin. The Hire Vets First Campaign, this is 
administered by VETS, and I know Mr. Offutt is here. Does the 
budget for it come out of VETS?
    Mr. Ciccolella. It comes not out of the grant, but it comes 
out of the Federal administration part.
    Ms. Herseth Sandlin. Right.
    Mr. Ciccolella. That funds salaries and expenses and all 
that stuff.
    Ms. Herseth Sandlin. Are there job placement goals for 
veterans that are specified within the campaign?
    Mr. Ciccolella. No.
    Ms. Herseth Sandlin. Do you think there should be?
    Mr. Ciccolella. I don't know. When I think about how we 
would do that, the only way I could really figure out how to do 
that would be to measure what the placement of veterans who 
visit a job fair--and we would have to collect some information 
from them or other activities of the Hire Vets First Campaign. 
I think that it might be a reporting nightmare. That is just an 
initial view. I don't know.
    The campaign is important, from this point of view. It is 
important that Governors and States and localities understand 
that there are real advantages to hiring veterans and that 
there is a business case for that. It is not just the right 
thing to do. The business case is that American employers today 
want to hire veterans.
    Now, what I am trying to focus that campaign on are these 
job fairs and on the Advisory Committee for Veterans' 
Employment and Training to provide us information on how to get 
out to employers and give them strategies for hiring veterans.
    Now, the job fairs are unbelievably good. They are not 
always successful in terms of, you know, 100 veterans getting a 
job. But you bring the veteran and the employer together, you 
bring the workforce agency together with them, you bring the 
press together, and it really raises the awareness of the value 
that veterans bring to the workforce.
    And, you know, it has been very, very successful. We have 
over 100 job fairs that are going to take place in the next 30 
days. They are really a good way to convey the message.
    Ms. Herseth Sandlin. I would agree with that, and I have 
appreciated the opportunity to meet a number of the Advisory 
Committee members who have been involved on this campaign and 
other initiatives. I don't disagree that it is very important 
as it relates to raising the awareness, bringing all of these 
folks together in a network that may not be otherwise.
    I know you said trying to track the actual placements might 
turn into a reporting nightmare, but do you not currently do 
any surveys of those who have participated, at the end of the 
day, trying to get them to offer some information or being able 
to even ask the question of how many contacts--or even survey 
your participants, your business participants?
    Mr. Ciccolella. Yeah. No, I think it is--and I am trying to 
think, as I am talking here. It is hard for me to do sometimes. 
But I think you may be on to something.
    We know from anecdotal information that 10 to 15 percent of 
veterans who go to job fairs get offers--will get offers. That 
is the feedback anecdotally that we get. What we don't do is to 
actually register those servicemembers who visit the job fairs. 
With, for example, the DVOP and LVERs, we try to have them at 
the job fairs. And then, you know, run those numbers against 
the wage record system, so that we could say, you know--but 
then, you know, if we did that, it doesn't necessarily mean 
that going to the job fair, you know, got them that particular 
job.
    So I don't know. But if you want us to do look at it, we 
will be glad to look at it.
    [The information was provided in the post hearing questions 
and responses for the record.]
    Ms. Herseth Sandlin. I think it might be helpful to look at 
it. When you say 10 to 15 percent anecdotally, are those 
anecdotes coming from the employers or from the servicemembers?
    Mr. Ciccolella. Employers.
    Ms. Herseth Sandlin. Okay. Do you know, off the top of your 
head, what has been the budget for the campaign?
    Mr. Ciccolella. It is not a whole lot.
    What is the budget?
    Mr. Offutt. The budget was less than $100,000 for the last 
fiscal year.
    Mr. Ciccolella. What about the meetings?
    Mr. Offutt. The meetings run about $50,000 apiece. It has 
been about $50,000.
    Ms. Herseth Sandlin. I didn't hear all that; I am sorry. So 
it is about $115,000?
    Mr. Ciccolella. About $150,000.
    Ms. Herseth Sandlin. $150,000. That doesn't include the 
overhead?
    Mr. Ciccolella. No. No. No.
    Ms. Herseth Sandlin. Any idea what that is?
    Mr. Ciccolella. Could I get you that information?
    Ms. Herseth Sandlin. Yes, please.
    Okay. Well, thank you for indulging me, Mr. Boozman.
    Again, a number of areas that we could pursue, but I would 
like to echo Mr. Boozman's sentiment. We appreciate the hard 
work that all of you do with the authority and the resources 
that you have, and that some of the areas that we probe is just 
to gauge whether or not you need more, if we are even in a 
position to be able to provide it in some tight budgets. But it 
does allow us to identify what is working and what additional 
information might we think necessary to, again, best gauge the 
performance measures and to be of assistance.
    Thank you.
    Ms. Gilbert, thank you for joining us today, as well. We 
thank you for your service through the Department of Labor and 
through these important programs to our Nation's veterans, and 
working so closely with your Advisory Committee and with really 
terrific employers across the country who want to do the right 
thing and know that it is a valuable asset for them to hire our 
Nation's veterans.
    Again, thank you for your testimony and answering our 
questions.
    Thank you, again, to the first panel.
    The hearing now stands adjourned.
    [Whereupon, at 4:22 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Prepared Statement of Hon. Stephanie Herseth Sandlin, Chairwoman,
                  Subcommittee on Economic Opportunity
    Like many of my colleagues in the Subcommittee, the state of South 
Dakota has had service members that have been activated in support of 
operations in Iraq and Afghanistan. Some of these brave men and women 
have returned injured and are currently in need of healthcare and 
employment services. They, like all disabled veterans from around the 
country, deserve our best efforts to provide a seamless and effective 
transition from military service to civilian life and the workforce.
    Earlier this year, this Subcommittee held its first hearing that 
included the Department of Labor's Disabled Veteran Outreach Program 
Specialist (DVOPS) and Local Veterans Employment Representative (LVER) 
programs, which are primarily administered through state employment 
agencies.
    As our distinguished panelists know, the primary role of DVOP and 
LVER is to assist veterans obtain employment and conduct employer 
outreach. Specifically, the implementation of DVOP was designed to meet 
the employment needs of disabled veterans. I applaud the sincere 
dedication of these professionals, but also believe further 
opportunities to enhance these programs still exist.
    As I have traveled around my state meeting constituents, I have had 
the privilege to meet with service members and veterans to discuss 
issues important to them and their loved ones. While healthcare, 
compensation and education benefits rank high among the issues raised, 
the need for employment opportunities has resonated clearly among the 
veteran community. Their ability to acquire proficient skill sets, 
obtain the needed assistance to successfully connect to an employer and 
apply those skills to the workforce are fundamental to their ability to 
succeed in today's workforce environment. This is especially true at a 
time when we can expect an increased level of retirements within the 
next few years. I truly believe that the Department of Labor's DVOP/
LVER programs have a crucial role in assisting our veterans meet this 
need.
    Today's hearing will follow-up on at least three Subcommittee 
hearings held in the 109th Congress and our first Subcommittee hearing 
held on March 7th of this year. In those hearings we had the 
opportunity to hear from veteran service organization's concerns on 
funding levels, DVOP/LVER training, accountability and priority of 
service for our veterans.
    Ranking Member Boozman, I look forward to working with you, all the 
Members on this Subcommittee, veteran service organizations and 
administrations officials to address these concerns and ensure our 
Nation's veterans are provided the best services to succeed in life 
after their service to our country.

                                 <F-dash>
                Prepared Statement of Hon. John Boozman,
                       Ranking Republican Member
    Good afternoon Madam Chairwoman and today's witnesses. Since its 
inception, the mission of the DVOP/LVER program has been to place 
veterans, especially disabled veterans in suitable employment. Recent 
changes to the law have refocused the duties of the DVOPs and LVERS and 
added flexibility to the system by authorizing states to fill those 
positions with half-time employees.
    However, there continues to be controversy regarding the 
performance of the system. We continue to hear that employment office 
managers divert veterans staff to serve other non-veteran clients. We 
also hear that competition would bring improved performance throughout 
the system.
    Last year, at the suggestion of VETS, we removed language from what 
eventually became PL 109-461, that would have added specific data 
reporting requirements so that VETS could implement the common 
measures. Now that a year or so has passed, I will be very interested 
to hear whether common measures are providing a sufficiently robust 
picture of how we are doing in placing veterans compared to their non-
veteran counterparts.
    I am also open to any suggestions our witnesses may have to improve 
the system. It is vital that our employment programs enable veterans to 
find suitable employment that promotes their wellness and quality of 
life.
    Madam Chairwoman, thanks for bringing this issue to the front and I 
yield back.

                                 <F-dash>
      Prepared Statement of Ronald F. Chamrin, Assistant Director,
                  Economic Commission, American Legion
    Madam Chairwoman and Members of the Subcommittee:
    Thank you for this opportunity to present The American Legion's 
view on the Department of Labor's Veterans' Employment and Training 
Service (DOL-VETS).
    The American Legion has been advocating for additional support for 
the DOL-VETS programs. Our contentions are supported by the numerous 
Government Accountability Office (GAO) reports regarding VETS that have 
been released in recent months. The GAO reported in May 2007 that 
approximately 700,000 veterans are unemployed in any given month. (See 
Appendix 1.)
    VETS programs are and should remain a national program with Federal 
oversight and accountability. The American Legion is eager to see this 
program grow and especially would like to see greater expansion of 
entrepreneurial based, self-employment opportunity training.
    The mission of VETS is to promote the economic security of 
America's veterans. This stated mission is executed by assisting 
veterans in finding meaningful employment. The American Legion believes 
that by strengthening American veterans, we in turn strengthen America. 
Since 2001 the Department of Defense (DOD) annually returns 
approximately 300,000 servicemembers to the private sector each year. 
These recently separated servicemembers will immediately seek 
employment. The American Legion has observed that these recently 
discharged servicemembers increasingly have chosen some form of self-
employment.
    In light of the facts, The American Legion has been strongly 
advocating that staffing levels for Disabled Veterans' Outreach Program 
(DVOP) Specialists and Local Veterans' Employment Representatives 
(LVERs) should match the needs of the veteran community in each state 
as opposed to the current system that is based solely on the fiscal 
needs of the state government.
    The American Legion believes that the military experience is 
essential to understanding the unique needs of the veteran. Title 38 
United States Code (USC) Sec. 4103A should be expanded to include all 
LVERs, as well as all DVOPs. Current law requires that all DVOP 
specialists shall be qualified veterans and preference be given to 
qualified service-connected disabled veterans for appointment to DVOP 
specialist positions. These critical staff members should be veterans 
and should be additionally educated to be able to address the needs of 
veterans who desire entrepreneurial support.
    This Committee requested that we respond to four questions in 
addition to our concerns:

    1.  Is DOL properly implementing the DVOP/LVER programs with the 
states?
    2.  Under what circumstances should states lose funding for failing 
to meet their obligations?
    3.  Are part-time DVOP/LVER meeting the needs of rural and urban 
area veterans?
    4.  What is your organization's position on how the DOL tracks its 
performance measures?
1. IS DOL PROPERLY IMPLEMENTING THE DVOP/LVER PROGRAMS WITH THE STATES?
    The Jobs for Veterans Act, Public Law (P.L.) 107-288, has 
eliminated the requirement that DOL/VETS review all workforce centers 
annually and this has minimized Federal oversight of the programs. The 
Assistant Secretary (ASVET) has drastically cut funds allocated for 
this activity and established a policy that only 10 percent of the 
centers operated under Title 38 will be reviewed. Furthermore, P.L. 
107-288 has removed the job descriptions of the DVOPs and LVERs from 
Title 38, USC, and given the States the ability to establish the duties 
and responsibilities, thus weakening the VETS programs across the 
country by eliminating the language that required these staff positions 
provide services only to veterans.
    Finally, the passage of P.L. 107-288 removed the Federally-mandated 
manning formulas for assigning DVOPs and LVERs in each state. This 
action has allowed each State to determine the number of veterans' 
employment personnel in each State. States now have the discretion of 
assigning one half time DVOP and/or LVER to one office, while 
eliminating positions in offices that need veterans' staff by virtue of 
veteran intake.
    The American Legion supports the restoration of language to Chapter 
41, Title 38, USC, that require that half time DVOP/LVER positions be 
assigned only after approval of the Director of Veterans Employment and 
Training (DVET), and that the Secretary of Labor be required to monitor 
all career centers that have veteran staff assigned. The American 
Legion also supports legislation that restores the duties and 
responsibilities of DVOPs and LVERs to include case management, 
outreach to veterans and job development.
TAP administration by State governed DVOPs/LVERs
    VETS provides professional veterans' employment personnel, DVOPs/
LVERs, to participate in the Transitional Assistance Program (TAP) on 
military installations. Higher demands placed on LVERs to deliver TAP 
modules, in addition to their normal employment assistance programs, 
has the potential for weakening their overall capability. In order to 
circumvent any gaps in providing services, additional funding to 
support an increased number of LVERs should occur.
Training for DVOPs/LVERs under state jurisdiction
    The National Veterans' Employment and Training Services Institute 
(NVTI) provides training to Federal and state government employment 
service providers in competency based training courses. Current law 
requires all DVOPs and LVERs to be trained within 3 years of hiring.
    NVTI has provided several thousand training sessions for State 
Employment Security Agency staff, Veterans' Employment and Training 
Service (VETS) staff, DOD staff, and Department of Veterans Affairs' 
(VA's) Vocational Rehabilitation staff. NVTI provides standardized 
training for veterans' advocates providing employment and training 
services. The positive impact on the quality of services provides 
veterans with well-trained vocational specialists across the country.
    P.L. 109-461 stipulates that newly hired DVOPs/LVERs must attend 
the NVTI to be trained for their position within 3 years of hiring. 
Unfortunately, a newly hired individual can retain their position for 
2.5 years before they are required to begin training to ensure that 
graduation is within the 3-year hiring period. Newly hired employment 
specialists, without the benefit of NVTI training, may be ill-prepared 
to properly assist veterans seeking meaningful employment or facing 
significant barriers to employment.
    To close this loophole, The American Legion recommends that newly 
hired DVOPs/LVERs personnel must be trained at NVTI within the first 
year of employment and supports that all untrained DVOP/LVER staff 
within 3 years of hiring at the time of enactment of new legislation 
must be trained within 1 year. The American Legion also recommends $6 
million of funding to NVTI.
Interagency Cooperation Between DOL-VETS and VA at State Levels
    It is our observations that the interagency collaboration and 
communication between the VR&E program, and DOL-VETS is lacking.
    A Memorandum Of Understanding (MOU) between VA and DOL was 
developed and signed in October 2005 stating that each agency would 
work for the smooth transition of veterans to the civilian workforce. 
This agreement is authorized in accordance with Title 38, USC, 
Sec. 4102A(b)(3).
    In discussions with numerous VETS representatives across the 
country, The American Legion is hearing a variety of opinions on the 
current implementation process and progress of the MOU. A majority of 
VETS representatives contacted spoke of a markedly improved level of 
communication between the two agencies, along with other positive 
developments such as improvement in local data sharing and combined 
training on the local and national levels. In addition, national 
representatives from the two agencies are currently reporting a close 
and cooperative relationship, and the expectation is that this 
relationship will continue to improve over time.
    In some states, however, it has been reported that the signing of 
the MOU has not led to an improvement in cooperation between the two 
agencies. Some problems cited were a difference in the perceptions of 
the primary mission, differing education levels of VA case managers and 
DVOPs and LVERs, and the unenforceable mandate for the two agencies to 
communicate and cooperate on a local level. DVOPs and LVERs are 
controlled by each individual state and have their own requirements 
making a state and Federal program difficult to synchronize.
2. UNDER WHAT CIRCUMSTANCES SHOULD STATES LOSE FUNDING FOR FAILING TO 
        MEET THEIR OBLIGATIONS?
    The American Legion does not have a position regarding loss of 
funding for failure to meet obligations. We do, however, advocate for 
continuous oversight on all Federal programs for veterans.
3. ARE PART-TIME DVOP/LVERS MEETING THE NEEDS OF RURAL AND URBAN AREA 
        VETERANS?
    The American Legion has observed, by virtue of our members who are 
employed as DVOPs/LVERs, that due to half time status, these personnel 
are unable to travel to the locations where veterans tend to 
congregate. Their travel budgets have been slashed. Their half time 
status prohibits periods of travel that will extend beyond half a day, 
and their other requirements force them to be able to assist non-
veterans within their employment offices.
    The American Legion reiterates to only have half time DVOPs/LVERs 
at the approval of the DVET.
4. WHAT IS YOUR ORGANIZATION'S POSITION ON HOW THE DOL TRACKS ITS 
        PERFORMANCE MEASURES?
    The Employment and Training Administration (ETA), DOL stated that 
although P.L. 107-288 requires veterans' priority services in all DOL 
programs, ETA has not monitored the performance nor do they have a way 
of tracking the performance.
    The ASVET cannot accurately capture necessary local, state wide and 
national data to adequately assess performance outcomes or hold the 
various states accountable for providing priority services to veterans. 
Additionally, states are not required to report to the ASVET.
    The American Legion supports that any agency provided Federal 
funding to provide veterans' employment and training services must 
adhere to priority of service, and develop reporting systems that track 
priority services to veterans as provided and outlined in Title 38, 
U.S.C. Furthermore, all DOL One-Stop Centers should work with the VETS 
to ensure the operations of the One-Stop Centers meet or exceed the 
Federally-mandated priority of service for eligible veterans.
    The American Legion strongly supports improvements in the reporting 
programs available to and administered by VETS. The ASVET should be 
empowered to establish clear, up to date, real time performance 
standards and a means of collecting data to properly measure 
performance at the local, state, and national level.
    The American Legion also seeks and supports a revision of existing 
VETS reporting requirements for measuring performance standards and for 
determining compliance with requirements for providing employment 
services to veterans.
FULL FUNDING FOR DOL-VETS
    The President requested $228.1 million in Fiscal Year (FY) 2008 to 
support the staffing and grant making ability of VETS. This is a $5.1 
million, or 2.3 percent, increase over FY 2007. For FY 2008, the House 
provided an additional $3 million for Homeless Veterans' Reintegration 
Program (HVRP), $1 million for NVTI, and $1 million for additional 
employees, including one additional employee in each of the six 
regional offices to address complaints and investigations arising under 
the Uniformed Services Employment and Reemployment Rights Act (USERRA).
    Veterans returning from duty in support of the Global War on Terror 
are not always coming back to a hero's welcome, at least not from all 
employers. The American Legion notes that DOL-VETS reports an 
unemployment rate in 2006 of approximately 10 percent for veterans aged 
20-24, improved in comparison to 2005, but is still higher than the 
national average of non-veterans within the same age group and 
significantly higher than the general population as a whole. Numerous 
national publications have reported veterans are having a more 
difficult time finding jobs than non-veterans.
    The employment market is tougher for young veterans as illustrated 
in a January 2007 Study by the National Organization of Research, 
Chicago.

    `An illustrative example of this complexity is the experience of 
the respondent whose public identifier is 8224. He reported exiting the 
military in week 45 of 1998. He was then employed every week from week 
46 in 1998 to week 13 of 2000. He returned to the military from week 14 
of 2000 to week 29, and returned to employment from week 30 of 2000 to 
week 50. He returned to the military in week 51 of 2000, and stayed 
until week 12 of 2001. He was employed from weeks 13 to 44 for 2001, 
and then was out of the labor force from week 45 to week 48 of 2001. 
This was followed by a spell of unemployment from week 49 of 2001 to 
week 40 of 2002. The respondent was then out of the labor force for 10 
weeks, and then was employed from week 52 of 2002 to week 49 of 2004.'

    The American Legion receives numerous requests for employment 
assistance and comments on unemployment and underemployment. This is a 
key reason why the funding for the VETS program is so critical.
    Veterans need proper training and tools to begin new careers after 
they leave military service. For example, the Veterans Workforce 
Investment Program (VWIP) account has only received $7.3 million in 
annual funding, which has allowed the program to operate in only 11 
states. This is unacceptable. There are thousands of veterans available 
for work, but some lack marketable or technical skills. The problem is 
a lack of adequate funding for this and other veteran only programs.
    To ensure that all veterans, both transitioning and those looking 
for employment assistance well past their discharge, receive the best 
care; the DOL-VETS program must be adequately funded. The American 
Legion has observed that the ASVET does not have any discretionary 
funding that would enable him to create programs or enhance current 
programs to help veterans. With the great need for employment 
assistant, we feel that the current funding levels are inadequate. 
Please refer to appendix 2 for the presidents FY 2008 Budget Request 
for DOL-VETS.
    Contrary to the demands placed upon VETS, the funding increases for 
VETS since 9/11 does not reflect the large increase in servicemembers 
requiring these services due to the Global War on Terror. In support of 
this fact, the inflation rate from January 2002 to January 2007 was 
14.3 percent and yet for State Grants alone, funding has only increased 
a mere 1.2 percent ($158 million to $161 million). The President's 
Budget request for FY 08 will allow for an increase of one percent for 
State Grants, the mechanism for funding DVOPs and LVERs. However, this 
does not meet the inflation rate of salaries and approximately 100 
positions will be eliminated nationwide next year.
    Because of the enactment of P.L. 107-288, each state receives an 
individual grant based upon their State Plans and how many positions 
that they feel that they require. The new funding formula emplaced in 
2002 re-calculated the authorization for State Grants leaving the onus 
of how many staff members to fund the responsibility of each state. It 
is our understanding that if a state chose to employ half time DVOP's 
and LVER's instead of a full time employee that is their prerogative. 
However, DOL-VETS has no enforcement authority to mandate that states 
request only full time staff and in greater numbers. Since the 
enactment of P.L. 107-288 there has been a net loss of DVOP's and 
LVER's as the net cost per FTE has risen at a rapid rate. Moreover, the 
Wagner-Peyser grants from DOL have a direct correlation to the number 
of indirect costs to VETS. DOL-VETS can provide a detailed breakdown of 
their funding, authorization, and formulas.
    More services and programs are needed and yet, since 2002, the VETS 
program has only received a modest four percent increase. Accordingly, 
The American Legion recommends full funding for DOL-VETS.
SERVICEMEMBERS OCCUPATIONAL CONVERSION AND TRAINING ACT (SMOCTA)
    The American Legion continues to encourage Congress to reauthorize 
and adequately appropriate funds for the Service Members Occupational 
Conversion and Training Act (SMOCTA) program. SMOCTA was developed as a 
transitional tool designed to provide job training and employment to 
eligible veterans discharged after August 1, 1990. SMOCTA was the only 
Federal job training program available strictly for veterans and the 
only Federal job training program specifically designed and available 
for use by state veterans' employment personnel to assist veterans with 
barriers to employment.
    Veterans eligible for assistance under SMOCTA were those with a 
primary or secondary military occupational specialty that DOD has 
determined is not readily transferable to the civilian workforce or 
those veterans with a service-connected disability rating of 30 percent 
or higher. SMOCTA is a unique job-training program because there is a 
job for the veteran upon completion of training. Specialists publicly 
praised the effectiveness of SMOCTA because it successfully returned 
veterans to the civilian workforce.
    The American Legion recommends SMOCTA be reauthorized and fully 
funded.
CONCLUSION
    Transition assistance, education, and employment are each a pillar 
of financial stability. They will prevent homelessness, afford veterans 
to compete in the private sector, and allow this nation's veterans to 
contribute their military skills and education to the civilian sector. 
By placing veterans in suitable employment sooner, the country benefits 
from increased income tax revenue and reduced unemployment compensation 
payments, thus greatly offsetting the cost of TAP training. DOL-VETS 
requires full funding.
    The American Legion looks forward to continue working with the 
Subcommittee to assist the nation's veterans and to assist in their 
employment and financial stability. Madam Chairwoman and Members of the 
Subcommittee, this concludes my testimony.
                               __________
                               APPENDIX 1
GAO Reports
    The Government Accountability Office recently produced many reports 
regarding the Department of Labor and the Department of Labor VETS. 
GAO-07-1096, a report to the Chairman, Committee on Education and 
Labor, House of Representatives

        GAO recommends that Labor step up action to ensure that all 
        stand-alone offices be affiliated with the one-stop system.

    GAO-07-1020

        GAO recommends that to ensure the implementation of their 
        agreement and the efficient and effective use of resources, GAO 
        recommend that Labor and VA develop a comprehensive plan to 
        implement their agreement and undertake additional guidance and 
        monitoring efforts, and that VA review the role of the 
        employment coordinator, and assess the use of the job resource 
        labs.

    GAO-07-907

        GAO recommends that the Secretary of Labor develop an internal 
        review mechanism for all unresolved claims before they are 
        closed and claimants are notified and establish internal 
        controls to ensure the accuracy of data entered into DOL's 
        database.

    GAO-07-594

        GAO has made a number of recommendations to improve the 
        performance measurement system for the DVOP and LVER programs 
        and to better understand services and their impact for job 
        seekers in the one-stop system, including veterans.

    GAO-07-1051T, a testimony before the Subcommittee on Higher 
Education, Lifelong Learning, and Competitiveness, Committee on 
Education and Labor, House of Representatives

        GAO reported additional actions that would further improve the 
        workforce system.

        [GRAPHIC] [TIFF OMITTED] 39467A.001
        

    Source: U.S. Department of Labor, Veterans Employment and Training 
Service, FY 2008 Congressional Budget Justification.

  Prepared Statement of Richard Daley, Associate Legislation Director,
                     Paralyzed Veterans of America
    Chairwoman Herseth Sandlin, Ranking Member Boozman, members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to testify today on the Department of Labor's 
Veteran's Employment and Training Service (DOL-VETS) and programs under 
its jurisdiction.
    PVA is an organization of veterans who are catastrophically 
disabled by spinal cord injury or disease. Our members and other 
individuals who suffer from similar injuries or diseases do not receive 
proper consideration for employment when applying for a job. This is 
often due to barriers in the workplace, false perceptions of the 
potential costs to employers of hiring people with disabilities, and 
the perceptions many people still have about veterans.
    The federal government can play a critical role for veterans, and 
particularly disabled veterans that are leaving the military in large 
numbers. The DOL-VETS has created specific programs that provide help 
for veterans seeking employment. The most important services provided 
by VETS are done by Disabled Veterans' Outreach Program (DVOP) 
coordinators and Local Veterans' Employment Representatives (LVER). 
PVA, along with many other veterans' service organizations, worked for 
years to have clear performance standards put in place for both DVOP 
and LVER staff. In 2002, VETS initiated limited performance measures 
based on the rates of employment and retention.
    Following the enactment of P.L. 107-288, the ``Jobs for Veterans 
Act,'' VETS began implementing more focused performance measures for 
DVOP and LVER staff. These changes were meant to emphasize the 
placement of severely disabled veterans and other veterans facing 
barriers to employment and to avoid some forms of ``cherry picking.'' 
Though it is unpleasant to accept, when someone's job is at risk, human 
nature may cause the employment specialist to select the easy 
placement, over the one requiring greater effort. The revision of the 
duties of DVOP and LVER staff in the ``Jobs for Veterans Act'' and the 
continuing efforts of VETS to establish meaningful performance 
standards are essential to reinforcement of the services they provide. 
PVA welcomes these changes as they are essential to a viable job 
placement service.
    For disabled veterans to successfully enter the job market they 
must first choose a career path that requires additional, or initial 
training for new employment skills. This is coordinated through the 
Department of Veterans Affairs (VA) Vocational Rehabilitation and 
Employment Program (VR&E). The VR&E counselors working with local DVOP 
and LVER representatives can improve the seamless transition from 
military to civilian employment. Many disabled veterans fall into the 
larger category of 30 percent service-connected disabled and may choose 
to stay in the career fields that the military has trained them in. The 
DVOP and LVER can be an important resource for these veterans because 
they have knowledge of the employment opportunities in that area, some 
understanding of the veteran's disability, and often have built a 
relationship with local employers.
    PVA remains concerned that the race to simplify, computerize and 
decentralize the employment system through electronic-based self-
service systems and one-stop career service centers might diminish the 
role of DVOP and LVER staff. We do believe there are some advantages to 
one-stop veterans' job service offices. The ability of a disabled 
veteran, who may have difficulty leaving his or her home, to have 
access to the employment services provided can be a tremendous benefit. 
However, the advantage of face-to-face interaction between DVOP and 
LVER staff members and veterans cannot be overstated. It seems that 
unless there is a paradigm shift, the number of DVOP specialists and 
LVER staff will be reduced.
    We believe the DOL is doing a reasonably good job of implementing 
the DVOP and LVER programs as required by law. Their primary 
responsibility is to fund and monitor these programs. Unfortunately 
Congress has not increased the funding for these programs in many 
years. Without adequate funding, these programs have struggled to 
manage an increasing work load, and it has become more difficult to 
address the needs of new veterans needing assistance. Along with 
inadequate program funding, the DOL is not appropriated discretionary 
funding for special projects. Discretionary funds could be used to test 
pilot programs, or to fund a program that proposes a new attempt to 
find employment for veterans.
    Occasionally, a state falls short of the requirements outlined in 
their employment service grant. However, this should not be a cause for 
DOL to request the return of funding. Instead, this would indicate that 
more oversight is required by the Director for Veterans' Employment and 
Training (DVET) to provide technical assistance and training at the 
state level. Removing funding from a state program that is not 
performing to the required standards does not help that program, and 
ultimately the veteran looking for work may bear the consequences of 
this action.
    The DOL tracks states' performance by the number of persons 
entering the workplace. They also track the number of veterans that 
register with the DVOP program. The DOL does not track the number of 
veterans that gained employment because of the assistance of the states 
employment programs. Sometimes these programs could have limited input 
into the veteran's employment, and sometimes they have no input at all. 
Perhaps the DOL could conduct a pilot program in several states to 
follow up with the veterans after they leave the unemployment roles. 
They could try to determine what influence the state office had in 
securing that job for the veteran. Although this may be a labor 
intensive exercise, it may help determine if the states' efforts are 
producing the results that are intended for veterans.
    To address the needs of today's veterans, Congress might consider 
reimplementing a program similar to the Service Members Occupational 
Conversion and Training, (SMOCTA) program. Although this program was 
funded by the Department of Defense, it was administered by the VA and 
the DOL. This was considered one of the better programs to serve 
transitioning military personnel. SMOCTA was established during the 
downsizing of the military for veterans discharged after August 1, 
1990, to help those veterans that had limited transferable job skills. 
A similar program would help many of the younger men and women 
transitioning from the military today, and those reserve and guard 
members reentering the workforce.
    This program provided assistance in the form of reimbursements to 
employers who provided training for veterans that led to permanent 
employment. The program also included funds for assessments, 
development of training plans, and supportive services for the trainee. 
The DVOP and LVER staff developed the employment and training plans. 
Veterans eligible for assistance were those with military occupations 
that were not transferable; those that were unemployed for a long 
period of time; and those with a 30 percent or greater service-
connected disability.
    Chairwoman Herseth Sandlin, Ranking Member Boozman, members of the 
Committee, I would like to thank you again for this opportunity to 
express our concerns on this issue. I would be happy to answer any 
questions you may have.

                                 <F-dash>
               Prepared Statement of Richard F. Weidman,
         Executive Director for Policy and Government Affairs,
                      Vietnam Veterans of America
    Good afternoon, Madame Chairwoman, Ranking Member Boozman, and 
distinguished Members of this panel. On behalf of our National 
President, John Rowan, Vietnam Veterans of America (VVA) thanks you for 
the opportunity to appear here today to express our views on this vital 
veterans' issue of how well the Local Veteran Employment Representative 
(LVER) program and the Disabled Veteran Outreach Program (DVOP) is 
working, particularly for disabled veterans, recently separated service 
members, and those veterans most at risk of becoming homeless. My name 
is Rick Weidman, and I currently serve as Executive Director for Policy 
& Government Affairs for VVA.
    Vietnam Veterans of America (VVA) has repeatedly advocated the 
``wellness'' model as the paradigm toward which all of the programs, 
benefits, and services should be aimed. What this means is that it is 
the duty of the people of the United States, through our government 
institutions and with our community resources, to do everything 
possible to restore the men and women who have placed their lives on 
the line in the common defense to the highest degree of autonomy and 
functioning possible following that military service.
    Said another way, all of us should be using a ``holistic'' view of 
the physiological, neuro-psychiatric, and psycho-social aspects of 
health of all returning veterans, but particularly disabled veterans. 
The `litmus test' of achieving the highest degree of ``wellness'' 
possible for veterans of working age is the ability to obtain and 
sustain meaningful employment.
    While VVA still believes that the Nation's health care system for 
veterans is still under-funded, despite strong increases this year, and 
that the organizational capacity of the VHA is not yet adequate to meet 
the full range of legitimate needs of the eligible veterans' 
population, the simple fact is that we as a Nation do spend billions 
every year on health care, readjustment counseling, vocational 
rehabilitation, educational benefits, PTSD treatment, substance abuse 
treatment, and numerous other programs designed to assist veterans. 
However, if the veteran is not assisted to obtain and sustain 
meaningful employment, then there is no ``payoff'' for the individual 
or for the Nation.
    To use a football analogy (borrowed from Mr. Boozman!), without the 
`points on the board,' it does not matter how many yards in offense one 
compiles. One can argue that we expend all of our energy in moving the 
ball eighty plus yards down the field, but have not concentrated enough 
on how to actually get the ball into the end zone to score. Obtaining 
meaningful work at a living wage gets us into the end zone for that 
veteran or disabled veteran, and puts points on the board. So, securing 
a job is a key component (perhaps THE key component) of helping each 
veteran achieve the highest degree of autonomy and ``wellness'' 
possible, which is (or should be) the explicit goal of every program 
and service for veterans.
    It is because of this centrality of obtaining and securing 
meaningful employment at a living wage is in the readjustment process, 
particularly of our newest veterans, that what this panel does is so 
key to a ``pay-off'' of all of the rest of the efforts extended by our 
Nation.
History & Background
    The Employment Service was created as a non-statutory entity in 
1915, under President Wilson. The United States Employment Service 
(USES) was created as a statutorily mandated entity in 1933 as part of 
the Social Security Act, along with the legislation that established 
unemployment insurance. The Wagner-Peyser Act, as it is commonly known, 
established ``priority of service'' for veterans who sought assistance 
in finding employment. Employers made the argument to the Congress that 
if business was going to pay taxes to pay for unemployment checks to 
former workers, that there needed to be a strong effort to get them 
back to work, thereby reducing the UI tax rate for the employer.
    From the outset of the reconstituted Employment Service, veterans 
were legally accorded ``priority of service.'' Veteran's organizations 
made the argument that veterans should be first in line for any such 
assistance. As this was a mere two years following the World War I 
veterans' march on Washington, and the spectacle of American troops 
firing on American veterans on the national Mall, Congress and the 
President agreed and saw fit to ensure that veterans, who had 
sacrificed the most, received priority in referral to job openings and 
for other services.
Creation of the LVER Program
    Unfortunately, a mere decade later (and in the middle of World War 
II), ``veterans priority of service'' was not working very well at the 
local level, in many instances. Essentially the Congress found that 
there was no meaningful quality assurance system to ensure that 
veterans received their rights to priority. Therefore, in 1944, as part 
of the set of laws known as the GI Bill, ``priority of service'' was 
reiterated, and the Local Veterans Employment Representative (LVER) 
program grants to the states created, in order to help ensure that 
priority of service actually happened in each and every office. The 
theory was that all local employment service office managers were 
intent on obeying the law, and that where veterans did not receive 
``priority of service'' the LVER would monitor all activity, make the 
office manager aware of any problems caused by a few ``bad apples,'' 
and the problem would be corrected. That is why the LVER, by law, was 
supposed to report directly to the local office manager. While this 
``fix'' helped in many instances, it was still problematic and uneven 
in how well it functioned.
    Also beginning in 1944 and 1945, many cities began to emulate the 
model first promulgated in Bridgeport, Connecticut, to establish 
veterans multi-service centers, with VA benefits counselors and other 
VA services providers, employment service representatives, unemployment 
claims examiners, and any other available public and private resources 
all existing under a single roof, in order to coordinate the response 
of the entire community to welcome home the returning veterans. Most of 
these had a governing board that were like a model Rotary club, with 
representatives of the various aspects of the business community, the 
clergy, political leaders, veterans organizations, civic organizations 
such as the Elks, labor unions, and other key elements of that 
particular community. In this way it really was a total response of 
each community to the returning veterans, and therefore an evolving 
strategy in each community.
    Similarly, the GI Bill provided for farm training, vocational 
training, and other skills training as well as attending college (which 
for many was training that led to a better job than they could have 
ever dreamed of before their service in the war). In fact, more than 
51% of the GI Bill usage was for training other than accredited four-
year colleges. Many veterans were able to attend college because of the 
educational benefits and the ``52-50'' club which allowed them to have 
$50 unemployment payments (what we today call UCX) for a full year to 
get themselves settled and to find a college to attend or a program to 
pursue.
Self Employment & Small Business as a Means to Employment
    For many, the VA also administered a program to help veterans 
establish small business concerns that included direct loans to start 
their business. This resulted in countless very small businesses, as 
well as many firms that grew into medium and large companies, all 
because it was part of a true Nation strategy to assist returning 
veterans to develop a way to earn a living, either by working for 
someone else, or by starting his or her own small business. Among many 
other symbols of this highly successful program was the ubiquitous 
``Veterans Taxi'' found in cities and towns all across America.
    In response to continuing problems, a system of ``Director, 
Veterans Employment Services'' was created with a Director in each 
state, who was a Federal employee. One of the problems from the outset 
was that there was inexact control at the state and local level as to 
the actual performance of the service delivery staff because all of the 
employees were state workers who although they were funded by Federal 
funding were not subject to direct Federal control or accountability. 
Some of these Directors were very good, while others were not so good. 
Frankly, the most effective state DVETs were the ones who brought 
outside political clout to their job that helped them ensure that the 
state employees at the local Job Service offices did the right thing 
for veterans. While they were all ostensibly civil servants, the 
selection process was (and still largely is) highly political. In many 
states the employment service was not responsive to the needs of 
Vietnam veterans.
Veteran Community Based Programs
    The League of Cities/Conference of Mayors created a network of 
Community Based Organizations (CBO) in 1974-5 to attempt to deal with 
this problem in medium sized cities. Some of those, such as the 
Veterans Outreach Center in Rochester, New York, and the Rhode Island 
Veterans Assistance Center in Providence, RI, still exist. Other CBOs 
came into being because the need was great and Vietnam veterans stepped 
forward to organize and find funding sources to meet the need. Many of 
the CBOs who are providers of multiple services to homeless veterans 
and other very low income veterans came into existence this way. These 
include Swords to Plowshares in San Francisco, Vietnam Veterans of 
California (formerly Flower of the Dragon), and others. In fact, the 
community based model works very well to deal with the multiple 
barriers that many veterans face and must surmount in their quest to 
obtain and sustain meaningful employment at a living wage.
    There were several other efforts to assist returning Vietnam 
veterans, including the National Alliance of Business (NAB) initiative 
for veterans using a good deal of Federal money, which had mixed 
results at best in terms of actually placing veterans, particularly 
disabled veterans and veterans with barriers to employment into jobs.
Creation of the DASVE Position at Labor
    In 1976, Congress statutorily created the position of Deputy 
Assistant Secretary of Labor for Veterans Employment, in an effort to 
try and bring some cohesion and accountability to an employment service 
system that was clearly not working for veterans. Similarly, the 
Comprehensive Employment & Training Act (CETA) was problematic in 
regard to any of the funds going to programs to assist veterans. CETA 
had succeeded the Manpower Development Training Act (MDTA), which in 
turn had succeeded the Office of Employment Opportunity (OEO). These 
entities were created to make available cognitive and skill training 
funds, as well as funds for paying participants while they were being 
trained in public service jobs. An additional goal of these programs 
was to circumvent what was perceived as sexist and racist bias in some 
of the state employment service agencies. However, these entities in 
many states were not any more open to meeting the needs of Vietnam 
veterans than the employment services. In response, the Congress 
enacted what was known as Title II-D of CETA that could only be used 
for Vietnam veterans. Many states and sub-state entities returned these 
funds unused rather than let them be utilized for the intended use of 
assisting younger veterans with problems to surmount their difficulties 
and secure decent jobs with a future.
    (The CETA system itself was replaced by the Job Training 
Partnership Act (JTPA) in 1982. Despite efforts by the veterans' 
service organizations, the author, who was then Senator Dan Quayle, 
refused to include any special provision for veterans.)
Creation of the DVOP Program
    As the problems remained with the employment service agencies 
themselves, the Disabled Veteran Outreach Program (DVOP) was created in 
1977 by administrative/Executive action, and was later enacted into law 
in 1979. The program was created largely as ``political cover'' for 
other actions then President Carter wanted to take, but also it was in 
response to the state employment services (now called workforce 
development agencies) testifying to Senator Cranston's Committee that 
they were not placing many Vietnam or disabled veterans because they 
``could not find them.''
    In 1981 the Employment & Training Administration (ETA) at the 
Department of Labor was still ignoring the problems of veterans in 
securing proper services and job referral and placement in many states, 
despite there now being a Deputy Assistant Secretary of Labor who was 
supposed to be able to focus attention of ETA and the U.S. Employment 
Service on the needs of veterans. Therefore, Senator Strom Thurmond, 
with the close cooperation of the Honorable G.V. ``Sonny'' Montgomery 
took steps to secure an additional modification in the law that created 
the post of Assistant Secretary of Labor for Veterans Employment & 
Training. It also established the Veterans Employment & Training 
Service (VETS) as an entity that is separate from the Employment & 
Training Administration. Theoretically, the Assistant Secretary for 
VETS and the Assistant Secretary for ETA are equals. The reality, 
particularly in the wake of WIA wiping out the legal requirement on the 
states for ``priority of service'' to veterans, and the fact that ETA 
has many Billions in comparison to the millions that VETS is allocated, 
and the dismantling of many of the accountability mechanisms that had 
existed prior to WIA and the advent of the One Stops all have 
contributed to the diminishment of the ASVET and the ascendancy of the 
Assistant Secretary for Employment & Training.
    Enhancements and additional provisions were added to Chapter 41 of 
Title 38, United States Code almost every year during the eighties and 
nineties to try and get the State employment services to consistently, 
in each state, accord proper treatment and services to veterans, 
particularly disabled veterans.
NVTI
    The most important of these enhancements was the creation and 
funding of the National Veterans Employment & Training Institute 
(NVTI), currently operated by the University of Colorado at Denver. The 
VSOs had been pushing hard for this move, as there was little or no 
substantive training for DVOPs, LVERs, and others within the system, 
and no place to get such quality training that would improve 
performance. Creation of NVTI and its utilization had more positive 
impact than any other step taken during this period. NVTI training 
remains first rate, and for those who use it, the NVTI Resource Center 
is just extraordinary.
Passage of WIA
    In 1998 the Congress passed the Workforce Investment Act (WIA) that 
replaced the JTPA as well as most of the Wagner-Peyser Act. WIA was 
designed to promote, if indeed not force, the creation of the ``One 
Stop Centers'' at the service delivery level where all of the workforce 
development funds and programs, both public and some private, could be 
found at one central location. Much of the thought and philosophy that 
drove the various provisions of WIA came directly from GAO reports that 
were principally the work of Mr. Sigurd R. Nilsen, who was also the 
leader of the team that performed the work on report, GAO-06-176, 
``Veterans' Employment and Training Service: Labor Actions Needed to 
Improve Accountability and Help States Implement Reforms to Veterans' 
Employment Services.'' (December 30, 2005)
    The primary idea behind the One Stop centers that Mr. Nilsen has 
been promoting for almost 20 years is that if we just eliminate all of 
the fetters regarding ``special programs'' we will eliminate 
duplicative services, and be able to have more than enough resources to 
provide better services to all sub-sets of the population. VVA doubts 
that this is the case in general, and we are absolutely certain, based 
on much hard evidence, that it certainly is not true for veterans, 
particularly disabled veterans and other veterans with who require 
significant assistance. VVA notes that despite the best efforts of the 
late Senator Strom Thurmond, the amendment he attempted to insert into 
the WIA bill that would have preserved ``priority of service'' for 
veterans, and which contained at least some provisions that would 
promote accountability, was brushed aside in the rush to eliminate all 
fetters. With Senator Thurmond's help, we were able to fend off efforts 
to lift all restrictions in how LVERs and DVOPs could be used by the 
states.
    By 1998 it was clear that ``prescriptive'' and ``proscriptive'' 
solutions would simply not work, for all of the reasons noted above. An 
extraordinary series of roundtables and semi-formal sessions were held 
on the other side of the Hill, but with at least some staff 
participation from this Committee, with all stake holders to try and 
achieve a results based model that would focus on outcomes, and not on 
activities that may or may not help a veteran get or keep a job. That 
legislation would have rewarded real performance with additional funds, 
but it was ultimately stymied in September of 2000 by the inappropriate 
lobbying activities of the then Assistant Secretary of Labor for 
Veterans Employment and Training. His activities were so beyond the 
pale that a strong bipartisan demand was sent to then Secretary of 
Labor Alexis Herman demanding that he be fired.
    I have attached a copy of the final legislative proposal (H.R. 
4765) as an appendix to this statement, as much of that bill is worth 
re-visiting if we are ever to have a viable system for assisting 
veterans, particularly disabled veterans, with employment at the 
Department of Labor.
    As VVA testified regarding HR 4765 at the time (2000):

    The DVOP and LVER programs operate at the state level through 
federal grants from VETS. For far too long, VVA has observed a 
significant disparity in the levels of performance between the varying 
states. Some states, such as South Carolina, do a great job. Others do 
not perform as well, and some might appear not to care whether they do 
a good job or not.
    VVA believes that a system of rewards and sanctions is necessary to 
ensure that all states effectively and appropriately use these federal 
grants, and that the DVOP and LVER programs achieve maximum results.
    Section 3 requires a performance accountability system to be 
implemented by September 30, 2001, to ``measure the performance of the 
States, political subdivisions of States, regions, and individuals 
providing veterans' employment and training services.'' This system 
will be implemented in a fair manner, and will take into account such 
factors as the prevailing economic conditions in a state, and will use 
a ``weighted'' job placement system that gives credit to DVOPs and 
LVERs for placing severely disabled veterans into jobs, as well as 
other veterans with significant barriers to employment. VVA looks 
forward to the Demonstration Program, effective October 1, 2001 that 
will develop and implement this system.
    Inherent in this ``demonstration program'' is a system of rewards 
and punishment. Each state shall submit a five-year strategic plan to 
the Secretary of Labor, defining how they intend to render services to 
veterans. Each state will be subject to an annual review by DOL. We 
firmly believe that the Annual Incentive Grants will be a necessary 
component of the demonstration program. These grants will be 
administered based on a state's performance. States that meet minimal 
performance standards are guaranteed to receive 100% of the annual base 
DVOP/LVER funding. The incentive grants will be reserved for those 
states that perform above and beyond the minimum standards.
    Section 3 also provides for a limited number of pilot programs for 
states to contract out veterans employment services for a specified 
``labor market area.'' Applicants will be solicited through a 
competitive process, and all entities awarded such contracts will be 
held to the same performance and results related measures and 
incentives as the states. VVA eagerly awaits the implementation of this 
competitive process, as well as the entire Demonstration Program. In 
some instances, it is the community-based organizations that can most 
effectively and efficiently deliver effective assistance to veterans 
most in need. Furthermore, VVA applauds section 3 for mandating that a 
State must hold administrative overhead costs to 20 percent.
Jobs for Veterans Act
    The Jobs for Veterans Act was passed in response to problems with 
properly serving returning servicemembers, and in response to the call 
of VSOs to take steps to restore ``priority of service,'' but to do so 
to ALL programs funded by or through the Department of Labor, 
reflecting a much changed reality from the situation in 1933. To some 
degree, the model was the ``Veterans Bill of Rights for Employment 
Services'' which was propagated as an Executive Order in 1988 in New 
York, and subsequently codified as Chapter 554 of New York State law. 
The problem with both the JVA and the New York law is that there are no 
sanctions for ignoring the law. Frankly, money needs to go to those 
doing a good job, and less to those who do not do a good job.
    Please let me note that I cannot emphasize too much that nothing in 
this statement should be taken as a criticism of DVOPs and LVERs. Some 
of the finest and most dedicated veterans' advocates (and finest 
people, period) I have ever had the pleasure and honor of knowing are 
DVOPs or LVERs. These folks are eclectic, as any large group would be, 
and some are more skilled and effective than others. However, as a 
group, I am always impressed by these fine Americans who do often do 
great work, no matter what they have to do to accomplish the mission, 
and no matter how much they may be punished for trying to do their job 
correctly, and despite how poorly they are paid in some states.
    Just as there are many individual veteran staff who are doing a 
great job, there are some states, like South Carolina, North Carolina, 
South Dakota, North Dakota, and others who have always done a great job 
for veterans because it is ingrained in their corporate culture by 
consistently having fine state leadership that is committed to veterans 
over a long period of time. There are also individual office managers 
who fully support services to veterans, and who go out of their way to 
support the DVOPs and LVERs in their area, as well as using other 
resources to help get the job done.
    GAO Report 06-176 had some severe methoDOLogical faults, and 
therefore draws conclusions based on suspect information. VVA points 
out that GAO sent out questionnaires to the DVETS and to the 
Administrators of each of the Workforce Development Agencies, after 
verifying the instrument. However, they made no attempt to verify any 
of the information provided. Therefore, their conclusion that the JVA 
had generally improved services to veterans by the end of 2005 is based 
on nothing that could be considered rational, substantiated data. 
Frankly, much of the so-called ``data'' was merely self justificatory 
comments. This was, and still is, just silliness.
    Similarly, the 2006 GAO report notes that a veteran can receive 
services from a non-DVOP or non-LVER if they are considered job ready. 
VVA agrees that this should be the case, given that ``priority of 
service'' has been re-established as the law. However, there are so few 
what is called ``Wagner-Peyser'' staff left out there, in many 
instances all veterans are sent to the veteran's staff.
    The system is actually even more ``broken'' today than it was 
before the passage of the Jobs for Veterans Act in 2002, with even more 
financial and operational problems. It is still not performance and 
results oriented in any meaningful way, nor is it meeting the needs of 
veterans in need of the services it ostensibly provides. The current 
measure of ``placements'' is intellectually dishonest, and a 
preposterous example of the ``post hoc, ergo proper hoc'' logical 
fallacy. Service disabled veterans, particularly those coming home from 
today's wars, and veterans with significant barriers to employment are 
even more short-changed today than they were in 2002. VVA urges you to 
take corrective action now to save the good, but to un-do the damage 
done by JVA, particularly eliminate part-time positions for DVOPs and 
sharply limit the number of half-time LVERs. Frankly, if the equivalent 
of one day a week is actually spent strictly on veterans by these part-
timers in some offices it is a lot. Further, the power of the DVETs and 
their budgets (especially for travel to service delivery sites) need to 
be restored to the equivalent FTEE level and an amount for travel today 
that would be equivalent to FY2000.
    Part of the issue of the failure of the JVA can be laid squarely at 
the foot of the current leadership of DOL. The Secretary of Labor put 
the Assistant Secretary of Labor for ETA in charge of implementing the 
Jobs for Veterans Act. Given the history of ETA, it should come as no 
surprise that they are continuing to be derelict in regard to 
promulgation of regulations implementing the all aspects of the law, 
particularly the sections having to do with increased accountability. 
Because the local entities under the WIA set up are primarily 
controlled by former JTPA entities, who never had any ``priority of 
service'' in their programs before, it is the view of VVA that without 
regulations there is not even a chance of proper and accountable 
implementation.
Challenges? Accountability Provisions Are Not Implemented
    Similarly, the December, 2005 report notes in very large type, 
``Most JVA Provisions Have Been Carried Out, but not without some 
Challenges.'' In fact, ETA and U.S. DOL only implemented the aspects of 
JVA that reduce oversight and provide greater ``flexibility'' (e.g., 
only one on site inspection every five years, new and more general job 
duties for veterans staff. Some would maintain that this is license to 
break the law, and not ``flexibility.'')), while NONE of the provisions 
that accord veterans ``priority of service,'' improve states 
accountability for increasing veterans' employment in their state, or 
even having a plan to make a plan as to how to gather data to monitor 
what is happening to veterans in a given state. The report does note 
that 21 states did not have ANY data available more than three years 
after enactment of JVA, but considers that one of the ``some 
challenges'' remaining.
    In fact the Department of Labor has moved on all of the provisions 
that the Workforce Development Agencies wanted, and none of those that 
those entities did not want in the JVA (but that the VSOs argued hard 
to include). This should perhaps not be surprising, as there was 
extensive contact between the Assistant Secretary for ETA and the 
representatives of those agencies and virtually no contact with the 
veterans' service organizations.
``Disabled Veterans Employment: Additional Planning, Monitoring, and 
        Data Collection Efforts Would Improve Assistance'' Report: GAO-
        07-1020
    The report noted above, issued in September 2007 by the General 
Accountability Office (GAO), focuses on coordination of services 
between the Vocational Rehabilitation Service at the Department of 
Veterans Affairs (VA) and the Veterans Employment & Training Service 
(VETS) at Department of Labor regarding the delivery of services to 
disabled veterans. What the GAO found was that the Memorandum of 
Agreement (MOA) between DOL and VA, as vague as it is, was not even 
being implemented in full. The GAO recommended that a comprehensive, 
and specific, plan be developed that has long term, as well as short 
term goals, and benchmarks at every point along the way. There are 
other recommendations of this GAO report that are well thought out and 
that VVA would generally endorse.
    The most glaring omission in the recent GAO report is that there is 
no discussion that VETS has very little impact on the behavior of the 
staff of the state workforce development agency beyond moral suasion 
and the individual commitment of state officials who run those state 
agencies and the local one-stop centers.
    Further, letting VA now start to use the same specious system of 
measuring success by checking wage unemployment insurance data files 
against their participant files is further compounding a terrible 
problem of dishonesty that Labor is propagating by involving VA in 
their shenanigans. The current measure of comparing the VETS data base 
to the reports of wage UI data only measures the individual ingenuity 
of veterans and the general unemployment vs. employment climate of a 
given area, not the performance of state workforce development agency 
staff, whether DVOP, LVER, or other staff to assist people in securing 
employment.
What Is Needed Now
    First and foremost, we need a true national strategy to deal 
properly with the returning service members. The Employer's Committee, 
which was touted as the President's plan, was simply inadequate in 
concept. It is time for a National Veterans Employment Conference, to 
assemble the key players and produce a plan that is funded and backed 
by the Administration as well as this body. (The last truly national 
veterans' employment conference was held in Buffalo, New York in May, 
1991.)
    Further, what is needed today is a system that focuses on placement 
(real placements, not the dishonest nonsense that Labor is currently 
using) of the highest priority veterans, who are special disabled 
veterans (especially catastrophically disabled veterans), recently 
separated veterans and recently de-mobilized members of the National 
Guard and Reserve, and on veterans who are homeless or ``at risk.''
    We must move to a system that has additional monetary rewards for 
placements and strong measurable results for veterans, particularly 
disabled veterans, as opposed to just putting out the same amount of 
funds whether a state does a good job or a poor job. The entire system 
be placed on a system of money rewards following performance
    We must get away from the notion that this is a ``cheap'' process, 
and focus on quality placements for those most in need. The veterans' 
staff members need to be unleashed from the yoke of the local office 
managers who in some cases hold them back. As with their agency, they 
too must be held accountable for measurable performance. The state work 
force development agencies at the state and local level should have 
first bid on the funds available, but if the performance is not there 
then state Directors for U.S. DOL, VETS should be free to contract with 
other public or private entities that will get the job done.
    VVA encourages you to follow up on the GAO Report 05-167, which was 
requested by Lane Evans, and which found two years ago that there was 
inadequate coordination between DOD and VA in regard to all aspects of 
care for seriously disabled returning veterans, but particularly with 
regard to VA Vocational Rehabilitation. The third player in that mix is 
clearly the VETS, and it would be fruitful for the Committee to 
discover whether all of the recommendations of that report have 
implemented, and how that coordination affects the VA/DOL relationship. 
VVA would suggest that the Committee take steps to verify any quick 
answers you receive from DOD or VA regarding these recommendations.
    The ASVET has a great concept in the ``Disabled Veteran Lifeline 
Program.'' The concept is so good that it is worth doing right by 
authorizing legislation and proper appropriations to fund at least two 
placement/vocational counselors at every military hospital (perhaps 
more at Walter Reed Army Medical Center, Brooke Army Hospital, and 
other facilities with large census of returning wounded veterans.) This 
program needs to be done right, with Federal staff or contract so that 
there is clear accountability and quality control. As we are speaking 
of 50 to 60 FTEE, and the payoff is so potentially great, this is a 
very inexpensive program.
    We must insist on real collaboration and cooperation between DOL-
VETS and VA, to include both VA Voc Rehab and the Readjustment 
Counseling Service (VET Centers) at both the national as well as the 
state/local level. This written comprehensive plan of action, as 
recommended by GAO, must be specific, be able to be measured, and have 
a mechanism for managers to be held accountable for actual improvements 
in performance.
    Further, there must be all out resistance and rejection of the ill-
conceived and cynical ``WIA-Plus'' efforts that surfaced in the last 
Congress to use veteran program DOLlars for other purposes.
    If the states were going to pay attention to the special needs of 
veterans without continuous careful monitoring and tightly written 
veteran specific grants, with repercussions for non-compliance, then 
they would have already done it. (Most states have not.)
    The VETS must be restored to the staffing (FTEE) level of at least 
FY 2000, and their travel budget increased so that every service 
delivery point can be visited with an on-site visit at least once per 
year.
    Additionally, we need additional employer incentives similar to the 
veterans' job training act of the early eighties and the successor 
SMOCTA program that worked so well as a marketing tool for DVOPs and 
LVERs in the period 1988 to roughly 1991.
    As was pointed out last week, there is a significant need for 
statute changes to provide further latitude in the Montgomery GI Bill 
that will allow more focus on vocational and apprentice training as 
well as entrepreneurial training in the formats that adults learn 
today.
    And most importantly, there simply must be a viable national 
strategy developed to deal with the returning servicemembers from the 
Global War on Terrorism.
    More than one and a half million service members have already 
rotated through Iraq alone, many of them two or three times. If the 
Administration will not move to fashion such a results oriented plan, 
then we call on you, Madame Chairwoman, and your colleagues on both 
sides of the aisle and both sides of Capitol Hill, to reach out and 
call a convocation of public and private entities to put together a 
real action plan to make a difference, as was done after World War II.
    I have here two books that describe what was done at the local 
level in the majority of American cities that fashioned such results 
focused efforts after that war, and made a positive difference in the 
lives of the majority of veterans returning home. One is The New 
Veteran, by Charles G. Bolte 1945, Reynal & Hitchcock, New York; and, 
the other one is The Veteran Comes Back, by Willard Waller, 1944, The 
Dryden Press, New York. These books describe a community model that was 
implemented in the majority of big cities as well as small cities and 
large towns by the end 1945, modeled on what was apparently first done 
in Bridgeport, Connecticut.
    Perhaps what is needed is a ``back to the future'' scenario where 
Veterans one-stop centers are established across the country, with 
community resources, private resources, and state resources as well as 
Federal resources focused on the employment needs and elimination of 
barriers to meaningful employment that each veteran may have.
    We must think anew, and then act swiftly, in order not to fail the 
brave young men and women defending us in military service today, and 
those who are still recuperating from their wounds who are already 
home.
    Madame Chairwoman, on behalf of all of us at VVA, I thank you and 
your distinguished colleagues for the opportunity to present our views 
here today. We would be pleased to answer any questions.
                               __________
                                Appendix
[GRAPHIC] [TIFF OMITTED] 39467A.101

[GRAPHIC] [TIFF OMITTED] 39467A.102

[GRAPHIC] [TIFF OMITTED] 39467A.103

[GRAPHIC] [TIFF OMITTED] 39467A.104

[GRAPHIC] [TIFF OMITTED] 39467A.105

[GRAPHIC] [TIFF OMITTED] 39467A.106

[GRAPHIC] [TIFF OMITTED] 39467A.107

[GRAPHIC] [TIFF OMITTED] 39467A.108

[GRAPHIC] [TIFF OMITTED] 39467A.109

[GRAPHIC] [TIFF OMITTED] 39467A.110

[GRAPHIC] [TIFF OMITTED] 39467A.111

[GRAPHIC] [TIFF OMITTED] 39467A.112

[GRAPHIC] [TIFF OMITTED] 39467A.113

[GRAPHIC] [TIFF OMITTED] 39467A.114

[GRAPHIC] [TIFF OMITTED] 39467A.115

[GRAPHIC] [TIFF OMITTED] 39467A.116

[GRAPHIC] [TIFF OMITTED] 39467A.117

[GRAPHIC] [TIFF OMITTED] 39467A.118

[GRAPHIC] [TIFF OMITTED] 39467A.119

[GRAPHIC] [TIFF OMITTED] 39467A.120

[GRAPHIC] [TIFF OMITTED] 39467A.121

[GRAPHIC] [TIFF OMITTED] 39467A.122

[GRAPHIC] [TIFF OMITTED] 39467A.123

[GRAPHIC] [TIFF OMITTED] 39467A.124

[GRAPHIC] [TIFF OMITTED] 39467A.125

[GRAPHIC] [TIFF OMITTED] 39467A.126

[GRAPHIC] [TIFF OMITTED] 39467A.127

[GRAPHIC] [TIFF OMITTED] 39467A.128

[GRAPHIC] [TIFF OMITTED] 39467A.129

[GRAPHIC] [TIFF OMITTED] 39467A.130

[GRAPHIC] [TIFF OMITTED] 39467A.131

[GRAPHIC] [TIFF OMITTED] 39467A.132

[GRAPHIC] [TIFF OMITTED] 39467A.133

[GRAPHIC] [TIFF OMITTED] 39467A.134

[GRAPHIC] [TIFF OMITTED] 39467A.135

[GRAPHIC] [TIFF OMITTED] 39467A.136

[GRAPHIC] [TIFF OMITTED] 39467A.137

[GRAPHIC] [TIFF OMITTED] 39467A.138

[GRAPHIC] [TIFF OMITTED] 39467A.139

[GRAPHIC] [TIFF OMITTED] 39467A.140

[GRAPHIC] [TIFF OMITTED] 39467A.141

                                 <F-dash>
           Prepared Statement of Hon. Charles S. Ciccolella,
       Assistant Secretary for Veterans' Employment and Training,
                        U.S. Department of Labor
    Madam Chairwoman and Members of the Subcommittee:
    I appreciate the opportunity to appear before you today to talk 
about veteran employment grant programs of the Department of Labor's 
Veterans' Employment and Training Service (VETS). The Department is 
grateful for the interest of the Committee on these very important 
issues for veterans, especially for those veterans returning from the 
Global War on Terror who are interested in returning to a productive 
career.
    VETS' mission is to provide veterans and transitioning 
servicemembers with the resources and services to succeed in the 21st 
Century Workforce by maximizing their employment opportunities, 
protecting their employment rights and meeting labor market demands 
with qualified veterans. Our charter is a direct reflection of the 
nation's commitment to meet the employment, training and job security 
needs of those who serve in military uniform.
    The enactment of the Jobs for Veterans Act (JVA), P.L. 107-288, in 
November 2002 has resulted in significant improvements in the provision 
of employment services to veterans and is showing a positive impact on 
the employment outcomes of veterans. We are completing the fourth year 
of implementing the law, and we have seen major improvements. My 
testimony today will describe some of those accomplishments.
    Overall, the JVA has provided opportunities to maximize the 
flexibility of the states to provide employment assistance to veterans, 
while simultaneously requiring states to be more accountable for 
performance outcomes. The JVA redefined the roles of the Disabled 
Veterans' Outreach Program (DVOP) and Local Veterans' Employment 
Representative (LVER) staff and redefined the federal-state 
relationship as a partnership. Under the JVA, states are required to 
submit grant applications to VETS for DVOP/LVER funding, which VETS 
allocates to states in proportion to the number of veterans seeking 
employment in a state. These grant allocations also take into account 
the workload the states assume through the Transition Assistance 
Program (TAP) employment workshops.
    Since much of the interface with the Department of Veterans 
Affairs' (VA) Vocational Rehabilitation and Employment (VR&E) service 
is through the workforce investment system, at this point I would like 
to briefly discuss that relationship. VR&E and VETS continue to work in 
partnership, along with State Workforce Agencies (SWAs), on behalf of 
VR&E job ready veterans who are referred to and registered with the 
State Workforce Agencies for intensive employment services.
    Our partnership to increase the employment opportunities and 
placement in suitable employment of service-disabled Chapter 31 
veterans is defined in a formal Memorandum of Agreement (MOA), and the 
results continue to improve. That positive working relationship has 
also carried over into other initiatives and strengthened cooperation 
and coordination with VETS' state partners.
    The JVA has provided the states with greater flexibility to adapt 
their programs to the unique needs of local areas where veterans need 
jobs and employers are seeking capable applicants in exchange for 
improved accountability. Our outcome data, which includes the Entered 
Employment Rate and the Employment Retention Rate, indicates that we 
are making progress in helping veterans secure employment.
    During Program Year (PY) 2003, which ended on June 30, 2004 and 
encompassed the first year of implementation, the Entered Employment 
Rate was 57% for veterans and 53% for disabled veterans. At the end of 
PY 2005, outcomes for veterans and disabled veterans showed an increase 
in each category--to 61% for veterans and to 56% for disabled veterans, 
and, for the quarter ending March 2007, the Entered Employment Rate for 
veterans was 60% and 56% for disabled veterans. The Employment 
Retention Rate for PY 2003 was 79% for veterans and 77% for disabled 
veterans. Two years later, at the end of PY 2005, the retention rate 
for veterans increased one percentage point. For the quarter ending 
March 2007, their retention rates were 79% and 78%, respectively. This 
comparison of outcome data demonstrates the JVA is having a positive 
impact, and we hope to see more improvement in the future.
    Since implementing the JVA we have:

    <bullet>  Issued specific guidance to states redefining the 
responsibilities of the DVOP specialists and LVER staff;
    <bullet>  Developed training programs that support the JVA by:
      <bullet>  Addressing the new provisions of the law;
      <bullet>  Incorporating the changes in DVOP and LVER 
responsibilities;
      <bullet>  Emphasizing the integration of DVOP specialists and 
LVER staff in One-Stop Career Centers to carry out the JVA requirement 
that services be integrated with the state employment service delivery 
system; and
      <bullet>  Disseminating a framework to apply veterans' priority 
of service to programs funded by DOL.
    <bullet>  Trained 11,935 participants (including state, federal and 
Veterans Service Organization staff) in 363 classes held between 
November 2002 and September 2007;
    <bullet>  Published regulations implementing the JVA-required state 
grant funding formula and applied this new methodology to calculate 
state grant allocations for FY 2004, FY 2005, FY 2006, and FY 2007 and 
to estimate those allocations for FY 2008.
    <bullet>  Adopted new outcome-based performance measures.

    I will now discuss actions we have taken in conjunction with the 
implementation of the JVA and recommendations made by the Government 
Accountability Office (GAO) concerning performance reporting.
DVOP and LVER responsibilities
    The JVA redefined the roles of the DVOP specialist and LVER 
allowing for a more general and flexible application. Both positions 
can now be appointed by the state on a half-time or full-time basis as 
the state determines appropriate. The DVOP specialist is primarily 
responsible for providing intensive, one-on-one services to the 
individual veteran with priority placed on the disabled veteran. The 
LVER's emphasis is on providing employment assistance to the veteran, 
as well as the bigger picture of facilitating employment, training, and 
placement services to veterans throughout the workforce system. The 
LVER also assists in reporting on the character of services provided to 
veterans and state workforce agencies' compliance with laws, 
regulations and policies regarding services to veterans. We implemented 
these initiatives with the full participation of our stakeholder 
groups, including National Association of State Workforce Agencies, 
state workforce agency management staff, state veterans program 
managers, DVOP specialists, and LVER staff.
Training
    To implement the JVA, we instructed the National Veterans Training 
Institute (NVTI) to conduct initial orientation sessions for all 
states, to redesign the employment specialist training courses and to 
provide readily available information online, 24 hours a day. These 
sessions were attended by DVOPs, LVERs, local office managers, and 
other state workforce agency officials as well as VETS' staff and were 
hugely successful.
    The Veterans Services Orientation course was redesigned to provide 
an overview of the law and reflect the new roles and responsibilities 
of the LVER staff and DVOP specialists. The Case Management course was 
redesigned to focus on the provision of intensive services by DVOP 
specialists. A new course, Promoting Partnerships for Employment, was 
specifically built around the new roles and responsibilities of the 
LVER in the workforce system. This course focuses on applying labor 
market information, working closely with agency partners, learning to 
be the veterans' representative for office partnerships, informing 
other staff on the requirements under JVA, and developing a public 
relations plan.
    With the changes and new curriculum development, from November 2002 
to September 2007, NVTI has conducted 363 classes with a total of 
11,935 participants.
Funding criteria
    State grant allocations to fund DVOP and LVER staff are determined 
using a formula that is based on each state's relative share of the 
total number of veterans in the United States who are seeking 
employment. States indicate how veterans will receive priority of 
service within that state in both the state plan and the annual update 
to the state plan.
Monitoring
    As part of the JVA implementation, the Department and VETS 
implemented a comprehensive performance accountability system. During 
the year, states submit quarterly manager's reports on services to 
veterans that describe how well the state is achieving its performance 
goals, and how veterans' priority of service is observed with regard to 
intake, job referral, and other One-Stop Career Center activities. VETS 
State Directors also conduct assessments, which are focused on 
technical assistance and needed training, and reflect a stronger 
emphasis on the partnership between the state and VETS.
Performance measurement
    In order to measure the outcomes associated with veterans served by 
the One-Stop Career Center system, VETS identified two outcome 
measures:

    <bullet>  Entered Employment Rate;
    <bullet>  Employment Retention Rate.

    These two measures are applied to the outcomes achieved by all 
veterans and to the outcomes achieved by disabled veterans, producing a 
total of four measures for which performance targets are negotiated 
with each state workforce agency. The target levels negotiated for 
these four measures vary among the states but they provide the baseline 
by which federal and state partners develop strategies to improve 
employment outcomes for veterans.
    In addition to the negotiated performance targets, VETS also 
adopted the Entered Employment Rate and the Employment Retention Rate 
for veterans and disabled veterans as Departmental performance targets 
in the Department of Labor (DOL) Strategic Plan.
    To provide a further indicator of performance, VETS initiated a 
program of state Grant Based Performance Measures for outcomes 
associated with the services provided specifically by DVOP specialists 
and LVER. Since PY 2004, these measures have been negotiated with each 
state, and they incorporate numerous data elements directly related to 
the provision of services.
    The attachment to my testimony lists these performance measures. We 
recommend to states that they be used in developing DVOP and LVER 
performance plans.
GAO Review of the JVA Performance Measures
    GAO recommended that VETS consolidate all performance measures for 
the DVOP and LVER programs, including those for disabled and recently 
separated veterans. The current approach to grant-based measurement for 
the Jobs for Veterans State Grants separately assesses the outcomes 
experienced by disabled veterans who are served by DVOP specialists, 
and recently separated veterans who are served by LVER staff. DOL 
recognizes that this approach omits significant ``cross-program'' 
outcomes achieved by disabled veterans who are served by LVER staff, 
and recently separated veterans who are served by DVOP specialists, as 
documented by GAO.
    In implementing this recommendation, DOL will convene a working 
group composed of programmatic and measurement experts to thoroughly 
consider the implications of realigning the measurement of grant-based 
outcomes on the basis of the combined activities of DVOP specialists 
and LVER staff. The group also will consider how to include ``Average 
Earnings'' as a measure of grant based performance, as suggested in the 
body of the GAO report.
    GAO also recommended that VETS implement a weighted system for the 
DVOP and LVER performance measures that takes into account the 
difficulty of serving veterans with barriers to employment. DOL 
previously exerted an intensive effort to develop a system for 
weighting grant-based outcomes and issued guidance intended to lead to 
application of weighted measurement. That guidance was suspended, in 
part because workforce professionals in the field found application of 
the weighting to be unreasonably complex, and in part because the 
current reporting system offers limited options to support the 
implementation of weighted measurement.
    However, the DOL working group previously mentioned will study the 
issue of weighted performance measures and evaluate how the framework 
for grant-based performance measurement for PY 2008 can be realigned to 
assess outcomes achieved by veterans who are served by DVOP specialists 
and LVER staff. In addition to this, DOL's proposed Workforce 
Investment Streamlined Performance Reporting (WISPR) System is expected 
to be implemented in PY 2008. DOL is confident that the specificity of 
the results to be reported through WISPR, and the application of those 
results in light of the lessons learned from prior experiences, will 
prove helpful to DOL's efforts to successfully implement weighted 
measurement.
PART
    During 2005, the DVOP/LVER program was evaluated using the Office 
of Management and Budget's Program Assessment Rating Tool (PART). The 
program was rated as moderately effective, the second highest ranking. 
I believe that the PART review has provided us with information that we 
can use to improve program performance, both at the national level and 
at the grass-roots level where veterans are served.
    Madam Chairwoman, the Department of Labor takes very seriously the 
mandate of the Jobs for Veterans Act and believes we have made major 
accomplishments in its implementation. I assure you we will work 
diligently to address, and where appropriate, take corrective action to 
fulfill this Congressional mandate.
Veterans Workforce Investment Program
    VWIP grants support efforts to ensure veterans' lifelong learning 
and skills development in programs designed to serve the most-at-risk 
veterans, especially those with service-connected disabilities, those 
with significant barriers to employment, veterans who served on active 
duty in the armed forces during a war or in a campaign or expedition 
for which a campaign badge has been authorized, and recently separated 
veterans. The goal is to provide an effective mix of interventions, 
including training, retraining, licensing and certification, and 
support services that lead to long term, higher wage and career 
potential jobs.
    Services provided by grantees include customized case management 
services with employment-focused case management services coordinated 
with local DVOP specialists and LVER staff. The DVOP specialists and 
LVER staff act as a liaison to the VWIP grantees and connect veteran 
participants with DOL's nationwide network of One-Stop Career Centers. 
An important emphasis in this activity is on recently separated 
veterans in support of the Secretary's goal of a Competitive Workforce. 
VETS will continue to promote initiatives in high demand occupations 
such as healthcare, education, community services, construction, 
information technology, and other growth industries including trucking, 
security, oil and natural gas rigging, hotel management, and food 
preparation and services.
    The requested funding level for VWIP for FY 2008 is $7,351,000. We 
plan to serve 3,835 veterans through twelve competitively selected 
grantees. We estimate that this will result in 2,655 veterans entering 
employment for an entered employment rate of 69%, with a 90-day 
retention rate of 83% and a 180-day retention rate of 71%.
    As we testified at an earlier hearing, VETS intends to include, as 
part of the workforce investment activities funded by Veterans' 
Workforce Investment Program funds for Program Year 2008, the 
identification of barriers to licensure and certification for 
transitioning servicemembers, and we encourage potential grantees to 
apply for competitively awarded grants to address this issue.
Additional Actions Taken by VETS
    VETS has initiated a series of actions to provide enhanced services 
to veterans through DOL's Recovery and Employment Assistance Lifelines 
(REALifelines) Advisor \1\, the Uniformed Services Employment and 
Reemployment Rights Act (USERRA), and an expansion of the TAP 
Employment Workshops. VETS developed and implemented REALifelines, a 
program that provides person-to-person employment assistance for those 
returning veterans from the Global War on Terror who are wounded or 
injured.
---------------------------------------------------------------------------
    \1\ REALifelines helps wounded and injured servicemembers and 
veterans access valuable online resources and contact information for 
one-on-one employment assistance to help them transition into the 
civilian workforce.
---------------------------------------------------------------------------
    Additionally, VETS has improved the quality of services to veterans 
and reservists under the USERRA and Veterans' Preference through 
improved investigator training; expanded veteran and employer outreach 
efforts; publication of new, easy to understand, common sense USERRA 
regulations; and through improved quality control by establishing 
senior investigators at the regional offices.
    Finally, VETS has increased its capacity to provide the TAP 
Employment Workshops to 170,000 participants through the expansion of 
workshops at overseas locations and restructuring of the TAP Employment 
Workshops to emphasize the critical areas of resume preparation, 
interviewing techniques, and emphasis of the services available at the 
One-Stop Career Centers.
    The Subcommittee's hearing invitation letter posed several 
questions. Our response to those questions is attached as Attachment 2.
    As always, we stand ready to work with you and your staff. That 
concludes my statement and I would be happy to answer any questions.
                              Attachment 1
                       VETS' PERFORMANCE MEASURES
Public Labor Exchange Outcome Measures
    <bullet>  Entered Employment Rate--All Veterans
    <bullet>  Employment Retention Rate--All Veterans
    <bullet>  Entered Employment Rate--Disabled Veterans
    <bullet>  Employment Retention Rate--Disabled Veterans
Grant Based Outcome Measures
    DVOP Performance Elements

    <bullet>  All Veterans
      1.  Entered Employment Rate Following Staff-Assisted Services
      2.  Employment Retention Rate

    <bullet>  Disabled Veterans
      3.  Entered Employment Rate Following Staff-Assisted Services
      4.  Employment Retention Rate

    LVER Performance Elements

    <bullet>  All Veterans
      5.  Entered Employment Rate Following Staff-Assisted Services
      6.  Employment Retention Rate

    <bullet>  Recently Separated Veterans
      7.  Entered Employment Rate Following Staff-Assisted Services
      8.  Employment Retention Rate
                              Attachment 2
               RESPONSES TO THE SUBCOMMITTEE'S QUESTIONS
    <bullet>  How does your agency ensure proper implementation of the 
DVOP/LVER programs?

       Response: The JVA required that DOL establish a comprehensive 
performance accountability system. This has been established with the 
following components:

        a.  Five year state plan with annual modifications: This plan, 
devised by each state and reviewed and approved by the DOL, established 
targets for entered employment and retained employment for all veterans 
and disabled veterans.
        b.  Quarterly reporting by the states: Both a Managers Report 
from each One-Stop Career Center and a Technical Report at the state 
level is submitted. In addition, each state reports through the Labor 
Employment Reporting System their performance in entered employment and 
retained employment.
        c.  State assessment tool: The states provide an assessment of 
50% of their One-Stop Career Centers on an annual basis. The DOL State 
Director then conducts a validation of 20% of those submissions.

    <bullet>  Have any states lost their funding for failing to meet 
their obligations? Under what circumstances would a state lose its 
funding?

       Response: States have not lost their Jobs for Veterans State 
Grants as a result of failing to meet performance goals. VETS believes 
that it employs the tools necessary to achieve the desired results. 
These tools include:

        a.  Placing a temporary hold on quarterly allocations motivates 
non-reporting states to take steps to ensure timely reporting.
        b.  When a state is identified as a high-risk grantee, VETS' 
field staff provides technical assistance in the form of coaching, 
collaboration and encouraging state-to-state networking to help the 
state remedy any deficiencies.
        c.  We have also found that one of the best incentives is 
disclosure. Publicizing performance improvements by posting the results 
states have attained provides an incentive to sustained performance as 
well as a competitive challenge to other States to bring up their 
levels of performance.
        d.  Corrective Action Plans are employed as necessary to 
address performance and other deficiencies within a state. By 
accompanying Corrective Action Plans with the delivery of technical 
assistance, VETS assures that state grantees are given every 
opportunity to succeed and that employment services for veterans are 
maintained at the highest possible level.

    <bullet>  Are part-timer DVOP/LVER meeting the needs of rural and 
urban area veterans?

       Response: Many rural areas have a half- or full-time DVOP 
specialist or LVER staff person who provides services to their local 
veterans. In those instances where the state determines there are not 
enough veteran clients to justify a part time DVOP specialist or LVER 
staff person, priority services are provided to veterans by Wagner-
Peyser or other One-Stop Career Center staff.
       Many One-Stop services are available to veterans via the 
Internet. The CareerOneStop portal (www.CareerOneStop.org) provides an 
array of services electronically, including:

      <bullet>  America's Service Locator (www.servicelocator.org) 
provides local office information on more than 22,000 local locations, 
including 3,500 One Stop Career Centers;
      <bullet>  America's Career InfoNet (www.acinet.org) provides 
information on occupations, training required for those occupations, 
and financial assistance available; and
      <bullet>  Career Voyages (www.CareerVoyages.gov), a career 
information tool providing in depth information on high growth 
occupations.

       Many states have utilized Workforce Investment Act and Wagner-
Peyser funds to supplement these nationally-funded electronic tools.
       Veterans and transitioning military personnel can call 1-877-US-
2JOBS or TTY: 1-877-899-5627 toll-free to locate the nearest One-Stop 
Career Center.
       Many One-Stop Career Centers provide services over the 
telephone.

    <bullet>  How does your agency track its performance measures?

       Response: VETS tracks the performance measures described through 
the use of the Department of Labor's Labor Exchange Reporting System. 
This is a reporting system for those programs administered under the 
Wagner-Peyser Act and the JVSG. State agencies report the employment 
outcomes and services provided to job seekers.

    <bullet>  Can you provide the Subcommittee a status of actions 
taken, in addition to those mentioned in GAO Report 07-594?

       Response: VETS has initiated a series of actions to provide 
enhanced services to veterans.

        a.  Initiated REALifelines, a program that provides person-to-
person employment assistance for those returning veterans from the 
Global War on Terror who are wounded or injured.
        b.  Increased capacity to provide the Transition Assistance 
Program Employment Workshops to 170,000 participants, expanded 
workshops at overseas locations, and restructured the TAP Employment 
Workshops to emphasize the critical areas of resume preparation, 
interviewing techniques, and emphasis of the services available at the 
One-Stop Career Centers.
        c.  Established, in conjunction with VA, three working groups 
under the MOA. The goal of each work group is to improve the quality of 
employment services and suitable job placements for veterans with 
disabilities enrolled in the VR&E program. Each work group has an 
established list of roles and responsibilities directing their efforts.
        d.  Improved quality of services to veterans and Reservists 
under the Uniformed Services Employment and Reemployment Rights Act 
(USERRA) and Veteran's Preference through more and better investigator 
training, expanded veteran and employer outreach efforts, publication 
of new, easy to understand, common sense USERRA regulations, and 
improved quality control through establishing senior investigators at 
the regional offices.

                                 <F-dash>
                 Statement of Larry Temple, President,
           National Association of State Workforce Agencies,
           and Executive Director, Texas Workforce Commission
    NASWA welcomes the opportunity to submit testimony regarding 
performance of employment and training services for veterans. Our 
underlying goals for veterans' services at NASWA are to work to improve 
program performance by: building on our partnership with USDOL-VETS; 
improving the productivity of state's DVOP and LVER staff; promoting 
flexible service delivery options for states; and seeking 
appropriations needed to serve veterans from ongoing conflicts. We 
respectfully submit the following statement regarding services for this 
most deserving population.

                         Summary of NASWA Views

NASWA and USDOL-VETS Partnership
    <bullet>  NASWA and USDOL-VETS continue a strong partnership to 
improve service for veterans and most recently collaborated on an 
annual conference focused on service for veterans. NASWA and the 
National Governors' Association (NGA) are honored to serve as members 
of the Advisory Committee on Veterans Employment, Training, and 
Employer Outreach working with USDOL-VETS on improving services.
Performance in Serving Veterans
    <bullet>  Established performance standards for veterans' 
employment services have been met and continue to improve. NASWA 
supports highly productive DVOP and LVER staff and the training they 
receive at National Veterans Training Institute.
Part-Time DVOPs and LVERs Work for Veterans
    <bullet>  The ability to hire or assign part-time DVOPs (per P.L. 
107-288) has greatly benefited veterans by allowing states to stretch 
their limited budgets to more offices, covering larger areas and 
ultimately serving more veterans. The authority to hire half-time DVOPs 
or LVERs is especially important in serving veterans in small 
population, large geographical states.
Appropriations for VETS' Programs Should Reflect Demand
    <bullet>  Congress should appropriate an additional amount for the 
DVOP and LVER programs proportionate to the increase in the number of 
veterans requiring service upon return from ongoing conflicts and to 
adjust for inflationary pressures.

                               __________

    Chairman Herseth Sandlin, Ranking Member Boozman, and Members of 
the Subcommittee, on behalf of the National Association of State 
Workforce Agencies (NASWA), I thank you for the opportunity to share 
states' perspectives on the value of employment and training services 
for our Nation's veterans. Our foremost goal is to serve and help 
veterans. To achieve this, we continue to: build on our partnership 
with the U.S. Department of Labor (USDOL) Veterans' Employment and 
Training Service (VETS); improve the productivity of our Disabled 
Veterans' Outreach Program (DVOP) and the Local Veterans' Employment 
Representatives (LVER) staff; promote flexible service delivery options 
for states; and seek appropriations needed to serve veterans returning 
from ongoing conflicts.
    The members of our Association constitute the state leaders of the 
publicly funded workforce investment system vital to meeting the 
employment needs of veterans through the DVOP and LVER programs. The 
mission of NASWA is to serve as an advocate for state workforce 
programs and policies, a liaison to federal workforce system partners, 
and a forum for the exchange of information and practices. Since 1973, 
NASWA has been a private, non-profit corporation, financed by annual 
dues from member state agencies.
    Our members are committed to providing the highest quality of 
service to our nation's veterans, National Guard members and 
Reservists. We are focused on our highest priority, serving recently 
separated veterans and disabled veterans. With the ongoing war efforts 
in Iraq and Afghanistan, this is a critical time to ensure high quality 
workforce services are available for those who served our country in 
time of war.
NASWA and USDOL-VETS Partnership
    NASWA and the U.S. Department of Labor (USDOL) Veterans' Employment 
and Training Service (VETS) have built a strong partnership founded on 
the common goal of improving services for veterans. Most recently, 
NASWA worked with USDOL-VETS to focus its annual conference on service 
to veterans including workshops on priority of service for veterans, 
assisting veterans' transition to civilian employment and partnering 
with veterans service organizations. NASWA is looking forward to 
working with USDOL-VETS in the development of regulations to clarify 
implementation of veterans' priority of service in the workforce 
system. NASWA and the National Governors' Association (NGA) are honored 
to serve as members of the Advisory Committee on Veterans Employment, 
Training, and Employer Outreach working with USDOL-VETS on improving 
services.
Performance
    For the latest available data on performance covering Program Year 
2005 (July 1, 2005-June 30, 2006), each target was reached and in most 
cases exceeded. The percent of veteran job seekers employed in the 
first or second quarter following registration increased by two 
percentage points to 62 percent in program year 2005, exceeding the 
target by three percentage points. The percent of veteran job seekers 
still employed two quarters after initial entry into employment with a 
new employer remained steady at 81 percent, matching the established 
target. The percent of disabled veteran job seekers employed in the 
first or second quarter following registration increased by one 
percentage point to 57 percent, two percentage points above the target. 
The percent of disabled veteran job seekers still employed two quarters 
after initial entry into employment with a new employer increased to 80 
percent, up one percentage point from program year 2004 and the program 
year 2005 target.
    NASWA is committed to improving service for veterans by 
strengthening the productivity of DVOP and LVER staff. The Veterans 
Benefits, Health Care, and Information Technology Act of 2006 (P.L. 
109-461) directs the Secretary of Labor to establish and maintain 
guidelines for use by states in establishing the professional 
qualifications for the DVOP and LVER positions. NASWA supports this 
approach to give states the latitude under guidelines to establish 
their own qualifications and hiring standards. The establishment of 
guidelines would ensure states' DVOP and LVER representatives are 
properly skilled while enabling them to function within each state's 
structure.
    NASWA supports the recently approved requirement that all DVOPs and 
LVERs attend training at the National Veterans Training Institute 
(NVTI) within three years of being designated as a DVOP or LVER. NVTI 
is an invaluable resource to provide such professional development for 
DVOPs and LVERs. NVTI estimates an additional $1 million per year is 
required to fulfill the requirement to train all DVOPs and LVERs in the 
core courses as required. NASWA supports additional appropriation at a 
level sufficient for NVTI training to meet the requirements to provide 
training for all DVOPs and LVERs as soon as possible after their hire 
date.
Part-Time DVOPs and LVERs Work for Veterans
    The Jobs for Veterans Act (P.L. 107-288) provides greater 
flexibility for the VETS, states, and the DVOP and LVER staff in 
serving veterans. The ability to hire or assign part-time DVOPs has 
greatly benefited states by allowing them to stretch their limited 
resources to more offices, covering larger areas and ultimately serving 
more veterans. The clarification of the definition of part-time DVOPs 
and LVERs with enactment of the Veterans Benefits, Health Care, and 
Information Technology Act of 2006 to ensure they serve veterans no 
less than half-time is beneficial in ensuring veterans are the top 
priority.
    Flexibility in assigning DVOP and LVER staff allows states to 
tailor programs to meet the unique needs in each state and local area, 
while instituting standards to ensure consistently high quality 
programs are available to veterans across the nation. The ability to 
hire or assign DVOP or LVER staff for half-time positions is especially 
valuable in small population, large geographic states. This allows 
veteran specialists to be assigned to more offices and reduces the 
amount of time required for travel in covering a large geographic area.
    NASWA recommends that any future legislation preserve the states' 
flexibility, as provided under JVA, to determine how best to integrate 
LVER and DVOP programs into state employment service delivery systems.
VETS' Program Appropriations
    States believe a reduction to the annual grant for any reason will 
impact the level of quality service for veterans negatively. Annual 
appropriation levels for the DVOP and LVER programs are inadequate. The 
DVOP and LVER programs should be authorized to spend annual grants for 
multiple years rather than a single year to allow long-term planning 
for managing and staffing the programs. The funding cycle should be 
changed to a program year to enable continuity in planning services for 
veterans and to be consistent with other workforce development 
programs, including the Workforce Investment Act (WIA).
    Maintaining high levels of performance in serving our veterans is a 
shared function of states and USDOL-VETS. States and USDOL-VETS 
negotiate performance standards and work together to meet them. A 
judgment made to reduce funding as a result of performance would make 
the states' goal of improving performance more challenging and penalize 
the veteran population. Should a state be in danger of not meeting 
performance measures, technical assistance should be provided by VETS 
to assist in correcting any deficiencies. Maintaining high levels of 
performance is the top priority of every state.
    State allocations under the DVOP and LVER programs have increased 
by approximately $3.9 million in eight years. This amount represents on 
average only about a one year's increase due to inflation. Congress 
should appropriate an additional amount for the DVOP and LVER programs 
proportionate to the increase in the number of veterans requiring 
service upon return from ongoing conflicts and to inflation every year. 
Further, the veteran's workforce investment program (VWIP), the program 
dedicated to training for veterans, has been flat-funded for over 5 
years. Last year's VWIP appropriation of only $7.5 million serves 
limited areas in only 12 states.
    State allocations are based on the state's population of veterans 
seeking employment in the state. Though small state veterans 
populations may not be as large as large population states, small 
states must make the same accommodations to serve veterans throughout a 
large and diverse area. Inevitably small population states require 
additional funds throughout the year to maintain the service levels 
established in their annual plans. NASWA appreciates the availability 
of contingency funding, including exigency and 5th quarter funding, but 
believe veterans would be better served if adequate allocations are 
provided at the beginning of a funding cycle. NASWA recognizes the 
large number of veterans in heavily populated states requires a 
commensurate number of workforce system staff to provide high quality 
services. NASWA supports minimum funding levels adequate for small 
states to ensure they can maintain high quality services too. 
Ultimately, an increase in Congressional appropriation for the DVOP and 
LVER programs would help to alleviate this issue.
    The Jobs for Veterans Act (JVA) requires states to submit to the 
Secretary of Labor, ``a plan that describes the manner in which states 
shall furnish employment, training, and placement services required 
under this chapter for the program year.'' NASWA members believe the 
annual plan required by the Jobs for Veterans Act will be greatly 
improved by moving the funding for these programs from a fiscal year to 
a program year funding cycle.
    By transitioning funding to a program year (July 1 to June 30) and 
aligning it with most other employment and training programs, the plans 
state workforce agencies submit to USDOL Veterans Employment and 
Training Service (VETS) will reflect future program year services based 
on actual outlays. Funding on a program year supports integrating VETS-
funded programs into WIA one-stop career center systems and planning 
and performing on the same cycle as other one-stop partners.
    Thank you for the opportunity to address these important issues.

                                 <F-dash>
           Statement of Justin Brown, Legislative Associate,
             Veterans of Foreign Wars of the United States
    MADAM CHAIRWOMAN AND MEMBERS OF THIS COMMITTEE:
    On behalf of the 2.3 million members of the Veterans of Foreign 
Wars of the U.S. (VFW) and our Auxiliaries, I would like to thank you 
for your invitation to submit testimony on the Disabled Veterans 
Outreach Program (DVOP) specialists and Local Veterans Employment 
Representatives (LVER).
    The men and women of our military are leaving our military in large 
numbers. The cause for their departure is often the prospect of one 
more deployment for an already battle weary troop. Though these men and 
women have served honorably, this does not mean they are ready to enter 
the civilian workforce, yet the core of positive transition is stable 
employment or education opportunities.
    A November 5th Military.com poll illustrates the need for greater 
assistance for recently departed service members. Of 4,442 military or 
veteran respondents; eighty-one percent of transitioning military 
personnel surveyed revealed that they do not feel fully prepared to 
enter the job market. Of those who feel unprepared: seventy-two percent 
of respondents feel unprepared to negotiate salary and benefits, 
seventy-six percent report inabilities to effectively translate their 
military skills to civilian terms, and fifty-seven percent are unsure 
of how to network professionally. While our service members may possess 
the skills to perform the job and the discipline to see work through to 
completion, they lack the confidence and the knowledge to market their 
own strengths.
    The survey also included 287 recruiters and hiring managers from 
small- to large-size businesses which demonstrated a need for increased 
employer outreach and education. The survey results of this population 
stated that sixty percent of hiring managers and recruiters reported 
favorable attitudes toward employing veterans, yet many face 
difficulties recruiting and hiring from this talent pool. Sixty-one 
percent reveal they do not have a complete understanding of the 
qualifications ex-servicemembers offer. Sixty-four percent feel that 
veterans need additional assistance to make a successful transition 
into the civilian job-seeking market, with twenty-seven percent citing 
the need for stronger interviewing skills. Fifty-three percent of 
employers spend two percent or less of their recruitment advertising 
budget on targeted military hiring. Due to employers' lack of 
understanding and undervaluing veterans as employees many do not seek 
out these extraordinary Americans.

            Disabled Veterans' Outreach Program Specialists

    According to the Department of Labor (DOL), Disabled Veterans 
Outreach Program (DVOP) specialists provide intensive services to meet 
the employment needs of disabled veterans and other eligible veterans, 
with the maximum emphasis directed toward serving those who are 
economically or educationally disadvantaged, including homeless 
veterans, and veterans with barriers to employment. DVOP specialists 
are actively involved in outreach efforts to increase program 
participation among those with the greatest barriers to employment 
which may include but should not be limited to: outplacement in 
Department of Veterans' Affairs (DVA) Vocational Rehabilitation and 
Employment Program offices; DVA Medical Centers; routine site visits to 
Veterans' Service Organization meetings; Native American Trust 
Territories; Military installations; and, other areas of known 
concentrations of veterans or transitioning service members. The case 
management approach, taught by the National Veterans' Training 
Institute, is generally accepted as the method to use when providing 
vocational guidance or related services to eligible veterans identified 
as needing intensive services.

               Local Veterans' Employment Representatives

    According to DOL, Local Veterans' Employment Representatives 
conduct outreach to employers and engage in advocacy efforts with 
hiring executives to increase employment opportunities for veterans, 
encourage the hiring of disabled veterans, and generally assist 
veterans to gain and retain employment. LVER staff conduct seminars for 
employers and job search workshops for veterans seeking employment, and 
facilitate priority of service in regard to employment, training, and 
placement services furnished to veterans by all staff of the employment 
service delivery system.

                                  VETS

    The mission statement for VETS is to provide veterans and 
transitioning service members with the resources and services to 
succeed in the 21st century workforce by maximizing their employment 
opportunities, protecting their employment rights and meeting labor-
market demands with qualified veterans today.
    As Per the request of this Subcommittee, we have addressed the 
following four questions.
1. Do you believe DOL is properly implementing the DVOP/LVER programs 
        with the states?
    The VFW believes the Department of Labor has little oversight, and 
no useful performance measures for the quality of implementation or 
success of the programs in any particular state. The Jobs for Veterans 
Act, Public Law (P.L.) 107-288, eliminated the requirement for DOL to 
review all workforce centers annually which greatly reduced Federal 
oversight of these programs that already lack in performance measures. 
Also, the Assistant Secretary for Veterans' Employment and Training 
Service (VETS) cut funds allocated for oversight and created policy 
that allowed for only 10 percent of one-stop centers to be reviewed. In 
brief, the DVOP/LVER programs have largely been ceded to the authority 
of the states with exception to funding. The VFW strongly discourages 
the movement toward funding with no accountability. The VFW believes 
that the DOL needs oversight; however, we need to create measures that 
allow proper oversight and evaluation of DOL. Until this occurs the VFW 
believes veterans will continue to have programs that may, or may not, 
work. Currently there is no way of knowing that these programs are, or 
are not, effective regardless of what state they are in.
2. Under what circumstances should states lose their funding for 
        failing to meet their obligations?
    Until DOL is held accountable for their actions, the VFW believes 
that DOL will have a hard time justifying the cutting of a particular 
state's funding. The VFW believes that a complete review of standards 
needs to be conducted. The U.S. Government Accountability Office (GAO) 
has cited multiple occurrences in which DOL has not conducted necessary 
oversight. One example is that the DOL has not conducted an impact 
evaluation, as required under Workforce Investment Act, to assess the 
effectiveness of the one-stop services in which LVERs and DVOPs 
operate. The VFW believes the impact study needs to be conducted as 
does an impact survey of the effectiveness of the DVOP and LVER 
program. When the study is finished DOL and the VA need to create 
performance measures that hold the states accountable.
    Assuming legitimate performance standards were created, the VFW 
would not support any cuts in the overall funding of the program. 
However, the VFW would support funds being redirected if individual 
states were not performing or were failing to meet necessary standards 
of assisting veterans.
    The VFW believes that states ought not to misuse or waste funding 
that is intended to help veterans find employment. If this does occur, 
VFW supports the funds being redirected to programs that have proven 
effective in creating opportunities for veterans. However, there must 
be some mechanism for states that lose funding to be able to receive 
the funding should they make changes beneficial for the purpose of 
implementing a veteran employment program that will meet the minimum 
standards as outlined by DOL. The bottom line is the individual states 
need incentive to keep veterans employment programs providing a quality 
service.
3. Are part-time DVOPs/LVERs meeting the needs of rural and urban area 
        veterans?
    The VFW's experience has been that Veterans Affairs (VA) Employment 
Coordinators, DVOPS, and LVERS, primarily serve veterans in close 
proximity to their physical location of employment offices, regardless 
of whether they are full-time or part-time DVOPs or LVERs. In many 
cases, the VFW has been told that close proximity between a veteran and 
those servicing the veteran, increases the likelihood of employment due 
to the establishment of personal relationships between the DVOP/LVER 
and the veteran. This offers a form of favoritism that could further 
decrease a rural veteran's chance of employment.
    The VFW advocates for the necessity of a qualitative study to be 
conducted in every state to assess the necessity of outreach employment 
services for rural veterans. Such a study would give the individual 
states information that would better assist them in resource 
utilization. Overall the rural veteran population stands at around 
twenty-three percent. However, there is a great deal of information 
that we do not know in regards to that demographic. Also, are the 
military members that joined from a rural location returning to the 
same locale, or are they relocating to metropolises? To answer these 
questions as a whole would likely create a false depiction of the 
realities on the ground; which is why the studies should be conducted 
on a state by state basis, in order to assure vast amounts of veterans 
are not slipping through the cracks.
4. What is your organization's position on how the DOL tracks its 
        performance measures?
    According to GAO reports, dating back to 1999, DOL/VETS have 
completed no oversight that actually assesses the benefit of the LVER/
DVOP programs. In his recent testimony before the Committee, the 
Assistant Secretary of VETS, stated ``the enactment of the Jobs for 
Veterans Act, P.L. 107-288, in November 2002 has resulted in 
significant improvements in the provision of employment services to 
veterans and is showing a positive impact on the employment outcomes of 
veterans.'' The VFW wonders what these positive impacts are, and how 
are we, and Congress, supposed to substantiate such claims? The VFW 
would like to see a program that performs for veterans, and is not just 
titled as a veterans program. The lack of meaningful oversight, and 
impact studies, has left the DOL to its own devices for nearly a 
decade. While the VFW does not question the intentions of any parties, 
we also wish to see a veterans program do what it is supposed to do. 
Without such measures and studies, no entity, not even the DOL, can 
substantiate that the programs are indeed working as planned. The VFW's 
purpose in highlighting these issues is the worry that the program may 
not be working. If this is indeed the case we would be able to make 
changes if we knew what the problems were. However, the information 
available lacks quantitative data, and only leaves all entities, 
including DOL, with more questions, and more assumptions.

                   Other Areas of Concern to the VFW

    The VFW strongly believes that interagency cooperation between DOL/
VETS and the VA needs to increase at all levels. In order for a uniform 
and coherent employment and training program to be established, it will 
require long-term goals on the national, state, and local level. The 
VFW believes that it is the responsibility of DOL and VA to establish 
such a program that will provide comprehensive measures of performance. 
The fact that the organizations have failed to implement such measures 
leads the VFW to believe that the programs may not be performing as is 
being testified to Congress. However, this is no reason to impede the 
creation of such measures. Without comprehensive measures, DOL/VETS, 
and the VA cannot assess or enhance their service to our nation's 
veterans.
    Information sharing is crucial for VA and DOL/VETS to increase 
interagency cooperation. DOL/VETS ought to provide the VA with 
employment information, so that they can be aware of the employment 
status of veterans who are receiving vocational rehabilitation. The VA 
ought to provide DOL/VETS with information in regards to the veterans' 
disabilities. This would make the DVOPs and LVERs more capable of 
finding suitable employment, or making the proper accommodations for 
the veteran, to increase successful placement both for the employer and 
the veteran employee. However, this information need only be provided 
for these purposes and clear criteria needs to be drawn up by DOL/VETS, 
and the VA, for the implementation of such. Clearly, there would be 
personal information that would not be necessary for employment, and 
much of the information sharing would be at the discretion of the 
veteran.
    According to Veterans' Affairs, tonight there will be 1,500 
veterans from OEF/OIF walking the streets. In our opinion, both DOL/
VETS, and VA, need to step it up, collaborate, and be innovative in 
their efforts. America and its veterans need a change in the way their 
veteran employment programs are being managed; this is not to say there 
are not individuals working very hard to ensure the best for our men 
and women who have traded their boots for sneakers. We would like to 
thank those men and women. However, there needs to be increased 
accountability, and measures that actually measure the causative effect 
DVOPs and LVERs are having on employment. If the Military.com poll is 
any indicator, employers and veterans either do not know about the 
services available to them, or they are not sufficient.
    Chairwoman Sandlin, Ranking Member Boozman, members of the 
committee, on behalf of the VFW, I would like to thank you for allowing 
us to submit testimony on this very important issue. I would be happy 
to answer any questions you may have.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                   October 30, 2007

Ronald F. Chamrin
Assistant Director
Economic Commission
The American Legion
1608 K Street, NW
Washington, DC 20006

Dear Mr. Chamrin:

    Please review and respond to the enclosed hearing questions by the 
close of business on November 30, 2007. These questions are in 
reference to our House Committee on Veterans' Affairs Subcommittee on 
Economic Opportunity hearing on ``VETS DVOP/LVER Program'' on October 
25, 2007.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-3608.

            Sincerely,
                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                               __________

                                                    American Legion
                                                    Washington, DC.
                                                  November 28, 2007

Honorable Stephanie Herseth Sandlin, Chair
Subcommittee on Economic Opportunity
Committee on Veterans' Affairs
U.S. House of Representatives
335 Cannon House Office Building
Washington, DC 20515-6335

Dear Chair Herseth Sandlin:

    Thank you for allowing The American Legion to participate in the 
Subcommittee hearing on ``VETS DVOP/LVER Program'' on October 15, 2007. 
I am pleased to respond to your specific question concerning that 
hearing:
    In your testimony you state that DVOP/LVER staff receives training 
with in the first 3 years, yet you suggest for this training to be 
mandated with in the 1st year. Can you submit your recommendation for 
the record?
    The American Legion is proud to list its recommendations for 
improving veterans' employment by training Disabled Veterans' Outreach 
Program (DVOP) Specialists and Local Veterans' Employment 
Representatives (LVER).
Training for DVOPs/LVERs under state jurisdiction
    The National Veterans' Employment and Training Services Institute 
(NVTI) provides training to Federal and State Government employment 
service providers in competency based training courses. P.L. 109-461 
stipulates that newly hired DVOPs/LVERs must attend the NVTI to be 
trained for their position within 3 years of hiring.
    NVTI has provided several thousand training sessions for State 
Employment Security Agency staff, Veterans' Employment and Training 
Service (VETS) staff, DOD staff, and Department of Veterans Affairs' 
(VA's) Vocational Rehabilitation staff. NVTI provides standardized 
training for veterans' advocates providing employment and training 
services. The positive impact on the quality of services provides 
veterans with well-trained vocational specialists across the country.
    Unfortunately, newly hired individuals can retain their position 
for 2.5 years before they are required to begin training to ensure that 
graduation is within the 3-year hiring period. Newly-hired employment 
specialists, without the benefit of NVTI training, may be ill-prepared 
to properly assist veterans seeking meaningful employment or facing 
significant barriers to employment.
    To close this loophole, The American Legion recommends that newly-
hired DVOPs/LVERs personnel must be trained at NVTI within the first 
year of employment and supports that all untrained DVOP/LVER staff 
within 3 years of hiring at the time of enactment of new legislation 
must be trained within 1 year.

[GRAPHIC] [TIFF OMITTED] 39467A.201

    (Government Printing Office, [DOCID: f:publ461.109] [[Page 120 
STAT. 3403]] Public Law 109-461 109th Congress, Approved December 22, 
2006. LEGISLATIVE HISTORY--S. 3421 (H.R. 5815))
    The American Legion reaffirms continued support of full funding of 
the National Veterans' Training Institute and advocate full funding and 
staffing for the Veterans' Employment and Training Service and its 
effective programs.
    Thank you once again for all of the courtesies provided by you and 
your capable staff. The American Legion welcomes the opportunity to 
work with you and your colleagues on many issues facing veterans and 
their families throughout this Congress.

            Sincerely,
                                    Ron Chamrin, Assistant Director
                                       National Economic Commission

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                   October 30, 2007
Richard Daley
Associate Legislative Director
Paralyzed Veterans of America
801 18th Street, NW
Washington, DC 20006

Dear Mr. Daley:

    Please review and respond to the enclosed hearing questions by the 
close of business on November 30, 2007. These questions are in 
reference to our House Committee on Veterans' Affairs Subcommittee on 
Economic Opportunity hearing on ``VETS DVOP/LVER Program'' on October 
25, 2007.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-3608.

            Sincerely,
                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                               __________

                                      Paralyzed Veterans of America
                                                    Washington, DC.
                                                  November 16, 2007

The Honorable Stephanie Herseth Sandlin
Chairwoman
Subcommittee on Economic Opportunity
335 Cannon House Office Building
Washington, DC 20515

Dear Chairwoman Herseth Sandlin:

    Thank you for the opportunity to address questions raised by my 
testimony on October 25, 2007 before the Subcommittee on Economic 
Opportunity. I have included my responses and would be happy to answer 
any additional questions you or Members of the Subcommittee may have.

            Sincerely,
                                                      Richard Daley
                                     Associate Legislative Director

        Questions From The House Committee On Veterans' Affairs
                  Subcommittee on Economic Opportunity
                        Hearing October 25, 2007
                               Rich Daley
                     Paralyzed Veterans of America
    Question 1: You state that your members and other individuals who 
suffer from similar injuries or diseases do not receive proper 
consideration for employment when applying for a job. What can be done 
so that they do receive proper consideration?

    Answer: The employer must be informed that employing a veteran with 
a disability will not cost any additional expense over the candidate 
without a disability. Many employers have a preconceived idea that 
hiring disabled workers may affect their cost for employees insurance 
or their workman's compensation premiums. Traditionally the disabled 
employee does not have an effect on these costs.
    Some employers may have the idea that the disabled worker may not 
be as dependable with getting to work, or may take more time off from 
work because of their disability. Disabled workers are as reliable or 
in many cases have a better attendance record than nondisabled.
    The role of educating the employer is the job for the local 
Disabled Veterans Outreach Program (DVOP) and the Local Veterans 
Employment Representative (LVER). Part of their responsibility is to 
perform outreach in their community or geographic territory and meet 
with the employers. By networking with the employers the DVOP can learn 
specific skills that an employer needs and the training that would be 
required by the disabled veteran. The DVOP must be out ``selling'' the 
potential of hiring the disabled veteran. Every placement takes much 
more individual hands on customizing, than a typical placement of a 
nondisabled worker. After the placement of the disabled veteran the 
local veterans' employment representative may follow up for six to 
twelve months to insure the success of the placement. If there is not 
adequate funding for the DVOP, and LEVR, the outside travel and 
networking is usually eliminated resulting in an inside office worker.

    Question 2: Is there sufficient funding for VETS?

      a.  What do you consider an appropriate funding level for VETS?

    Answer: In preparing my testimony the information that I used 
confirmed that DOLs last increase for VETS was in the FY 2003 budget. 
Any additional funds in yearly budgets since that date have been 
insignificant. It would be difficult to conduct any program today with 
a budget from 2003. The work load for the local veterans employment 
representatives has increased with the OEF/OIF veterans returning home, 
many looking for their first full time employment opportunity.
    Without sufficient funding some states have resorted to half time 
funding for the DVOP and LVER positions. State employees working in 
this situation can find their work load evolve into a 60/40% division, 
with the veterans work receiving the 40%, since the work load of the 
regular employment workforce will be greater. In the half time veterans 
representatives position, the necessary paper work will be completed, 
but the equally important outreach in the community may be eliminated.
    A community may not have the population that would require a full 
time veterans representative. Employment specialists that have years of 
experience, agree that it is better to have the veterans representative 
travel in from another office one or two days a week keeping their 
focus on veterans employment, rather than dividing the day by state 
worker part time, veterans representative part time.

    Question 3: You state that if a state falls short then the Director 
for Veterans' Employment and Training (DVET) should provide more 
oversight. What type of oversight should the DVET provide to the state?

    Answer: The DOL-VETS program should be adequately funded to a level 
similar to FY 2003. The DVET must have the budget to travel throughout 
their assigned area to work with the DVOPs and LVERS. They must have 
the latest training to share with the state employment worker.
    The DVET could encourage the state to conduct veterans' job fairs. 
Currently some states conduct veterans job fairs each year at multiple 
locations throughout the state. Some states that have conducted 
aggressive ``hire vets'' campaigns may find them discontinued with the 
change of a Governor and his Executive Branch. The DVET could encourage 
the inactive state to become more active perhaps enlisting the 
resources of the DOL staff in Washington.
    At a recent veterans job fair in Tampa, Florida (Nov. 14, 2007) 
that was coordinated by the state employment services and Military 
Officers Association of America (MOAA), over 550 veterans had the 
opportunity to talk with approximately 40 employers that were 
represented. Many of the attending veterans scheduled future interviews 
and perhaps received an employment offer.
    The DVET should encourage the DVOP specialists to become involved 
with the disabled veteran early in the process. In some locations the 
DVO will start visiting the veteran while they are in the VA facility 
to discuss employment opportunities and the required rehabilitation and 
training needed to perform those fields. This helps to focus the 
veteran on employment and returning to civilian life after their 
rehabilitation.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                   October 30, 2007

Rick Weidman
Executive Director for Policy and Government Affairs
Vietnam Veterans of America
8605 Cameron Street, Suite 400
Silver Spring, MD 20910

Dear Mr. Weidman:

    Please review and respond to the enclosed hearing questions by the 
close of business on November 30, 2007. These questions are in 
reference to our House Committee on Veterans' Affairs Subcommittee on 
Economic Opportunity hearing on ``VETS DVOP/LVER Program'' on October 
25, 2007.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.

            Sincerely,
                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                               __________

        Questions from the House Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
                   Hearing on VETS DVOP/LVER Program
                            October 25, 2007
    1.  If the Government Accountability Office (GAO) were to revisit 
the study done on VETS. What recommendations would you make for a 
second report?
    2.  What should be the proper funding level for VETS?
    3.  You state that ETA is derelict in the promulgation of 
regulations implement the law. Can you give us examples of where ETS is 
derelict?
    4.  Do you agree with the revision of the duties for Disabled 
Veterans Outreach Program (DVOP) and Local Veteran Employment 
Representative (LVER) staff?

[THE SUBCOMMITTEE DID NOT RECEIVE A RESPONSE FROM MR. WEIDMAN.]

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                   October 30, 2007

Honorable Charles S. Ciccolella
Assistant Secretary
Veterans' Employment and Training Service
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210

Dear Secretary Ciccolella:

    Please review and respond to the enclosed hearing questions by the 
close of business on November 30, 2007. These questions are in 
reference to our House Committee on Veterans' Affairs Subcommittee on 
Economic Opportunity hearing on ``VETS DVOP/LVER Program'' on October 
25, 2007.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-3608.

            Sincerely,
                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                               __________

        Questions from the House Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
                   Hearing on VETS DVOP/LVER Program
                            October 25, 2007
 1. What is the appropriate funding level for VETS?
    Response: The appropriate funding level for the Veterans' 
Employment Training Service (VETS) allows the agency to carryout its 
statutorily mandated functions, while emphasizing the highest priority 
programs. Since the beginning of the Global War on Terror, VETS has 
placed a priority on the transition to civilian employment for 
separating servicemembers and on the provision of employment services 
for the severely injured and wounded. As a result, the Agency has 
emphasized the Transition Assistance Program (TAP) and the REALifelines 
(RLL) program. For those veterans that do not fall within the TAP or 
RLL programs' services, we believe that the increased emphasis on 
priority of service for veterans in the One-Stop Career Centers, in 
conjunction with the existing Disabled Veterans' Outreach Programs 
(DVOP) and Local Veterans' Employment Representatives (LVER) programs, 
allows the states to provide employment services to those veterans. The 
funding level requested in the President's FY2008 budget is appropriate 
to fund these priorities as well as all statutory mandates.
 2. According to a GAO study on Veterans' Employment and Training 
        Service, DOL has no method of gauging the extent to which 
        priority of service for veterans has been implemented in 
        various employment programs, despite Jobs for Veterans Act 
        (JVA) requirement that DOL include this information in its 
        annual report to Congress. Do you agree with this claim?
      a.  Why have you not implemented this requirement?

    Response: The Department of Labor (DOL) does not agree with this 
claim. DOL has been using three methods for assessing priority of 
service. The first is measuring the participation rate for veterans in 
each of the principal DOL employment and training programs, as well as 
the overall participation rate of veterans across all these programs. 
This overall program participation rate is higher than veterans' rates 
of representation in the civilian labor force. This suggests that the 
veterans' priority has led to high participation. This measurement is 
included in VETS' Annual Report to Congress.
    The second method relates to the monitoring procedures currently 
applied by VETS and by the Department's Employment and Training 
Administration (ETA). VETS' procedures include the analysis of 
quarterly monitoring reports for every state, the submission of annual 
self-assessments by each State Workforce Agency (SWA), and program 
monitoring reviews at selected One-Stop Career Centers each year. The 
ETA procedures include periodic reviews at the state and local level. 
Both agencies monitor priority of service and, in response to a prior 
Government Accountability Office (GAO) report, VETS and ETA recently 
piloted joint monitoring reviews of the SWAs in five states. VETS and 
ETA found that this produced greater consistency and broader coverage 
in the monitoring of priority of service.
    VETS and ETA recently implemented a third approach to assessing 
priority of service, by awarding a contract to provide an analysis of 
existing approaches to implementing priority of service in DOL programs 
and to explore strategies for evaluating the implementation of priority 
of service in greater depth.
    We believe the combination of these methodologies and the 
information that will be produced by them will provide a robust and 
reliable approach for assessing priority of service.
    Looking ahead, ETA is also proposing an integrated reporting system 
called WISPR. In its proposed format, WISPR will collect information on 
registrants for DVOP LVER and the Wagner Peyser Employment Service 
programs, at a minimum. The latter serves approximately 13 million 
individuals per year. It should be noted that this data is not 
currently being collected, but by doing so, the Department of Labor 
will be able to analyze the proportion of Veterans who register and go 
on to receive a service versus the proportion of Non-Veterans who 
register and go on to receive a service. If approved, this data will 
add yet another dimension to DOL's ability to gauge priority of 
service.

      a.  Why have you not implemented this requirement?

    Response: DOL implemented the priority of service requirement 
shortly after the priority of service provision was enacted in the Jobs 
for Veterans Act late in 2002. Early in 2003, DOL issued general policy 
guidance on priority of service and, later in 2003, DOL issued specific 
policy guidance for each major employment and training program.
    With the enactment of Public Law 109-461 late in 2006, the 
Secretary of Labor is required to publish regulations on priority of 
service by December 2008. A work group has been convened and draft 
regulations are currently under development. DOL is confident that the 
resulting regulations will embody the policy guidance required to 
achieve full implementation of priority of service and will be 
accompanied by improved sources of information for assessing its 
implementation.
 3. How are DOL-VETS funded? Explain the Wagner-Peyser Act and how that 
        applies to funding DVOP/LVER?
    Response: Amounts appropriated to VETS for the Jobs for Veterans 
State Grants are funded indirectly from the federal unemployment tax. 
As required by the Jobs for Veterans Act of 2002, allocations to the 
states are based upon the number of veterans seeking employment in that 
state as a percentage of veterans seeking employment in all states.
    The Wagner-Peyser Act of 1933 laid the ground work for employment 
services for America's job seekers, which have benefited veterans over 
the last seventy-five years. The Wagner-Peyser Act funds also derive 
from the federal unemployment tax and are allotted to State Workforce 
Agencies by the Employment and Training Administration using a formula 
that takes into account State Workforce Population Estimates and local 
area unemployment statistics.
    In the workforce system, the public labor exchange is operated as 
part of the One-Stop Career Center system. The Jobs for Veterans State 
Grants are one of several state grant programs that provide employment 
related services, including Wagner-Peyser and Workforce Investment Act 
formula grants. One-Stop partners, including staff funded under the 
Wagner-Peyser Act, provide priority of service to veterans. DVOP 
specialists and LVER staff assist the One-Stop Career Center to serve 
veterans, but do not supplant the office's general responsibility to 
provide employment and training-related services to all job seekers, 
including veterans. In fact, the Wagner-Peyser Employment Service 
program served over 1,151,000 veterans and eligible persons over the 
past year, about nine percent of the total participants served. The 
DVOP Program provides case-management and intensive services to 
veterans most in need of services or those veterans with barriers to 
employment. In partnership with Wagner-Peyser funded staff, LVER staff 
serve veterans and help to meet the workforce needs of the business 
community though outreach and field visitation.
 4. How many positions outside of the central office are lost each year 
        due to inflation of salaries and stagnant funding of state 
        grants?
    Response: The Jobs for Veterans State Grant funds DVOP and LVER 
positions in the State Workforce Agencies. It does not fund federal 
VETS positions at the national, regional, or state levels. A comparison 
of DVOP specialists and LVER staffing was drawn between the position 
levels in fiscal year FY 2007 and FY 2003, the year before the Jobs for 
Veterans State Grants were implemented. Based upon the funding, the 
states were able to support 271 fewer positions funded in FY 2007 than 
in FY 2003.
 5. If DOL-VETS could receive full funding at the full authorized 
        levels, what would that equate to?
    Response: The Jobs for Veterans Act of 2002 does not establish an 
authorization for DVOP and LVER positions. DOL submits a request for 
the amount estimated to be necessary to support VETS' activities and 
states provide an estimate of the number of veterans' employment 
representatives and services that the states can support based upon 
their estimated allocation.
    Two VETS programs currently have authorized levels: the Homeless 
Veterans Reintegration Program (HVRP) at $50 million, and the Veterans' 
Workforce Investment Program (VWIP) that has a reservation of no less 
than $7.3 million.
 6. The VWIP program is highly successful in that the average staff 
        member has a higher level of education, training, and 
        specialized tools to assist veterans. How much would it require 
        funding a VWIP in each state or in those with high 
        concentrations of veterans?
    Response: To provide a Veterans' Workforce Investment Program 
(VWIP) award in each state, it would cost approximately $26 million. 
This estimate is by derived by assuming that the current average VWIP 
grant amount ($500,000) is awarded to each of the 50 states plus the 
District of Columbia and Puerto Rico.
 7. What is the average budget for a DVOP/LVER to conduct outreach or 
        to travel to visit veterans outside their offices?
    Response: The design of the Jobs for Veterans State Grants provides 
states with the flexibility to operate in a manner they deem 
appropriate to best serve the veteran population and in a manner that 
maximizes their respective resources, in accordance with the Jobs for 
Veterans Act of 2002. This highly evolved system of operation provides 
the best possible use of resource allocation for each state considering 
each unique economic situation, the needs of their veterans' population 
and the resources available to provide services at an optimal level.
    Outreach is conducted by LVER staff members for the purpose of 
establishing employer relationships that are conducive to the creation 
of job opportunities for veterans, and to market the well trained and 
skilled labor pool of veterans. Outreach to the community, employers 
and businesses, includes encouraging employers to consider veterans as 
a meritorious labor source on a priority basis.
    Without taking into consideration each state's methodology for 
developing such travel projections, VETS estimates that on a national 
level, the average projection for DVOP/LVER staff to conduct outreach 
is $1,400.
 8. In regards to state imposition of probationary periods, how many 
        DVOP/LVERs do not receive training within the first year?
    Response: Pursuant to Public Law (Pub.L.) 109-461, Jobs for 
Veterans' State Grantees were required to provide information in their 
FY 2008 annual modification requests identifying the dates DVOP 
specialists and LVER staff were appointed and received core training 
through the National Veterans' Training Institute (NVTI). We have 
defined core training as the Labor and Employment Specialist (LES) 
course and Case Management course for DVOP specialists, and LES and 
Promoting Partnerships in Employment course for LVER staff. DVOP 
specialists and LVER staff appointed since January 1, 2006, are 
required to complete this core training within three years of the date 
of appointment. Monitoring this required training is an area of special 
interest that our State Directors of Veterans Employment and Training 
review in state implementation plans and during State Workforce Agency 
assessments.
    Based upon the most recent quarterly reports from the states, 433 
out of 609 DVOP and LVER staff appointed since January 1, 2006, have 
not completed NVTI training. Since the requirement is that they 
complete training within the first three years of employment, we have 
not asked the states to provide information on attendance at training 
in the first year.
 9. What are the figures for referrals that states receive from the VA 
        to DVOP/LVER programs for placement?
    Response: In FY 2006, the VA's Vocational Rehabilitation and 
Employment (VR&E) referred 6,658 individuals. Of that number, 5,801 
were registered in the SWA systems, and there was a resulting entered 
employment rate of 87%. The FY 2007 figures are still being compiled.
    Following a meeting with the committee's staff, a new Memorandum of 
Agreement (MOA) was signed between VA's VR&E Service and VETS. This has 
led to a new level of collaboration and cooperation between VETS and 
VR&E. The MOA established three working groups who are charged with 
developing performance measures, curriculum development and joint 
training, and data collection and analysis. The working groups have 
developed a demonstration project to be implemented at eight mutually 
agreeable sites to implement best practices/standardized procedures 
that outline/evaluate the proposed model for collaboration. The project 
start date is scheduled for January 28, 2008.
10. Which states are doing a good job in limiting their overheads and 
        providing resources?
    Response: Under the governing regulations (29 CFR part 97) and OMB 
circulars (A-102 and A-87) state workforce agencies develop cost 
allocation plans consistent with accepted accounting practices. They 
can develop an indirect cost rate proposal to cover their centralized 
costs and other administrative costs that benefit all programs or 
develop a cost allocation plan that lays out their costing methodology. 
These plans are subject to approval by either the relevant Federal 
agency providing the most Federal funds to a state or a DOL cost 
negotiator from the Department's Division of Cost Determination. Each 
state can account for different items of cost such as travel, computer 
equipment and telephones as either direct or indirect, and as either 
program or overhead, costs depending on the nature of the expense.
    States incorporate their approved rates and cost allocation plans 
into their Jobs for Veterans State Grant proposals. VETS' field staff 
reviews their plans and assists them to successfully achieve their 
plans and stay within approved cost items.
    Attachment 1 indicates the percentage of grant funds utilized by 
each state for administration and other expenses compared to the 
percentage of funds supporting salaries, benefits, and travel. VETS 
understands the complexity of this issue and is willing to brief you 
and your staff further.

                              Attachment 1
                    Jobs for Veterans' State Grants
                      Administrative Cost Overview
    (Data obtained from FY2007 Annual Funding Modification SF 424A)

----------------------------------------------------------------------------------------------------------------
                                            % of Grant Funds Supporting
                 State                     Personnel Salaries, Benefits,     % of Grant Funds for Administration
                                                       Travel                         and Other Expenses
----------------------------------------------------------------------------------------------------------------
AK                                                                  82.05%                               17.95%
----------------------------------------------------------------------------------------------------------------
AL                                                                  79.87%                               20.13%
----------------------------------------------------------------------------------------------------------------
AR                                                                  75.21%                               24.79%
----------------------------------------------------------------------------------------------------------------
AZ                                                                  72.41%                               27.59%
----------------------------------------------------------------------------------------------------------------
CA                                                                  70.35%                               29.65%
----------------------------------------------------------------------------------------------------------------
CO                                                                  80.91%                               19.09%
----------------------------------------------------------------------------------------------------------------
CT                                                                  70.31%                               29.69%
----------------------------------------------------------------------------------------------------------------
DC                                                                  77.49%                               22.51%
----------------------------------------------------------------------------------------------------------------
DE                                                                  72.91%                               27.09%
----------------------------------------------------------------------------------------------------------------
FL                                                                  51.90%                               48.10%
----------------------------------------------------------------------------------------------------------------
GA                                                                  74.28%                               25.72%
----------------------------------------------------------------------------------------------------------------
HI                                                                  75.17%                               24.83%
----------------------------------------------------------------------------------------------------------------
IA                                                                  70.54%                               29.46%
----------------------------------------------------------------------------------------------------------------
ID                                                                  73.84%                               26.16%
----------------------------------------------------------------------------------------------------------------
IL                                                                  70.95%                               29.05%
----------------------------------------------------------------------------------------------------------------
IN                                                                  78.48%                               21.52%
----------------------------------------------------------------------------------------------------------------
KS                                                                  67.81%                               32.19%
----------------------------------------------------------------------------------------------------------------
KY                                                                  68.96%                               31.04%
----------------------------------------------------------------------------------------------------------------
LA                                                                  84.40%                               15.60%
----------------------------------------------------------------------------------------------------------------
MA                                                                  74.20%                               25.80%
----------------------------------------------------------------------------------------------------------------
MD                                                                  76.37%                               23.63%
----------------------------------------------------------------------------------------------------------------
ME                                                                  73.20%                               26.80%
----------------------------------------------------------------------------------------------------------------
MI                                                                  74.84%                               25.16%
----------------------------------------------------------------------------------------------------------------
MN                                                                  76.54%                               23.46%
----------------------------------------------------------------------------------------------------------------
MO                                                                  72.74%                               27.26%
----------------------------------------------------------------------------------------------------------------
MS                                                                  65.16%                               34.84%
----------------------------------------------------------------------------------------------------------------
MT                                                                  66.84%                               33.16%
----------------------------------------------------------------------------------------------------------------
NC                                                                  75.87%                               24.13%
----------------------------------------------------------------------------------------------------------------
ND                                                                  71.12%                               28.88%
----------------------------------------------------------------------------------------------------------------
NE                                                                  63.23%                               36.77%
----------------------------------------------------------------------------------------------------------------
NH                                                                  80.57%                               19.43%
----------------------------------------------------------------------------------------------------------------
NJ                                                                  78.62%                               21.38%
----------------------------------------------------------------------------------------------------------------
NM                                                                  74.97%                               25.03%
----------------------------------------------------------------------------------------------------------------
NV                                                                  69.61%                               30.39%
----------------------------------------------------------------------------------------------------------------
NY                                                                  76.78%                               23.22%
----------------------------------------------------------------------------------------------------------------
OH                                                                  67.42%                               32.58%
----------------------------------------------------------------------------------------------------------------
OK                                                                  73.73%                               26.27%
----------------------------------------------------------------------------------------------------------------
OR                                                                  76.08%                               23.92%
----------------------------------------------------------------------------------------------------------------
PA                                                                  81.60%                               18.40%
----------------------------------------------------------------------------------------------------------------
PR                                                                  87.48%                               12.52%
----------------------------------------------------------------------------------------------------------------
RI                                                                  57.92%                               42.08%
----------------------------------------------------------------------------------------------------------------
SC                                                                  75.97%                               24.03%
----------------------------------------------------------------------------------------------------------------
SD                                                                  59.93%                               40.07%
----------------------------------------------------------------------------------------------------------------
TN                                                                  72.93%                               27.07%
----------------------------------------------------------------------------------------------------------------
TX                                                                  72.82%                               27.18%
----------------------------------------------------------------------------------------------------------------
UT                                                                  75.57%                               24.43%
----------------------------------------------------------------------------------------------------------------
VA                                                                  73.71%                               26.29%
----------------------------------------------------------------------------------------------------------------
VI                                                                  90.54%                                9.46%
----------------------------------------------------------------------------------------------------------------
VT                                                                  69.25%                               30.75%
----------------------------------------------------------------------------------------------------------------
WA                                                                  67.72%                               32.28%
----------------------------------------------------------------------------------------------------------------
WI                                                                  68.92%                               31.08%
----------------------------------------------------------------------------------------------------------------
VW                                                                  70.38%                               29.62%
----------------------------------------------------------------------------------------------------------------
WY                                                                  73.74%                               26.26%
----------------------------------------------------------------------------------------------------------------
National Average:                                                                                        26.71%
----------------------------------------------------------------------------------------------------------------


11. Is a follow up program implemented by the DOL feasible?
    Response: Follow-up on program exiters is a key component of all 
the veterans' employment programs for which VETS is responsible, but 
the way in which follow-up is implemented varies according to each 
program's service delivery approach.
    In the Homeless Veterans' Reintegration Program (HVRP), the 
Veterans' Workforce Investment Program (VWIP) and the REALifelines 
(RLL) Program, follow-up is implemented for two purposes: to provide 
guidance, encouragement and support to job seeking veterans during and 
after program participation; and, to determine whether these veterans 
achieved the desired outcomes of entry to employment and retention in 
employment.
    In the Jobs for Veterans State Grants, personal follow-up is 
implemented solely to guide, encourage and support the job seeking 
veterans during and after program participation. Their outcomes are 
determined through other channels. An example of this type of follow-up 
occurs as part of the intensive services provided by DVOP specialists. 
Intensive services involve the provision of various types of assistance 
during program participation, as well as during the early stages of 
entry to employment and retention in employment. However, the outcomes 
are determined based on the collection of wage record data, as 
discussed in the response to the following question.
12. Does using wage record data a good enough measure outcomes?
    Response: DOL is confident that wage record data represent the best 
available source of information on the outcomes of veterans for the 
purpose of program reporting. The Congress has indicated its preference 
for reporting program outcomes that are based on wage record data in 
both the Workforce Investment Act (Section 136) and the Jobs for 
Veterans Act (38 U.S.C. 4102A(f)(2)(A)).
    The data source is further enhanced by the Wage Record Interchange 
System (WRIS) which has been developed to facilitate the interstate 
exchange of wage data between participating states for the purpose of 
assessing and reporting on state and local performance. The primary 
benefit is that DOL and it grantees get a more robust picture of the 
effectiveness of their programs by tracking individuals who may get 
served in one state but find employment in another. VETS' confidence in 
the accuracy of wage record data is reinforced by the agency's own 
experience reporting outcomes for the DVOP/LVER program before the 
implementation of wage record data collection. Under the prior 
approach, reported outcomes were much lower overall and the variation 
in reported outcomes among states was much greater.
    However, VETS does not place exclusive reliance on reported program 
outcomes from wage record data in managing and assessing the DVOP/LVER 
program. Rather, VETS relies on multiple lines of evidence and 
significantly supplements reported program outcomes by emphasizing 
continuous improvement through the annual performance cycle, which 
consists of planning, monitoring and technical assistance, and the 
independent perspectives afforded by studies and evaluations conducted 
under contract by experts in various fields.
13. How much would it cost to make part time DVOPs full time?
    Response: It would take about $5 million to convert the current 101 
half-time DVOP specialists the states planned to support in FY 2008 to 
full-time status. However, such a move would also run counter to the 
basis of the funding formula. Further, the authorizing legislation 
allows states the flexibility to appoint part-time staff.
14. How many referrals does the DOL receive from VA for placement of 
        staff in DVOP/LVER?
    Response: In FY 2006, the VA's VR&E referred 6,658 individuals. Of 
that number, 5,801 were registered in the SWA systems, and there was a 
resulting entered employment rate of 87%. The FY 2007 figures are still 
being compiled. Please see the response to question nine for additional 
information.
15. The Chairwoman requests the DOL to provide information on which 
        states are recognized as having successful DVOP/LVER programs.
    Response: Employment and employment retention rates are measured 
against the negotiated measures of each outcome for veterans, disabled 
veterans, transitioning servicemembers, and recently separated 
servicemembers. In the near future, average earnings may be included in 
the measured outcomes for veterans. These outcomes are measured on a 
rolling four-quarter basis, since employment retention and wage 
measurements are calculated over a period of time following their last 
service.
    Attachment 1 indicates the results of measures reported through the 
One-Stop Career Center system which includes the combined integrated 
efforts of all State Workforce Agency staff including the DVOP 
specialist, LVER and Wagner-Peyser Program staff.
16. Provide information to the Subcommittee on how many DVOP/LVER 
        receive training with in the first year, state by state.
    Response: As discussed in the response to Question #8, VETS has 
been tracking the DVOP specialists and LVER staff appointed or assigned 
since January 1, 2006, to ensure that they complete training within the 
first three years of service. We do not have data on the number of 
state employees who completed training in their first year, but our 
most recent report shows that a total of 176 staff hired after January 
1, 2006, have satisfactorily completed NVTI training within the first 
21 months since the law took effect. Attachment 2 shows a count of the 
courses completed between January 1, 2006 and September 30, 2007.

               One-Stop Performance Outcomes By State Source: ETA 9002 D Qtr Ending June 30, 2007
                                           (Reported as of 10-18-2007)
----------------------------------------------------------------------------------------------------------------
                                                                            Disabled Veteran   Disabled Veteran
                 State                     Veteran EER*    Veteran ERR**          EER*               ERR**
----------------------------------------------------------------------------------------------------------------
Alabama                                             61%              80%                57%                 78%
----------------------------------------------------------------------------------------------------------------
Alaska                                              51%              73%                45%                 69%
----------------------------------------------------------------------------------------------------------------
Arizona                                             51%              76%                46%                 74%
----------------------------------------------------------------------------------------------------------------
Arkansas                                            67%              79%                63%                 79%
----------------------------------------------------------------------------------------------------------------
California                                          52%              78%                49%                 78%
----------------------------------------------------------------------------------------------------------------
Colorado                                            62%              81%                59%                 81%
----------------------------------------------------------------------------------------------------------------
Connecticut                                         59%              76%                49%                 76%
----------------------------------------------------------------------------------------------------------------
Delaware                                            53%              73%                47%                 78%
----------------------------------------------------------------------------------------------------------------
District of Columbia                                61%              75%                52%                 78%
----------------------------------------------------------------------------------------------------------------
Florida                                             59%              79%                54%                 78%
----------------------------------------------------------------------------------------------------------------
Georgia                                             63%              78%                59%                 77%
----------------------------------------------------------------------------------------------------------------
Hawaii                                              46%              75%                45%                 71%
----------------------------------------------------------------------------------------------------------------
Idaho                                               68%              79%                61%                 77%
----------------------------------------------------------------------------------------------------------------
Illinois                                            62%              83%                57%                 82%
----------------------------------------------------------------------------------------------------------------
Indiana                                             66%              83%                59%                 83%
----------------------------------------------------------------------------------------------------------------
Iowa                                                68%              83%                61%                 81%
----------------------------------------------------------------------------------------------------------------
Kansas                                              71%              84%                69%                 85%
----------------------------------------------------------------------------------------------------------------
Kentucky                                            65%              79%                58%                 77%
----------------------------------------------------------------------------------------------------------------
Louisiana                                           24%              67%                25%                 64%
----------------------------------------------------------------------------------------------------------------
Maine                                               59%              83%                53%                 83%
----------------------------------------------------------------------------------------------------------------
Maryland                                            63%              82%                60%                 82%
----------------------------------------------------------------------------------------------------------------
Massachusetts                                       54%              73%                46%                 72%
----------------------------------------------------------------------------------------------------------------
Michigan                                            53%              74%                47%                 70%
----------------------------------------------------------------------------------------------------------------
Minnesota                                           56%              82%                51%                 80%
----------------------------------------------------------------------------------------------------------------
Mississippi                                         54%              25%                46%                 24%
----------------------------------------------------------------------------------------------------------------
Missouri                                            62%              77%                55%                 77%
----------------------------------------------------------------------------------------------------------------
Montana                                             69%              83%                67%                 82%
----------------------------------------------------------------------------------------------------------------
Nebraska                                            62%              82%                57%                 81%
----------------------------------------------------------------------------------------------------------------
Nevada                                              71%              80%                67%                 80%
----------------------------------------------------------------------------------------------------------------
New Hampshire                                       63%              74%                58%                 73%
----------------------------------------------------------------------------------------------------------------
New Jersey                                          56%              79%                47%                 76%
----------------------------------------------------------------------------------------------------------------
New Mexico                                          54%              74%                51%                 75%
----------------------------------------------------------------------------------------------------------------
New York                                            57%              80%                55%                 79%
----------------------------------------------------------------------------------------------------------------
North Carolina                                      56%              75%                53%                 75%
----------------------------------------------------------------------------------------------------------------
North Dakota                                        68%              86%                51%                 84%
----------------------------------------------------------------------------------------------------------------
Ohio                                                40%              82%                38%                 81%
----------------------------------------------------------------------------------------------------------------
Oklahoma                                            71%              84%                68%                 82%
----------------------------------------------------------------------------------------------------------------
Oregon                                              62%              84%                51%                 80%
----------------------------------------------------------------------------------------------------------------
Pennsylvania                                        61%              83%                54%                 81%
----------------------------------------------------------------------------------------------------------------
Puerto Rico                                         33%               0%                23%                  0%
----------------------------------------------------------------------------------------------------------------
Rhode Island                                        58%              81%                47%                 67%
----------------------------------------------------------------------------------------------------------------
South Carolina                                      69%              81%                65%                 80%
----------------------------------------------------------------------------------------------------------------
South Dakota                                        63%              83%                51%                 80%
----------------------------------------------------------------------------------------------------------------
Tennessee                                           59%              76%                57%                 76%
----------------------------------------------------------------------------------------------------------------
Texas                                               66%              84%                62%                 84%
----------------------------------------------------------------------------------------------------------------
Utah                                                71%              86%                66%                 86%
----------------------------------------------------------------------------------------------------------------
Vermont                                             61%              73%                50%                 79%
----------------------------------------------------------------------------------------------------------------
Virginia                                            68%              83%                65%                 80%
----------------------------------------------------------------------------------------------------------------
Virgin Islands                                      44%              64%                 0%                 20%
----------------------------------------------------------------------------------------------------------------
Washington                                          70%              84%                64%                 85%
----------------------------------------------------------------------------------------------------------------
West Virginia                                       65%              82%                56%                 80%
----------------------------------------------------------------------------------------------------------------
Wisconsin                                           64%              86%                61%                 86%
----------------------------------------------------------------------------------------------------------------
Wyoming                                             62%              77%                59%                 75%
----------------------------------------------------------------------------------------------------------------
National Average                                    59%              79%                55%                 78%
----------------------------------------------------------------------------------------------------------------
* EER = Entered Employment Rate
** ERR = Employment Retention Rate

                                 <all>

</pre></body></html>
